<html>
<title> - AN UPDATE ON FIRSTNET</title>
<body><pre>[Senate Hearing 115-479]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-479

                         AN UPDATE ON FIRSTNET

=======================================================================

                                HEARING

                               BEFORE THE

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 20, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                Available online: http://www.govinfo.gov
                
                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
35-165 PDF                  WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).E-mail, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2c4b5c436c4f595f584449405c024f434102">[email&#160;protected]</a>                               
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 
                                 
                           ----------                                

    SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, INNOVATION, AND THE 
                                INTERNET

ROGER F. WICKER, Mississippi,        BRIAN SCHATZ, Hawaii, Ranking
    Chairman                         MARIA CANTWELL, Washington
ROY BLUNT, Missouri                  AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                EDWARD MARKEY, Massachusetts
JERRY MORAN, Kansas                  CORY BOOKER, New Jersey
DAN SULLIVAN, Alaska                 TOM UDALL, New Mexico
DEAN HELLER, Nevada                  GARY PETERS, Michigan
JAMES INHOFE, Oklahoma               TAMMY BALDWIN, Wisconsin
MIKE LEE, Utah                       TAMMY DUCKWORTH, Illinois
RON JOHNSON, Wisconsin               MAGGIE HASSAN, New Hampshire
SHELLEY CAPITO, West Virginia        CATHERINE CORTEZ MASTO, Nevada
CORY GARDNER, Colorado
TODD YOUNG, Indiana
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 20, 2017....................................     1
Statement of Senator Wicker......................................     1
Statement of Senator Schatz......................................     2
Statement of Senator Nelson......................................    34
    Prepared statement...........................................    34
Statement of Senator Hassan......................................    36
Statement of Senator Klobuchar...................................    40
Statement of Senator Markey......................................    43
Statement of Senator Inhofe......................................    46
Statement of Senator Booker......................................    49

                               Witnesses

Curtis Brown, Deputy Secretary, Homeland Security and Public 
  Safety, Commonwealth of Virginia...............................     3
    Prepared statement...........................................     5
Damon Allen Darsey, MD, Medical Director, Mississippi Center for 
  Emergency Services, University of Mississippi Medical Center...    10
    Prepared statement...........................................    12
Mark L. Goldstein, Director, Physical Infrastructure Issues, 
  United States Government Accountability Office.................    16
    Prepared statement...........................................    18
Chris Sambar, AT&T Senior Vice President, FirstNet, AT&T Inc.....    22
    Prepared statement...........................................    23
Michael Poth, Chief Executive Officer, First Responder Network 
  Authority (FirstNet)...........................................    26
    Prepared statement...........................................    27

                                Appendix

Response to written questions submitted to Chris Sambar by:
    Hon. John Thune..............................................    57
    Hon. Roger F. Wicker.........................................    57
    Hon. Roy Blunt...............................................    61
    Hon. Bill Nelson.............................................    62
    Hon. Gary Peters.............................................    63
    Hon. Catherine Cortez Masto..................................    64
Response to written questions submitted to Michael Poth by:
    Hon. John Thune..............................................    64
    Hon. Roger F. Wicker.........................................    65
    Hon. Deb Fischer.............................................    69
    Hon. Ron Johnson.............................................    70
    Hon. Bill Nelson.............................................    70
    Hon. Gary Peters.............................................    71
    Hon. Catherine Cortez Masto..................................    72

 
                         AN UPDATE ON FIRSTNET

                              ----------                              


                        THURSDAY, JULY 20, 2017

                               U.S. Senate,
       Subcommittee on Communications, Technology, 
                      Innovation, and the Internet,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Roger Wicker, 
Chairman of the Subcommittee, presiding.
    Present: Senators Wicker [presiding], Blunt, Fischer, 
Inhofe, Schatz, Nelson, Klobuchar, Blumenthal, Markey, Booker, 
Hassan, and Cortez Masto.

          OPENING STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. It is precisely 10 a.m. Good morning, and 
the Subcommittee will come to order.
    Today, the Subcommittee meets for an update on FirstNet and 
its exciting efforts to deploy the nationwide, interoperable 
public safety broadband network. I am glad to convene this 
hearing, and I look forward to the attendance in just a moment 
or two from my good friend, and Ranking Member, Mr. Schatz.
    In 2012, Congress created the First Responder Network 
Authority to lead the development of a nationwide, 
interoperable public safety broadband network in the United 
States. Following the communications failures that plagued 
recovery efforts during 9/11, and other national emergencies, 
including Hurricane Katrina, there was, and still is, a clear 
need for a reliable communications network to support the 
essential work of our public safety officials. Such a network 
would improve coordination among first responders across 
multiple jurisdictions and enhance the ability of first 
responders to provide lifesaving emergency services quickly.
    Last year, this Subcommittee convened for an update on 
FirstNet's progress in establishing the public safety broadband 
network. At that time, we heard from FirstNet about how it 
intended to address the unique and individualized needs of each 
state in deploying the radio access network. FirstNet also 
reiterated its commitment to providing reliable coverage to 
rural areas, an issue near and dear to my heart and to a number 
of members of this subcommittee. FirstNet assured members of 
the Subcommittee that user fees would be reasonably and 
affordably priced for public safety users--two issues of great 
importance to first responders around the country.
    Since that time, much has happened. Last November, FirstNet 
opened an Innovation and Test Lab to develop and test new 
devices and applications that could be used by first responders 
on the future public safety network. In March, FirstNet 
formally selected AT&T as its industry partner to build, 
operate, and maintain the network over the next 25 years. And 
last month, FirstNet issued the initial state plans, which 
detail its deployment proposals for the radio access network in 
each of the states and other jurisdictions. States are now 
reviewing these plans and providing feedback to FirstNet and 
AT&T before the finalized plans are issued in the fall.
    Today, I look forward to hearing more about each of these 
actions. I am eager to learn about FirstNet and AT&T's network 
buildout plans and how they will leverage existing 
infrastructure assets within states to maximize coverage in 
rural areas and save taxpayer dollars. I hope our witnesses 
will also address the development of subscription pricing plans 
for public safety officials to use the network and how those 
plans are being developed in coordination with the states.
    Likewise, I look forward to hearing about the resiliency of 
the network, in particular, how FirstNet and AT&T will harden 
and secure it from potential cyber threats, natural disasters, 
and other unplanned events. Additionally, I am interested in 
how FirstNet and AT&T will incorporate feedback from the states 
before the initial plans are finalized.
    By any estimation, the development of this nationwide 
public safety broadband network is a challenge. But it is an 
important endeavor to ensure that first responders can fulfill 
their daily mission to save lives. At the center of this effort 
is the courage of our Nation's first responders, who put their 
lives on the line every day in my state of Mississippi, in 
Senator Schatz's state of Hawaii, and across the Nation to 
protect our families, neighborhoods, and communities. They 
deserve a network that is interoperable, reliable, and secure.
    I welcome all of our witnesses today. They include: Mr. 
Curtis Brown, Deputy Secretary, Office of the Virginia 
Secretary of Public Safety and Homeland Security; Mr. Damon 
Darsey, Assistant Professor, University of Mississippi Medical 
Center; Mr. Mark Goldstein, Physical Issues Director, 
Government Accountability Office; Mr. Michael Poth, Chief 
Executive Officer, FirstNet; and Mr. Chris Sambar, Senior Vice 
President, AT&T.
    Thank you all for being here, and I'm delighted at this 
point to recognize my friend and Ranking Member, Senator 
Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman, and thank you to 
our witnesses for being here.
    In 2012, when Congress created FirstNet, we made an 
important commitment to public safety. At the time, we knew 
from the tragedies of September 11 and Hurricane Katrina that 
our first responders faced glaring communications problems. 
They often couldn't communicate with one another in an 
emergency. We also knew that these problems could be solved 
with a nationwide, interoperable public safety communication 
network.
    Today, we are closer than ever to making that solution a 
reality. With FirstNet, firefighters will be able to download 
the blueprint of a burning building before they enter. A police 
officer arriving at a scene can run a background check or get 
pictures of a suspect by accessing a Federal law enforcement 
database. Most importantly, emergency personnel will not be 
competing with commercial users for bandwidth. They will have 
priority on this network, which will be built and hardened to 
public safety specifications. It will have ruggedized and 
competitive devices and specify public safety applications.
    So there's no doubt that FirstNet will revolutionize public 
safety communications for decades to come, but it's also a huge 
task. This is the first time we've done anything like this. 
FirstNet staff and the Board have made good progress since our 
hearing last year. We now have a vendor, AT&T, that brings 
assets that go beyond what FirstNet envisioned. FirstNet and 
AT&T have delivered plans to each state 3 months ahead of 
schedule. Five states have already opted in to FirstNet and 
many are in the review process. We hope that as states and 
first responders learn more about the value of this network, 
they will choose to participate.
    Many of us represent rural and remote areas of this 
country. These communities already suffer from a lack of 
adequate access to commercial broadband services. So it's 
critical that FirstNet and AT&T address this challenge headon 
so that every first responder in all parts of our country 
benefit from the new network. FirstNet and AT&T have a 
responsibility to ensure that the specific needs of all states 
and territories are respected throughout all aspects of this 
program, from deployment to operations and management.
    Once each state has made its final decision on how to 
participate, FirstNet, AT&T, and their partners can begin in 
earnest to build the network that delivers on the promise that 
Congress made to the public in 2012.
    I want to thank the witnesses for appearing before the 
Committee, and I look forward to the testimony.
    Senator Wicker. Thank you, Senator Schatz, and I think the 
attendance today reflects the importance of this topic and also 
the interest of Americans in this exciting new chapter.
    If it's all right, we'll take the testimony in this order. 
We'll sort of go from one end of the table to the other, and 
then we'll end up in the middle. How's that?
    So, Mr. Brown, you are recognized to go first.

          STATEMENT OF CURTIS BROWN, DEPUTY SECRETARY,

              HOMELAND SECURITY AND PUBLIC SAFETY,

                    COMMONWEALTH OF VIRGINIA

    Mr. Brown. Thank you and good morning, Chairman Wicker, 
Ranking Member Schatz, and members of the Committee. On behalf 
of Governor Terry McAuliffe and Secretary of Public Safety and 
Homeland Security, Brian Moran, I would like to thank you for 
this opportunity to discuss FirstNet and Virginia's efforts to 
ensure first responders have the emergency communication 
capabilities necessary to respond to all hazards.
    Last week, the Governor was proud to announce that Virginia 
was the first state in the Nation to opt-in to FirstNet. 
Virginia opted in to provide current AT&T public safety 
subscribers with the benefit of priority services now at no 
cost to the Commonwealth, as well as to greenlight the buildout 
of Virginia's portion of the national public safety broadband 
network.
    We believe that decision to opt-in will promote competition 
within the public safety communications marketplace that will 
reduce costs and drive innovation across all carriers. Opting 
out was considered, but the unknown costs and risks associated 
with deploying and operating the network was not feasible. 
Virginia has long been a leader in the field of 
interoperability for public safety, and the decision to opt-in 
continues that trend.
    Our unique geography and critical infrastructure requires a 
robust public safety and homeland security program to prepare 
for a wide range of potential threats, from terrorism to 
hurricanes. Therefore, it is vital that our public safety 
professionals are equipped with the tools needed to save lives. 
Since the attacks of 9/11, Virginia public safety leaders have 
helped to develop the governing structure and policy positions 
needed so that lessons learned related to interoperable 
emergency communications during that tragic day are 
implemented.
    Many of the people who stood on stage last week during the 
ceremonial signing of the Governor's opt-in letter assisted 
with the response on 9/11 at the Pentagon in Arlington. I'm 
joined here today by my colleagues from Virginia who have been 
instrumental in our effort to engage Virginia public safety 
stakeholders, including law enforcement, fire, EMS, and 
emergency management.
    Megan Peterson, our Homeland Security Resilience Group 
Staff Director; Tom Gagnon, our State Point of Contact; and 
Asif Bhavnagri, have been instrumental in our efforts to review 
FirstNet documents and engage stakeholders. Fire Chief Emeritus 
Charles Werner from Charlottesville is recognized as a national 
leader on the subject of emergency communications and 
innovation for public safety. Terry Hall serves as our state 
Interoperability Executive Committee chair and was past 
president of APCO. Both of these gentlemen have lent their 
expertise and years of service to improve emergency 
communications in Virginia and nationally.
    Therefore, Virginia's decision to opt-in and to opt-in now 
was based on years of study, outreach, and collaboration with 
our public safety stakeholders, FirstNet, and now with AT&T. 
Moving forward, we will work with FirstNet and AT&T to maximize 
the benefit of the network for the Commonwealth's public safety 
community.
    Essential to this collaborative effort is our commitment to 
ensuring adequate coverage, especially for our responders in 
rural communities. It is also critical to expedite the effort 
to provide mission critical voice and advance the schedule for 
enhanced location capabilities to 2019 in order to adequately 
protect our men and women in uniform.
    As Governor McAuliffe mentioned last week, our opt-in 
decision marks another significant step forward in advancing 
broadband capabilities for public safety. But our work 
continues. As more states determine their best way forward, I 
know that, collectively, we will continue to provide feedback 
to Congress, FirstNet, and AT&T. Working together, we can 
finally realize the ultimate goal of furthering interoperable 
emergency communication and creating a safe, secure, and 
reliable network for public safety.
    Thank you again, and I look forward to answering any of 
your questions.
    [The prepared statement of Mr. Brown follows:]

         Prepared Statement of Curtis Brown, Deputy Secretary, 
     Homeland Security and Public Safety, Commonwealth of Virginia
Introduction
    Chairman Wicker, Ranking Member Schatz, and distinguished members 
of the Subcommittee, thank you for the invitation to appear before you 
today to discuss furthering the effort to enhance emergency 
communications for public safety. I bring you greetings on behalf of 
Governor Terence R. McAuliffe the 72nd Governor of the Commonwealth of 
Virginia, and Virginia's first Secretary of Public Safety and Homeland 
Security Brian Moran. Governor McAuliffe and Secretary Moran, along 
with Virginia's public safety professionals on the state and local 
levels, are proud that Virginia has become the first state in the 
Nation to opt-in to FirstNet's National Public Safety Broadband 
Network. Last week, the Governor was joined at FirstNet Headquarters by 
public safety personnel from law enforcement, fire, EMS, and emergency 
management who hailed the decision as a continuation of Virginia's 
leadership in the advancement of public safety interoperable 
communication. We see this as critical to our ability to provide public 
safety with the tools they need to carry out their mission and protect 
lives in the event of an emergency.
    Virginia did not arrive at the decision to opt-in haphazardly. For 
many years, since the tragic events of 9/11, Virginia public safety 
professionals have been actively engaged in the efforts to improve 
emergency communications and fully leverage the technological 
advancements of mission-critical broadband. A coordinated and 
collaborative approach with local government public safety 
representatives was utilized to make sure that the decision was 
informed by the individuals who are the subject matter experts for 
public safety communication and stand on the frontlines of all-hazard 
emergency response. The decision to opt-in was based on the desire to 
ensure as quickly as possible that public safety is able to leverage 
the benefits of priority and preemption service, as well as to prevent 
costs to the Commonwealth, and move forward with the collaborative 
process of building the network to meet the Virginia-specific needs of 
public safety.
Integrated and Collaborative Emergency Response
    When a major incident or disaster occurs the resources of one 
jurisdiction are quickly overwhelmed. These types of events necessitate 
coordination among all surrounding jurisdictions. Integrated response 
thus requires disparate public safety agencies to be able to 
communicate with each other. Virginia is committed to doing everything 
possible to save the lives of citizens, support emergency response, and 
protect our public safety responders.
    The attacks on 9/11 highlighted the inability of first responders 
to communicate with one another. Lives were lost due to incompatible 
and inadequate technology. Virginia experienced this with the attack on 
the Pentagon in Arlington. The Pentagon response involved four 
preeminent jurisdictions: Arlington County, Fairfax County, the City of 
Alexandria and the District of Columbia. Each jurisdiction used its own 
radio channel for communication and had no way to communicate with each 
other despite teams being deployed to work on the same tasks. Cellular 
telephones were useless within the first few hours because the towers 
were inundated and cellular priority access service was not provided to 
emergency responders.
    FirstNet and the Nationwide Public Safety Broadband Network are the 
result of the 9/11 Commission's recommendation. The goal was, and is 
today, to ensure continued and interoperable communication among our 
first responders during a disaster or other large-scale event. Now, 
nearly 16 years later, Virginia has helped make this a reality in the 
Commonwealth by opting-in to the Nationwide Public Safety Broadband 
Network.
Overview of Virginia
    The unique geography and infrastructure of the Commonwealth of 
Virginia enhances our risks to the many hazards we face. Over 8.4 
million people reside in Virginia. The population is largely 
concentrated in the eastern corridor of the state, including the 
Hampton Roads and Richmond metro areas, with the largest concentration 
in Northern Virginia. However, a significant portion of the state is 
rural.
    The geographic diversity of the mountains in the west and the 3,315 
miles of shoreline along the eastern border creates the opportunity for 
many natural hazards. The entire state is vulnerable to hurricanes, 
tropical storms, and flooding, as well as the potential for tornadoes 
and earthquakes. The mountainous western portion of the state is 
susceptible to wildfires, and both the western and northern portions of 
the state experiences severe winter storms. In 2016, the Commonwealth 
experienced the fourth largest snowstorm in the last century, the 
deadliest tornado event in Virginia since 1959, and multiple hurricane 
and flooding events that produced record amounts of rainfall and 
flooding.
    Virginia's proximity to the Nation's capital, and the fact that it 
is home to many Federal agencies and more than two dozen military 
installations with the second largest military presence in the nation, 
make it a prime target for terrorist activity and cyber attacks. 
Virginia is rich in economic and defense infrastructure including the 
world's largest naval base, the biggest Internet exchange point in the 
world, the fifth largest U.S. port, the Nation's only manufacturer of 
nuclear naval aircraft carriers, and one of only two nuclear submarine 
manufacturers. As such, homeland security a major priority here in 
Virginia.
    The Commonwealth partners with federal, state, and local public 
safety entities to ensure a collaborative response to incidents that 
brings together all capabilities for a quick and integrated response to 
emergencies and disasters. From the evolving threat of terrorism to 
extreme weather caused by the changing climate and rising sea, 
Virginia's public safety community must be prepared for all hazards.
    Combined, there are thousands of public safety agencies at the 
local, county, state, and Federal levels in Virginia that are potential 
users of the Nationwide Public Safety Broadband Network.

  <bullet> Law Enforcement and Corrections: Virginia has approximately 
        370 law enforcement agencies and 24 prison/detention 
        facilities. In March 2017, there were a total of 21,838 law 
        enforcement officers employed in various state and local 
        agencies. In addition, the state has a total of 7,268 
        correctional officers working in state, county, and private 
        detention centers and prisons throughout the state.

  <bullet> Fire Service: Virginia is home to 730 career and volunteer 
        fire departments and has approximately 38,000 certified 
        firefighters across the state. Fire Service personnel responded 
        to 28,562 fires in 2016.

  <bullet> Emergency Medical Services (EMS): In 2016, Virginia had 
        34,000 licensed EMS providers operating throughout the state 
        that answered nearly 1.5 million EMS incident calls for 
        service. There are currently 22,772 Certified Emergency Medical 
        Technicians and 6,296 Certified Paramedics in the Commonwealth 
        of Virginia.

  <bullet> Emergency Management: Each of the 134 counties and cities in 
        Virginia has an emergency manager, along with the several large 
        towns.

  <bullet> Secondary responders: Beyond the traditional first 
        responders described above, this network will likely support 
        non-traditional agencies such as those related to 
        transportation, public works, and utilities. These agencies may 
        be permitted to use the network on a secondary basis and would 
        contribute to emergency response in the event of an incident 
        that required their services, such as the clearing of roads or 
        restoration of power.
Current Use of Technology
    Many public safety agencies within the Commonwealth of Virginia 
currently use data applications via vehicle mounted mobile data 
devices, ruggedized computers, as well as handheld devices and 
smartphones. Some of these applications operate over legacy private 
Land Mobile Radio (LMR) networks, while the majority utilize commercial 
3G and 4G services. Applications in use today include, but are not 
limited to: Inter/Intranet access, Automatic vehicle location (AVL), 
access to local networks via a virtual private network (VPN), computer-
aided dispatch and records management systems, sharing of reports and 
photos, access to criminal database information, automotive and driver 
license checks, weather reports, river-level monitoring, aerial and 
scene video, applications supporting the Incident Command System (ICS), 
Intelligent Transportation System (ITS) applications, such as traffic 
cameras and road signage, messaging, geospatial access for mapping and 
infrastructure plans, and systems management/monitoring tools.
    In addition to the vehicle-mounted devices, users would also 
utilize handheld and tablet devices to access these types of 
applications as well as voice, text, VoIP, video services, and group 
communications.
Virginia's Decision Making Process
Engagement with FirstNet & AT&T
    Virginia has been engaged on this issue from the very beginning. 
Since FirstNet was created, Virginia has been in continuous contact 
with the agency; there have been countless meetings, briefings, calls, 
and e-mails. Virginia's SPOC has ensured continued communication 
throughout the process so that Virginia remained informed of 
developments as they occurred.
    Since the announcement of FirstNet and AT&T's public/private 
partnership, Virginia's SPOC has facilitated numerous briefings for 
Virginia public safety leaders and the Commonwealth's senior leadership 
in the Governor's Office and the Attorney General's Office.
Engagement with Stakeholders
    Thanks to the State and Local Implementation Grant Program, 
Virginia has held over 60 state, regional, and local engagements with 
our stakeholders to make sure they are informed and involved in the 
process. These meetings engaged subject matter experts to help identify 
Virginia's needs and priorities. This process helped to ensure state 
and local officials outside of public safety understood the role of 
FirstNet and the implications it would have on them.
    Presentations were neutral regarding the opt-in/opt-out decision in 
order to elicit feedback that would enable an effective evaluation of 
each course of action.
    By highlighting certain aspects such as rural coverage, network 
construction timeline, and the requirement to maintain LMR systems, 
these presentations helped manage expectations and enabled stakeholders 
to begin contemplating the advantages and disadvantages of subscribing 
to the network in the future.
    FirstNet was encouraged to be involved in these stakeholder 
meetings and consistently participated. This facilitated the rapid 
transmittal of feedback from the field to FirstNet headquarters.
Engagement with Other SPOCs
    Virginia's perspective has always been, that in order for this to 
truly be a Nationwide Public Safety Broadband Network, states must work 
together to ensure the network meets everyone's needs. To this end, 
Virginia hosted a regional meeting with the Single Points of Contact 
from six states--both nearby and across the country--as well as the 
District of Columbia. This meeting produced valuable data and best 
practices to inform the plan evaluation and decision processes. It also 
served to allow states' subject matter experts to discuss their 
concerns and experiences, which were compiled and provided as feedback 
to FirstNet. This feedback directly contributed to the additional 
information states received after the FirstNet/AT&T SPOC conference in 
Dallas, TX at the beginning of July.
Statewide Interoperability Executive Committee
    In 2016, a Statewide Interoperability Executive Committee (SIEC) 
was reconstituted with 33 representatives from state agencies, tribal 
nations, the seven Regional Preparedness Advisory Committees for 
Interoperability, and key professional organizations including, the VA 
Association of Campus Law Enforcement, VA Association of Public Safety 
Communications Officials, VA National Emergency Number Association, VA 
Chiefs of Police Association, VA State Police Association, VA 
Association of Governmental EMS Administrations, VA Sheriffs 
Association, VA Fire Chiefs Association, VA State Fighter Association, 
State Council of Higher Education, VA Professional Firefighters 
Association, VaLITE, VA Association of Counties, VA Municipal League, 
Amateur Radio Emergency Service, and the Virginia Military Advisory 
Council.
    The SIEC provides guidance to the state on interoperability 
throughout Virginia and was integral in developing the state plan 
vetting and recommendation process. These meetings helped ensure 
Virginia's public safety communications leaders were kept up-to-date on 
the latest developments pertaining to FirstNet's Request for Proposal 
process, and state plan development and release.
Request for Information (RFI) Review
    Virginia issued a Request for Information to ensure our ultimate 
decision was fully informed. Six responses were received and they were 
reviewed by both the Office of the Secretary of Public Safety and 
Homeland Security and the Office of the Secretary of Technology. The 
responses did not contain information to convince the state that 
opting-out was a viable endeavor Virginia should undertake.
State Plan Review
    All of the engagements above served to inform Virginia's review of 
the state plan. Before the portal was accessible, the Office of the 
Secretary of Public Safety and Homeland Security, the Virginia 
Information Technologies Agency, the Virginia Department of Emergency 
Management, the Office of the Attorney General, the Office of the 
Secretary of Commerce and Trade, the Department of General Services, 
the Virginia State Police, and the Statewide Interoperability Executive 
Committee were informed of their role in the state plan review process. 
Over 100 individuals from localities and state agencies have been given 
access to the state plan portal. It was our view that widespread 
engagement was essential to a thorough review of the plan.
    Once the plans were accessed and reviewed, Virginia was surprised 
that the information contained in the plans turned out to be a lot of 
the same information that FirstNet and AT&T had already provided. There 
was no significant information to analyze. Besides the state coverage 
map and local data, most of the information is similar to the public 
site.
Decision to Opt-In
    Governor McAuliffe has decided to opt-in and opt-in now because it 
is the best decision for public safety in Virginia.
Virginia Public Safety is Now Better Off
    Opting-in now provides Virginia public safety personnel with an 
additional tool in the tool belt. Because AT&T is making available 
network capacity on all of its existing LTE bands, ahead of LTE 
deployment on FirstNet's 700 MHz Band 14 spectrum, public safety 
agencies who are current AT&T subscribers will have priority access on 
the network. This will be invaluable in the event of a crisis or 
emergency situation. Numerous public safety agencies in Virginia 
including those in Fairfax County are current AT&T subscribers. 
Ensuring that our first responders have the right tools and resources 
available to do their jobs is a key component of a safe and secure 
Virginia.
    This decision will undoubtedly stimulate competition among all 
wireless carriers, which will benefit public safety economically and 
influence further improvements for the network. Competition also drives 
innovation and we want to make sure our responders are in the best 
position to do their jobs effectively, maintain situational awareness, 
and communicate within and across jurisdictions.
No Cost to the Commonwealth
    Opting-in costs the Commonwealth nothing. Priority access on the 
network comes at no additional financial cost to subscriber nor to the 
Commonwealth. Opting-in does not commit the Commonwealth to any role in 
the FirstNet buildout. FirstNet and AT&T will build, operate, and 
maintain the Commonwealth's portion of the National Public Safety 
Broadband Network at no cost to Virginia.
    There is no requirement for state agencies or localities to use the 
network or switch carriers, rather opting-in provides the option and 
benefits to those who do. State and local agencies still have the 
decision-making power to decide which carrier works best for them based 
on coverage, reliability, cost, etc.; this tool simply adds to that 
analysis.
Opting-In Now Provided Benefits that Waiting Did Not
    It was Virginia's assessment that the lack of specific information 
in the plan, in combination with the statutory constrained timeline, 
made it clear that this draft plan was in fact the ultimate, final 
state plan. This assessment is supported by the fact that because the 
Nationwide Public Safety Broadband Network will be self-sustaining, 
negotiating additional services means subtracting services from another 
state. This reality solidified Virginia's decision to opt-in now; there 
were only benefits to doing so, and none for waiting.
Opt-Out Consideration
    Opting out would have required accepting the unknown associated 
costs and risks for the ongoing deployment, operation, maintenance, and 
improvement of the network within the Commonwealth, which must be 
maintained in accordance with FirstNet's policies. Virginia would have 
had to oversee the buildout of a highly technical broadband wireless 
network and assume all responsibility, liability, and fiscal 
accountability, maintenance, and management of users and customer care.
    The cost of what it would have taken to construct, maintain, and 
operate a public safety dedicated broadband network in the 
Commonwealth, that is interoperable with the National Public Safety 
Broadband Network and matches the quality of service, is unknown. No 
one has been able to assess the cost and unfortunately any profits from 
the network would have had to be reinvested in the network and would 
not have been able to serve as a revenue sources for the state.
    Based on the legislative constraints, in particular the time 
constraints, thoroughly vetting an opt-out proposal, to the extent 
necessary, was not realistic. Choosing to do so would have put the 
Commonwealth in untenable, ambiguous position. Opting out would have 
delayed the benefits of network access to Virginia's first responders 
for an unacceptable time, perhaps as much as two years.
Virginia Specific Constraints
    Virginia is the only state in the Nation with a limit on 
consecutive gubernatorial terms. This puts Virginia in the unique 
position of a guaranteed administration change every four years. 
Moreover, Governor McAuliffe's term will end in January 2018. Making 
Governor McAuliffe, along with Governor Chris Christie, the only two to 
face this decision at the end of an administration. Attempting to 
oversee and execute a project of this magnitude and ambiguity within 
this context would have put the state on unsolid ground.
    In addition, the Commonwealth is particularly and 
disproportionately affected by sequestration. Virginia has the second 
most Federal civilian employees and is the number one recipient of 
Department of Defense spending. The effects of the 2013 sequestration 
resulted in less economic activity, lower-paying jobs, and less revenue 
for the Commonwealth. Since taking office, Governor McAuliffe has 
focused on building a New Virginia Economy, one that is aimed at 
private sector job growth and less reliant on Federal spending. These 
changes, however, take time. All of which means, Virginia is not in the 
fiscal position at this juncture to fund an extremely expensive 
project, whose cost is ultimately unknown.
Virginia's Path Forward
Continued Collaboration with FirstNet and AT&T
    We are continuing to work with FirstNet and AT&T to ensure we are 
able to maximize the benefits of the network to support the 
Commonwealth's public safety. This is just the beginning and there are 
certainly questions that remain; Virginia has no intention of ending 
discussions with FirstNet and AT&T.
Continued Engagement with Stakeholders
    Virginia will continue to work with local partners to provide 
feedback to FirstNet and AT&T in order to ensure a viable network that 
will enhance public safety communications throughout Virginia. Dialogue 
with stakeholders has provided FirstNet and AT&T with insight as to 
Virginia's expectations for the network and the Commonwealth will 
continue to work closely with them to provide feedback and look ahead 
to enhancements that will build on its current success.
    To this end, during August and September there will be seven 
regional day-long conferences conducted by Virginia's Single Point of 
Contact, FirstNet, and AT&T in order to provide the latest information 
and discuss the future.
Mission-Critical Capability Gaps \1\
---------------------------------------------------------------------------
    \1\ Charles Werner, Acting Virginia Department of Emergency 
Management Deputy Coordinator of Disaster Services, has been an 
integral part of the Virginia's public safety interoperable 
communications team. The following incorporates his expert opinions as 
outlined in his article, ``FirstNet-Opportunities and Challenges'' 
National Public Safety and Telecommunications Council (July 14, 2017), 
available at https://blog.npstc.org/2017/07/14/charles-werner-
charlottesville-va-fire-chief-emeritus-writes-on-firstnet-
opportunities-and-challenges/.
---------------------------------------------------------------------------
    Virginia understands that the state plans are merely a base-line. 
As such we will continue to assess the gaps and issues to ensure 
Virginia has the full coverage and reliability that our first 
responders need and provide feedback to FirstNet and AT&T. There are 
capabilities that Virginia has already identified as crucial to the 
success of this network.

  <bullet> Coverage: The public safety community is well aware that 
        AT&T does not have sufficient rural and small market network 
        coverage in Virginia. Virginia will continue to work with state 
        and local partners to help AT&T identify and bolster its 
        overall coverage.

  <bullet> Mission-critical voice: It is not only the burden of needing 
        multiple devices (one for voice, one for data) that demands 
        this issue be addressed, but each state's economic burden as 
        well, with the desire for new FirstNet data capabilities 
        tempered by the ongoing need to maintain extensive separate 
        voice networks across the same coverage area.

    FirstNet's RFP includes a March 2019 milestone for the mission-
        critical-push-to-talk (MCPTT) technical capability to be 
        implemented in its network, but more information is needed on 
        specific, intermediate milestones for technology development, 
        testing and validation, along with committed resources and 
        actions to achieve those milestones.

  <bullet> Mission-critical, enhanced location (with z-axis, vertical 
        capabilities): Unlike mission-critical voice, enhanced location 
        is a more near-term reality, with known technologies capable of 
        rolling out during the same time-frame as the base FirstNet LTE 
        deployment. These capabilities, including 3D geolocation, 
        situational awareness, and incident management command and 
        control, would be of extraordinary value to first responders, 
        both in finding an emergency caller, by floor, in a high-rise 
        building as well as in protecting their own safety in the event 
        they become disabled or endangered.

    The FirstNet board has stated that the contract requires that this 
        capability be available by March 2022, but board members and 
        staff have emphasized the need to implement it sooner, if the 
        technology is ready. In fact, the latest FirstNet roadmap calls 
        for ``updated FirstNet location-based services'' to be 
        implemented in the network by June 2019. This is a much better 
        timeline for first responders to receive this critical 
        functionality. Deployment timeframes and coverage for each 
        state's key markets with high-rise building concentrations is 
        needed.
Conclusion
    Governor McAuliffe views protecting public safety and supporting 
first responders as his top priority. Each day, Virginia's first 
responders put on their uniforms and leave their families and homes to 
risk their lives to keep our communities, citizens, and visitors safe. 
We are thankful every day for their service and sacrifice, and in 
return, we must continue to do more to protect their safety.
    Ensuring that our first responders have the right tools and 
resources available to do their jobs is a key component of achieving 
that goal. That is why Virginia is proud to be the first state to 
officially opt-in to the nationwide public safety broadband network, 
FirstNet. This innovative technology will improve public safety 
throughout the entire Commonwealth and better protect our men and women 
in uniform.
    FirstNet's public safety broadband network marks another 
significant step forward with these wireless data capabilities. 
FirstNet and AT&T are committed to working with us to make sure 
Virginia will have the full coverage that our first responders need. We 
will continue to work closely with them to provide feedback on the 
network and look ahead to enhancements that will build on this current 
success.
    Virginia intends to not only lead the Nation in the support and 
deployment of the FirstNet broadband network, but also in support of 
the safety of its citizens and first responder community.
    Thank you again for the opportunity to testify today and your 
support for our first responders.

    Senator Wicker. Thank you very much.
    And now, Dr. Darsey, Assistant Professor at the University 
of Mississippi Medical Center in Jackson, you are recognized 
for 5 minutes.

          STATEMENT OF DAMON ALLEN DARSEY, MD, MEDICAL

           DIRECTOR, MISSISSIPPI CENTER FOR EMERGENCY

       SERVICES, UNIVERSITY OF MISSISSIPPI MEDICAL CENTER

    Dr. Darsey. Good morning. Chairman Wicker, Ranking Member 
Schatz, members of the Subcommittee, thank you for the 
opportunity to testify regarding FirstNet and its challenges 
and opportunities specifically in the medical arena.
    I'm Damon Darsey. I'm an emergency physician by trade, 
public safety by background and passion. I serve as the Medical 
Director for the Mississippi Center for Emergency Services, the 
University of Mississippi Medical Center's umbrella 
organization that looks at research, clinical care, and 
coordination of that care in rural parts of our state.
    As many of you know, and as really well published, 
Mississippi has challenges in healthcare, unlike many other 
states, challenges that are with accident rates, with chronic 
disease, with location of providers, and with limited providers 
as our state progresses forward. The integration of a reliable 
public safety broadband network is vital for us to make things 
happen in Mississippi that we cannot currently do.
    Mississippi has been one of the leading states in both 
telemedicine and public safety communications for a number of 
years. After Hurricane Katrina, Mississippi developed and 
deployed the Land Mobile Radio system that now has nearly 
30,000 users and has revolutionized the way we practice 
medicine in Mississippi, from the state trooper on the side of 
the road and his medical care all the way to the critical care 
teams that fly in helicopters and ambulances.
    In 2010, Mississippi won a Broadband Technology Opportunity 
Award to overlay broadband data over an existing Land Mobile 
Radio network. We believe this was a vital next step in 2010 to 
integrate and improve our healthcare. We still firmly believe 
that. During the development and deployment of that system, we 
gained many lessons on how to deploy, develop, and integrate a 
system to improve public safety and medical care for rural 
providers.
    FirstNet has the potential to meet many of these needs. 
Many of us in small rural states don't have capacity, or don't 
have meaningful capacity in rural America, where we need it 
most in medicine. It's very easy to have coverage outside these 
doors, but now to have coverage in the middle of nowhere, to be 
able to provide that lifesaving medical care, or specifically 
get the patient to where they need to go--whether it's trauma 
on the side of the road or chronic medical disease, we can keep 
those patients out of the healthcare system and at home with 
the same level of care. Much of the same discussion is going on 
in other rooms today about healthcare. We believe FirstNet and 
broadband data are vital to that discussion going forward.
    As FirstNet has been rolling out, there are many questions 
that arise from our own experience in deploying a nearly entire 
network and some technical questions. From the medical 
perspective, we need reliable public safety grade data 
communications. That's vital. The biggest questions that we 
have are all around priority service and preemption.
    We in Mississippi have embarked on a unique opportunity for 
public safety professionals to improve healthcare in our state. 
One example is a grant we received from Homeland Security 
Office of Emergency Communications, the Rural Emergency Medical 
Communication Demonstration Project, where we are actively 
engaged in collecting data on how to improve going forward.
    We talked about BTOP earlier. BTOP has been retooled to now 
say that we're going to do innovation and R&D network to try to 
look at the ability to take this same data, and how to transmit 
it better over a wireless system. We believe this is the vital 
step for Mississippi and other rural states going forward.
    In closing, I appreciate the opportunity to be here and 
talk about medicine. As I see it going forward, this is the 
vital link for us in mortality. We have to get innovative in 
rural America, and this is one of the ways we do it. We hope 
this Committee in its oversight role will help FirstNet become 
what we all need, as we help them as well, in the vast areas of 
the state that are currently underserved by public safety 
broadband service.
    It's important to note and not to take issue with the 
large, sensational events that we've talked about, Hurricane 
Katrina and 9/11. But I challenge you that these events have 
the same impact on rural America almost weekly. A three-car 
accident in rural Mississippi, in rural Hawaii, in rural Nevada 
taxes the same resources as if it were in a larger city, and 
that's where we need this the most.
    The true possibility of FirstNet is to provide the 
resources to allow local public safety officials to push the 
boundaries of possibilities--and they are there and we can push 
them--and do what we do in Mississippi, challenge the norms of 
a traditional public safety role, to reach out and do things 
better than we have and things that we've not yet done. 
FirstNet could allow us to do that.
    Thank you for your time.
    [The prepared statement of Dr. Darsey follows:]

    Prepared Statement of Damon Allen Darsey, MD, Medical Director, 
 Mississippi Center for Emergency Services, University of Mississippi 
                             Medical Center
    Chairman Wicker, Ranking Member Schatz and Members of the 
Subcommittee on Communications, Technology, Innovation and the 
Internet, thank you for the opportunity to testify today regarding the 
challenges and opportunities associated with the First Responder 
Network Authority or FirstNet. My name is Dr. Damon Darsey and I serve 
as the Medical Director of the Mississippi Center for Emergency 
Services at the University of Mississippi Medical Center in Jackson.
Public Safety and Medical Voice Communications in Mississippi
    Mississippi covers 48,434 square miles and is home to 82 counties, 
282 police departments, 82 sheriff departments, 725 fire departments 
with more than 12,000 fire personal, more than 10,000 certified law 
enforcement personal, more than 6,000 EMS paramedics and 90 hospitals. 
Reliable and coordinated communication across agencies and distance is 
essential if Mississippi is to succeed in responding to the public 
safety needs of our citizens.
    Unfortunately, it took Hurricane Katrina in 2005 to demonstrate our 
state's severe lack of survivable, secure, interoperable communication. 
In response, the newly created Mississippi Wireless Communications 
Commission built out the Mississippi Wireless Information Network 
(MSWIN), an interoperable, P25/Phase-2, 700 MHz, Land Mobile Radio 
(LMR) trunked radio system with 144 towers across the state and a 
point-to-point microwave backhaul network. While the communications 
chaos that ensued in the aftermath of Hurricane Katrina was the 
principal inspiration for MSWIN, the Federal Government's initial 
contribution of approximately $157M to this project reflected a 
nationwide concern about the inability of first responders to 
effectively communicate after the tragic events of 9/11. The MSWIN 
system is now operational statewide and provides 97 percent mobile area 
coverage across Mississippi, allowing state, local, and Federal 
entities to communicate with each other as events unfold. This system 
has significantly decreased response time and increased coordination 
among responders.
    Hurricane Katrina also presented an unprecedented medical challenge 
for the State of Mississippi. Following the hurricane, over thirty 
percent of the acute care medical facilities in Mississippi were 
impaired by the storm. Even the University of Mississippi Medical 
Center (UMMC) in Jackson, well over 100 miles from the coastal impact 
zone, had sustained force hurricane winds for hours, causing 
significant damage in the Jackson metropolitan area. The movement of 
patients out of the large impact zone was done with a manual paper 
system developed in the moment. Communications challenges significantly 
impacted medical response and the coordination of patient movement. In 
response, Mississippi MED-COM was created by the legislature to design 
and implement solutions for medical communications, leveraging the 
power of MSWIN. Since that time, MED-COM has been at the crossroads of 
medicine and technology.
    Today, Mississippi MED-COM is a comprehensive transfer and medical 
communications channel relying more and more on advanced communications 
technology to improve coordination among medical providers statewide. 
Over time, more and more first responders across the state joined the 
MSWIN network, allowing for further coordination and efficiency in 
response. As the MSWIN user base grew (See Figure 1), the value of and 
reliance on the system was clear, making it imperative that more 
medical users be added.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The success of mission critical voice communications in medical 
response has changed the way medicine is practiced in the pre-hospital 
environment in Mississippi. Being able to connect a trooper at an 
accident scene with medical professionals at our hospital, for example, 
improves outcomes for those patients. Being able to discuss the 
condition of the patients in real time gives those on scene more 
ability and confidence to appropriately respond and prepares those in 
the hospital to receive them on arrival. This improved ability to 
communicate about patient conditions and treatments is important, but 
the addition of data and live audio-visual communications will take the 
proven voice communication system to the next level.
Broadband Medical and Public Safety Communications in Mississippi
    In 2009 and 2010, key stakeholders in technology, public safety and 
medical response started discussing the feasibility of overlaying the 
MSWIN program with a Long Term Evolution (LTE) data system dedicated 
exclusively to public safety. In 2010, the State of Mississippi won a 
$70M Broadband Technologies Opportunity Program (BTOP) stimulus grant 
from the National Telecommunications and Information Administration 
(NTIA) for the deployment of a statewide public safety LTE network and 
medical telemedicine system for pre-hospital medicine. Mississippi 
leveraged the assets of MSWIN, including its network equipment, towers, 
and microwave backhaul to reduce deployment costs and make a statewide 
system possible. This funding would have allowed Mississippi MED-COM to 
be the first state in the Nation to expand proven voice medical 
communications into data transmission.
    Building on UMMC's decades of leadership in telemedicine, the BTOP 
award also included funding to develop the first statewide, standards 
based telemedicine system for ambulances in the Nation. Currently, UMMC 
provides telemedicine services to rural and community hospitals all 
over Mississippi and is a national leader in this field. To date, UMMC 
Telehealth has sites of service in over 200 locations statewide and has 
conducted over 500,000 patient visits. Years of practical experience in 
telemedicine put UMMC in a unique position to lead delivery of advanced 
mobile medical care in ambulances.
    With the creation of FirstNet, Mississippi's original BTOP proposal 
was no longer considered viable by the Department of Commerce and was 
not brought to fruition. However, the preliminary work that went into 
the proposal, the coordination with public safety and the limitations 
in connectivity that we experienced have produced valuable lessons that 
may accrue to the benefit of those crafting the national system. These 
are the thoughts I'd like to share with you today regarding system 
reliability, adequate responder training and ensuring rural coverage.
First Net and Emergency Medicine: Technical Priorities
    One of the biggest requirements for the delivery of remote medical 
care is for the technology to be highly reliable, available and 
redundant. As technology has improved, the end user's confidence has 
improved, but challenges remain in terms of reliability and coverage. 
One limitation we discovered in the development of the mobile ambulance 
based communications system was that voice over a LTE system is not as 
clear and reliable as current P25 LMR systems. During the rollout of 
our system, we included the LMR radio component to ensure that we had 
access to reliable voice communications with proven reliability and 
sustainability. I encourage you to consider how these networks can be 
strengthened to improve reliability for the transmission of lifesaving 
medical data.
    Public Safety LMR communications require redundant and hardened 
systems, especially for the delivery of medical care in critical times. 
In April 2014, the Winston County Medical Center in Louisville, 
Mississippi sustained a direct hit from an EF-3 tornado. As emergency 
responders descended into the county to support Search and Rescue 
operations and to evacuate the damaged hospital, it provided a valuable 
lesson for those responders. Areas around MSWIN LMR towers suffered 
substantial damage from the tornado, but the towers remained 
operational and withstood the surge in radio traffic. The nearby 
commercial cellular towers were either damaged or overwhelmed with 
capacity or both, leaving many responders depending on their radio for 
weather reports, maps or directions into the impacted areas. Hardening 
FirstNet infrastructure is even more important in rural communities 
where there is no excess capacity and limited infrastructure. For the 
medical applications that could migrate to FirstNet, the reliance on 
mission critical communications is vital to the continued development 
of these technologies and operational protocols. A fear shared by many 
in the public safety community is that commercial towers will not be 
built to the same redundancy or resiliency as modern public safety 
communications systems.
FirstNet and Emergency Medicine: Rural Coverage & Priority and 
        Preemption
    Over the past several years, a number of ways to address rural 
coverage have been proposed. One of the lessons we learned early on in 
our effort to establish a statewide LTE network is the absolute need to 
have reliable coverage zones on established maps with real-time 
communication of outages or coverage limitations. The model we 
developed for coverage was to leverage the existing population centers 
and LMR towers and provide additional coverage to the majority of state 
roads in rural Mississippi.
    As FirstNet deploys a nationwide network, rural coverage is vital. 
Needs related to capacity, preemption and priority may not be served by 
the population based model currently being contemplated. In rural 
America, many first responders have very spotty or under capacity 
coverage. In our own state, with few exceptions, the capacity or 
coverage is unable to provide consistent coverage and can handcuff 
public safety response. Last year, for example, the UMMC Public Safety 
Support Division provided mobile field medical teams to support a large 
law enforcement mission in Southeastern Mississippi. The medical team 
used an on-line tool to map the different operational areas, routes, 
helicopter landing zones, etc. Data service in the previous day's 
testing proved reliable. As soon as the first arrest was made, however, 
social media came alive and literally left all data services in the 
county without capacity, rendering the network useless to law 
enforcement. Even where there ``is'' commercial coverage, that coverage 
often has no surge capacity.
    In Mississippi, we seldom have the large train wrecks, terrorist 
incidents or other large scale events that bring the national media to 
our door. Those spectacular mass casualty incidents are tragic and 
horrible, but something of the same impact occurs in our state 
regularly. Mass casualty incidents (MCI) are simply events where the 
need exceeds the resources, which occurs on a weekly basis in rural 
states like ours. In many of our eighty two counties, a two car wreck 
could be a MCI. The resources are constrained as much or more than an 
event with ten times the patients in a larger city. The use of 
technology is one of the only ways we can bridge that resource 
limitation. The frequency of these events, coupled with constrained 
budgets and reduced personnel, makes rural America a great place for 
development, testing and deployment of technology to support medical 
responders.
FirstNet and Emergency Medicine: Innovation
    The challenges of mortality in Mississippi remain significant and 
public safety partners continue to use innovation to augment and 
support the emergency responders across Mississippi. In 2014, UMMC and 
the Mississippi, Wildlife, Fisheries and Parks partnered to combat the 
mortality statistics in rural Mississippi. At the time, more people 
died while enjoying the recreation of the Mississippi outdoors than in 
most other states. The conservation officers across Mississippi are 
known for their innovation and local knowledge. How to combat the 
challenges of rural mortality involving recreational accidents? Combine 
communications technology, education and partnership to bring medical 
care to the patient more efficiently and coordinate the tiered medical 
response. UMMC developed the Mississippi FAST (First Responder, 
Assistance and Training) Program to provide medical education and MSWIN 
training to every state conservation officer, teaching them how to use 
the network to share medical information and provide medical care in 
extremely rural areas. This partnership has been tremendously 
successful, with numerous conservation officers activing medical care 
or assisting in directing ambulances or helicopters to injured or ill 
patients.
    In 2016, the Mississippi Center for Emergency Services, the 
umbrella organization containing Mississippi MED-COM, the critical care 
transport teams, educational programs and public safety support 
division was awarded the Rural Emergency Medical Communications 
Demonstration Project (REMCDP) by The Department of Homeland Security 
(DHS) Office of Emergency Communications (OEC). This Project seeks to 
identify the specific challenges of limited interoperable 
communications in rural areas which hinders efficient medical care 
delivery. By combining elements of the FAST program above with LMR 
training, we have learned many valuable lessons directly applicable to 
the deployment of a LTE network for public safety.
    The first lesson learned is the importance of technology training. 
After two quarters of education and data collection, over 500 public 
safety professionals have been trained. This was the first educational 
program geared toward the end-user of the MSWIN system. The early 
feedback from this program has been dramatic. Many responders have been 
users of the MSWIN system for years and didn't understand basic 
interoperability concepts or technical specifications of the system. As 
FirstNet develops a nationwide network, emphasis should be placed on 
the training of providers in the basic use, technical limitations and 
possibilities to fully integrate an LTE system into the public safety 
arena.
    Another lesson learned from the five hundred plus public safety 
providers in this project is to anticipate an increased use of personal 
devices for work use. FirstNet has discussed the concept of Bring Your 
Own Device (BYOD) to the network, but reportedly believes that only a 
small number of responders use their own smart phone for business use. 
As we have learned in Mississippi, over twenty-five percent of our 
participants only use their personal smart phone for work. This current 
cohort of participants is heavily weighted toward paid law state, 
municipal and Federal officials. As the class is expanded to include 
many more volunteer emergency providers, that number is likely to 
increase significantly. While this statistic is hard to translate to a 
national population of public safety professionals, it is important 
that FirstNet focus on the BYOD model of integration, recognizing that 
this larger than expected population provides additional challenges for 
priority and preemption in the ``official'' capacity.
FirstNet and Emergency Medicine: The Possibilities
    Beyond simply having access to broadband, innovative medical 
applications have the potential to address solutions to many of the 
challenges currently facing the U.S. healthcare system. In the next 
decade, the role of public safety in our Nation's healthcare system 
will expand in ways that are not yet fully understood. Public safety 
professionals have a unique opportunity to expand their impact in the 
delivery of medical care by focusing on innovation, technology and 
training. FirstNet has an opportunity to provide a reliable path for 
critical data sharing between healthcare institutions and field 
providers, not only impacting emergency care, but providing solutions 
for cost reduction and efficiency. The University of Mississippi 
Medical Center is serving as an incubator for innovation and training 
to look at ways that networks can be leveraged to improve healthcare 
outcomes and achieve efficiencies, and we hope that FirstNet will 
consider us a partner in achieving these mutual goals.
    In closing, the experiences and lessons learned in Mississippi can 
provide vital lessons impacting the success of FirstNet. This is a huge 
opportunities to develop a system that will propel the innovation and 
operational changes that can save lives. Congress can assist in this 
effort by ensuring that FirstNet:

  <bullet> Focuses on medical applications and development as an 
        integral part of the public safety and healthcare environment

  <bullet> Prioritizes rural coverage and addresses different priority 
        and preemption challenges with rural data coverage and capacity

  <bullet> Develops improved methods of engagement for volunteer and 
        rural responders using personal devices (BYOD)

  <bullet> Provides funding for Research and Development of medical 
        applications as a key component to the development of public 
        safety broadband

    Thank you for your time and allowing me to provide some comments 
for your committee as they oversee this vital project.

    Senator Wicker. Thank you very much, Dr. Darsey.
    Next we will hear from the Government Accountability Office 
Physical Issues Director.
    Mr. Goldstein, did I pronounce your name correctly?
    Mr. Goldstein. Yes, Mr. Chairman, you have.
    Senator Wicker. Well, you are recognized for five minutes 
with the thanks of this subcommittee.
    Mr. Goldstein. Thank you, sir.

      STATEMENT OF MARK L, GOLDSTEIN, DIRECTOR, PHYSICAL 
INFRASTRUCTURE ISSUES, UNITED STATES GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Goldstein. Good morning, Chairman Wicker, Ranking 
Member Schatz, and members of the Subcommittee. Thank you for 
the opportunity to discuss our June 2017 report on First 
Responder Network Authority, FirstNet, which we are publicly 
releasing today. We have previously reported and testified on 
FirstNet.
    My remarks today are based on our new report, which, one, 
examines FirstNet's efforts----
    Senator Wicker. Please read that report in its entirely, if 
you will.
    [Laughter.]
    Mr. Goldstein. I think you'll want to go to lunch, sir.
    Senator Wicker. All right. I take it back.
    Mr. Goldstein. It describes stakeholder views on network 
reliability, security, and interoperability challenges that 
FirstNet faces and its research and other efforts to address 
them and assesses FirstNet's plans to oversee the deployment of 
the network by its network contractor. In our report, we 
recommended that FirstNet fully explore tribal stakeholder 
concerns and assess its long-term staffing needs. FirstNet 
agreed with these recommendations.
    FirstNet is charged with establishing a nationwide public 
safety broadband network that is reliable, secure, and 
interoperable. To perform this work, FirstNet is consulting 
with a variety of stakeholders. In March 2017, FirstNet awarded 
a 25-year contract to AT&T to build, operate, and maintain the 
network. FirstNet's oversight of AT&T's performance is very 
important, given the scope of the network and the duration of 
the contract.
    Among GAO's findings in the report are the following: 
first, FirstNet has conducted key efforts to establish the 
network, namely, releasing the request for proposal for the 
network and awarding the network contract to AT&T. As the 
contractor, AT&T will be responsible for the overall design, 
development, production, operation, and evolution of the 
network.
    Additionally, FirstNet consulted with state and local, 
Federal, and tribal stakeholders. State officials GAO contacted 
were generally satisfied with FirstNet's efforts to engage 
them. However, tribal stakeholders GAO contacted expressed some 
concern that FirstNet had not fully engaged in effective 
communication with tribes.
    FirstNet engaged tribes through a variety of mechanisms, 
such as through state points of contact and a working group. 
But tribes noted that individuals with firsthand knowledge of 
tribes' experiences are not able to represent tribal views 
directly among FirstNet's key decisionmakers. Although FirstNet 
is required to consult with tribes through state points of 
contact, a key principle of effective tribal communication is 
to seek full understanding of tribal concerns and reach 
consensus where possible. By fully exploring and proposing 
actions to address tribal stakeholders' concerns, FirstNet 
could help improve its relations with tribes and better meet 
stakeholder needs.
    Second, according to stakeholders GAO contacted, FirstNet 
faces various challenges to ensure the network's reliability, 
security, and interoperability. For example, stakeholders 
raised concerns related to providing coverage to rural areas, 
in buildings, or underground; ensuring the network's overall 
resiliency and cybersecurity; and managing frameworks for user 
identity, credentialing of users, access management, and 
prioritization of users on the network.
    FirstNet has taken actions to address these challenges, 
such as by opening a test lab to test public safety devices and 
applications before deploying them on the network. The majority 
of stakeholders GAO contacted were satisfied with FirstNet's 
efforts, but many noted that much uncertainty remains about how 
the network will be implemented and about its overall 
viability.
    Third, FirstNet established offices to oversee its network 
contractor; developed policies and procedures to guide contract 
administration, including management and oversight; and is 
receiving assistance from another Federal agency with contract 
administration experience, although FirstNet plans to assume 
full responsibility in the future.
    For example, FirstNet established the Network Program 
Office to oversee the contractor's performance and facilitate 
quality assurance of contract deliverables, among other things. 
Although this office will perform essential contract 
administration functions, FirstNet has not yet conducted a 
long-term projection for staffing needs for this office as of 
recent months. As a result, FirstNet may lack reasonable 
assurance that it will have sufficient resources to handle 
increases in its responsibilities over time.
    Planning for and assigning adequate resources, including 
people, and assessing resource needs is a key practice for 
planning and executing effective contract oversight. By 
performing a long-term staffing assessment for the Network 
Program Office, FirstNet would be in a better position to fully 
understand its staffing needs and respond to staffing changes 
and risks as it assumes full responsibility of contract 
administration in the future.
    Mr. Chairman, this concludes my statement, and I'd be happy 
to address any questions the Subcommittee may have.
    [The prepared statement of Mr. Goldstein follows:]

      Prepared Statement of Mark L. Goldstein, Director, Physical 
 Infrastructure Issues, United States Government Accountability Office
FirstNet--Efforts to Establish the Public-Safety Broadband Network

Chairman Wicker, Ranking Member Schatz, and Members of the 
Subcommittee:

    Thank you for the opportunity to discuss our June 2017 report on 
the First Responder Network Authority (FirstNet), which we are publicly 
releasing today.\1\ We have previously reported and testified on 
FirstNet.\2\ Whether conducting daily operations, overseeing planned 
events, or responding to emergencies, public safety officials--
especially first responders such as police officers and firefighters--
rely on communications systems to gather and share information and 
coordinate their efforts. However, first responders often have 
difficulty communicating with their counterparts in other agencies and 
jurisdictions because existing systems lack interoperability.
---------------------------------------------------------------------------
    \1\ GAO, Public-Safety Broadband Network: FirstNet Has Made 
Progress Establishing the Network, but Should Address Stakeholder 
Concerns and Workforce Planning, GAO-17-569 (Washington, D.C.: June 20, 
2017).
    \2\ GAO, Public-Safety Broadband Network: FirstNet Should 
Strengthen Internal Controls and Evaluate Lessons Learned, GAO-15-407 
(Washington, D.C.: Apr. 28, 2015); GAO, Public Safety Communications: 
Preliminary Information on FirstNet's Efforts to Establish a Nationwide 
Broadband Network, GAO-15-380T (Washington, D.C.: Mar. 11, 2015).
---------------------------------------------------------------------------
    The Middle Class Tax Relief and Job Creation Act of 2012 (the 2012 
Act) created FirstNet and required it to establish a nationwide, 
interoperable public-safety broadband network (hereafter, the 
network)--setting aside spectrum for the network to operate on and 
providing FirstNet with $7 billion to fund the network's initial build-
out.\3\ FirstNet must be self-funding beyond this initial $7 billion. 
Key to the network's success, given its purpose, is its reliability, 
security, and interoperability. To inform its work, FirstNet must 
consult with state and local, federal, and tribal stakeholders.\4\ 
Since 2012, FirstNet has completed a number of tasks to plan for the 
build-out of the network, the most significant of which was the 
issuance of a request for proposal to solicit proposals from private 
companies to build, operate, and maintain the network. From these 
proposals, FirstNet selected AT&T as its network contractor and awarded 
it a multi-billion dollar, 25-year contract. Due to the size of the 
project and duration of the contract, the oversight mechanisms that 
FirstNet plans to use to monitor AT&T's progress and performance in 
building, operating, and maintaining the network are important.
---------------------------------------------------------------------------
    \3\ Middle Class Tax Relief and Job Creation Act of 2012. Pub. L. 
No. 112-96, 126 Stat. 156 (2012). FirstNet is an independent authority 
within the Department of Commerce's (Commerce) National 
Telecommunications and Information Administration (NTIA).
    \4\ Pub. L. No. 112-96, Sec. 6206(c)(2)(A), 126 Stat. at 213.
---------------------------------------------------------------------------
    My remarks today are based on our report, which (1) examines 
FirstNet's efforts to establish and finance the network; (2) describes 
stakeholder views on network reliability, security, and 
interoperability challenges FirstNet faces and its research and other 
efforts to address them; and (3) assesses FirstNet's plans to oversee 
the deployment of the network by its network contractor. In our report, 
we recommended that FirstNet fully explore tribal stakeholders' 
concerns and assess its long-term staffing needs. FirstNet agreed with 
these recommendations.
    For our report, we reviewed the 2012 Act, FirstNet documentation, 
and documentation from other Federal entities involved in FirstNet's 
efforts, such as FirstNet's key research partner, the Public Safety 
Communications Research (PSCR) program.\5\ We compared FirstNet's 
efforts to respond to tribal stakeholders' concerns with the applicable 
key principle of effective tribal communication on Federal 
infrastructure decisions developed by several Federal agencies.\6\ We 
assessed the PSCR's and FirstNet's research activities against our 
previously identified criteria on key phases of sound research 
programs.\7\ We assessed FirstNet's contract oversight plans against 
key acquisition and contract oversight practices and actions 
established in Federal acquisition regulations, the Department of 
Commerce's (Commerce) acquisition manual, prior GAO reports, and other 
academic and industry sources.\8\ We also interviewed FirstNet and 
Commerce officials. To obtain stakeholder views on all our objectives--
particularly the challenges FirstNet faces--we selected and contacted 
33 stakeholders, including public safety, state and local government, 
and tribal associations and organizations; the Department of Homeland 
Security, the Federal Communications Commission, and the National 
Institute of Standards and Technology (NIST) and the National 
Telecommunications and Information Administration; and state government 
and public safety officials. We selected these stakeholders to obtain a 
variety of viewpoints from a cross section of interests and geographic 
locations; their views are not generalizable. Further details on our 
scope and methodology are included in our report. The work on which 
this statement is based was conducted in accordance with generally 
accepted government auditing standards.
---------------------------------------------------------------------------
    \5\ The PSCR is a joint program between Commerce's National 
Institute of Standards and Technology and NTIA.
    \6\ U.S. Departments of the Interior, the Army, and Justice, 
Improving Tribal Consultation and Tribal Involvement in Federal 
Infrastructure Decisions (January 2017).
    \7\ GAO, Employment and Training Administration: More Actions 
Needed to Improve Transparency and Accountability of Its Research 
Programs, GAO-11-285 (Washington, D.C.: Mar. 15, 2011).
    \8\ Commerce, Selecting Contract Types, Commerce Acquisition 
Manual, 1316.1, 6.3 (March 2016); GAO, Joint Information Environment: 
DOD Needs to Strengthen Governance and Management, GAO-16-593 
(Washington, D.C.: July 14, 2016); GAO, National Science Foundation: 
Steps Taken to Improve Contracting Practices, but Opportunities Exist 
to Do More, GAO-13-292 (Washington, D.C.: Mar. 28, 2013); GAO, 
Information Technology Investment Management, A Framework for Assessing 
and Improving Process Maturity, GAO-04-394G (Washington, D.C.: Mar. 1, 
2004); Software Engineering Institute/Carnegie Mellon, Capability 
Maturity ModeI Integration (CMMI) for Acquisition, Version 1.3, CMU/
SEI-2010-TR-032 (Pittsburgh, PA: November 2010); Project Management 
Institute, Inc., The Standard for Program Management--Third Edition 
(Newtown Square, PA: 2013); Project Management Institute, Inc., A Guide 
to the Project Management Body of Knowledge (PMBOK Guide)--Fifth 
Edition (Newtown Square, PA: 2013). PMBOK is a trademark of Project 
Management Institute, Inc.
---------------------------------------------------------------------------
FirstNet's Progress Establishing and Financing the Network and 
        Consulting Stakeholders
    In our report, we found that FirstNet has conducted key efforts to 
establish the network, namely releasing the request for proposal for 
the network in January 2016 and awarding the network contract to AT&T 
in March 2017. As the contractor, AT&T will be responsible for the 
overall design, development, production, operation, and evolution of 
the network, as well as the marketing, product management, sales, 
distribution, and customer care. Further, we found that FirstNet has 
established a framework to meet the financial requirements established 
in the 2012 Act, as depicted in figure 1. This framework focuses on 
leveraging FirstNet's spectrum through the use of payments and fees 
with the aim of ensuring that the network is financially sustainable 
over the life of the contract and that FirstNet sustains self-funding 
operations.
Figure 1: First Responder Network Authority's (FirstNet) Financial 
        Framework
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Source: GAO analysis of FirstNet information. GAO-17-702T.
    <SUP>a</SUP> AT&T's expected investment in the network includes its 
annual minimum payments to FirstNet.

    By establishing a single, dedicated network for public safety use, 
FirstNet's network is expected to foster greater interoperability and 
meet public safety officials' reliability and other needs. However, the 
actual use (or ``adoption'') of the network by public safety users will 
be voluntary. Thus, even with the establishment of this framework, 
substantial unknowns remain regarding how many public safety users will 
adopt the network, the extent to which AT&T will be successful in 
monetizing the spectrum to retain revenue from commercial users, and 
the extent to which this revenue will be sufficient or appropriate in 
relation to the capital needed to build, operate, and maintain the 
network. Therefore, we noted in our report that, at this time, we could 
not assess the viability of this framework and whether FirstNet's 
structures for overseeing the contractor's use of the spectrum for 
commercial users will be appropriate.
    We also found in our report that FirstNet has made progress 
consulting with state and local, federal, and tribal stakeholders 
through a variety of mechanisms. State officials we contacted were 
generally satisfied with FirstNet's efforts to engage them. However, 
tribal stakeholders we contacted expressed concern with FirstNet's 
efforts to consult with tribes per the 2012 Act's requirements. In 
particular, four of the five tribal organizations we contacted said 
that FirstNet has not fully engaged in effective communication or has 
relied on state points of contact too much as opposed to engaging 
directly with tribes; the other tribal organization was not aware of 
FirstNet or its mission at all. Further, tribes noted that individuals 
with first-hand knowledge of tribes' experiences are not able to 
represent tribal views directly among FirstNet's key decision makers. 
FirstNet has stated that, indeed, the 2012 Act requires that it consult 
with tribes through state points of contact. Nevertheless, several 
Federal agencies have identified seeking a full understanding of tribal 
concerns--and reaching consensus where possible--as a key principle of 
effective tribal communication, noting that agencies should adapt to 
changing circumstances, contemplate creative problem solving, identify 
options for addressing concerns, and exhaust alternatives to achieve 
mutually agreeable solutions.\9\
---------------------------------------------------------------------------
    \9\ U.S. Departments of the Interior, the Army, and Justice, 
Improving Tribal Consultation and Tribal Involvement in Federal 
Infrastructure Decisions (January 2017).
---------------------------------------------------------------------------
    We concluded in our report that, by fully exploring and proposing 
actions to address tribal stakeholders' concerns, FirstNet could help 
improve its relations with tribes and better meet stakeholders' needs. 
As such, we recommended in our report that FirstNet fully explore 
tribal concerns and propose actions, as needed, to address those 
concerns. FirstNet agreed with this recommendation and said that it 
will develop and adopt an organization-wide tribal consultation policy.
FirstNet's Network Reliability, Security, and Interoperability 
        Challenges and Efforts to Address Them
    In our report, we found that--according to stakeholders we 
contacted--FirstNet faces various challenges to ensure the network's 
reliability, security, and interoperability. For example, stakeholders 
raised concerns related to:

  <bullet> providing network coverage to rural areas, in buildings, or 
        underground;

  <bullet> ensuring the network's overall resiliency and cybersecurity; 
        and

  <bullet> managing frameworks for user identity, credentialing of 
        users, access management, and prioritization of users on the 
        network.

    However, we also found that both FirstNet and the PSCR have begun 
research and other efforts to help ensure the reliability, security, 
and interoperability of the network and address the challenges raised 
by stakeholders. For example, in November 2016, FirstNet opened an 
Innovation and Test Lab at its technical headquarters in Boulder, 
Colorado. According to FirstNet documentation, FirstNet plans to use--
and allow AT&T to use--the lab to test public safety devices and 
applications before deploying them on the network. Additionally, the 
PSCR has conducted research on behalf of FirstNet and, using $300 
million in funds provided to NIST by the 2012 Act, is also planning for 
and implementing other research activities to support FirstNet. For 
instance, in January 2016, PSCR launched its Public Safety Innovation 
Accelerator Program to support these research activities, and in 
December 2016, NIST issued a funding announcement to fund research in 
several areas.
    At the time of our report, we found that PSCR's research process 
generally aligned with key phases of sound research programs identified 
by leading national organizations, including the American Evaluation 
Association and the National Academy of Sciences.\10\ For example, PSCR 
has established a structured process for developing research priorities 
that includes both internal and external stakeholders, and has 
identified criteria it uses to help it select the research areas to 
fund and procedures to help it guide and monitor its research. 
Similarly, FirstNet has determined its research priorities to date 
based on its network-planning needs and in consultation with internal 
and external stakeholders, and worked with the PSCR to define criteria 
to help it select research areas.
---------------------------------------------------------------------------
    \10\ GAO-11-285.
---------------------------------------------------------------------------
    In our report, we found that the majority of stakeholders we 
contacted were satisfied with the planning efforts to ensure the 
reliability, security, and interoperability of the network. However, 
many stakeholders also said that there is much remaining uncertainty 
about how this will be implemented in practice. Additionally, one 
public safety official we contacted told us that FirstNet and its 
contractor will have to balance the costs associated with implementing 
features that make the network reliable and secure with the need to 
establish compelling and competitively priced service packages and fees 
that will encourage user adoption of the network.\11\ Indeed, numerous 
stakeholders we contacted cited the cost of subscribing to the network 
as a key factor affecting user adoption, noting that the pricing must 
be comparable to what they pay for commercial service now, that budgets 
are constrained in the public safety community, or that local 
governments do not want costs to increase. Further, commercial carriers 
could choose to compete with FirstNet. FirstNet has stated that it 
expects AT&T to provide services at a competitive price and deliver 
affordable, high-quality services that will encourage public safety 
users to adopt the network. Ultimately--because the network must be 
self-funding and FirstNet has stated that revenue from network users 
will be critical to this funding--the success of the network depends on 
whether FirstNet and AT&T generate enough revenue to operate it over 
the long term and whether public safety users adopt it, no matter how 
reliable and secure it is.
---------------------------------------------------------------------------
    \11\ For additional discussion of factors that may affect user 
adoption, see GAO-15-407.
---------------------------------------------------------------------------
FirstNet's Contract Oversight Mechanisms
    FirstNet must manage and oversee the implementation of the network 
contract to build, operate, and maintain the network.\12\ Federal 
internal-control standards also state that an entity's management 
retains responsibility for the performance of processes assigned to 
service organizations (such as contractors) and that management should 
hold these organizations accountable for their performance.\13\
---------------------------------------------------------------------------
    \12\ Pub. L. No. 112-96, Sec. 6206 (b)(1)(D) 126 Stat. at 212.
    \13\ GAO, Standards for Internal Control in the Federal Government, 
GAO-14-704G (Washington, D.C.: September 2014).
---------------------------------------------------------------------------
    In our report, we found that FirstNet has taken a number of steps 
to establish contract oversight mechanisms, but has not fully assessed 
the staffing needs of its oversight workforce. FirstNet's oversight 
mechanisms include developing policies and procedures to guide contract 
administration and establishing offices to oversee its network 
contractor. In particular, FirstNet established the Network Program 
Office to oversee the contractor's performance and facilitate quality 
assurance of contract deliverables, among other things. FirstNet is 
also receiving assistance from the Department of the Interior, which 
has experience with contract administration, although FirstNet plans to 
assume full responsibility for contract administration in the future. 
In our report, we found that FirstNet's efforts to develop contract 
oversight mechanisms aligned with several key actions that we 
identified as contributing to effective contract oversight. However, 
although FirstNet's Network Program Office will perform essential 
contract administration functions, FirstNet had not conducted long-term 
projections of staffing needs for the office as of April 2017. Planning 
for and assigning adequate resources, including people, and performing 
an assessment of the resources needed to oversee projects is one of the 
key actions we identified for planning and executing effective contract 
oversight.
    We concluded in our report that FirstNet lacks reasonable assurance 
that it will have sufficient resources to handle increases in its 
responsibilities over time and that, by performing a long-term staffing 
assessment for the Network Program Office, FirstNet would be in a 
better position to fully understand its staffing needs and respond to 
staffing changes and risks as it assumes full responsibility of 
contract administration in the future. As such, we recommended in our 
report that FirstNet assess the long-term staffing needs in the Network 
Program Office prior to assuming full responsibility for administering 
the network contract. FirstNet agreed with this recommendation and said 
that it is taking steps to implement it.
    Chairman Wicker, Ranking Member Schatz, and Members of the 
Subcommittee, this concludes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Senator Wicker. Thank you, and we will be involved in some 
Q and A in a few moments.
    Mr. Sambar, we will go to you next and hear from AT&T. Glad 
to have you with us.

    STATEMENT OF CHRIS SAMBAR, AT&T SENIOR VICE PRESIDENT, 
                      FIRSTNET, AT&T INC.

    Mr. Sambar. Thank you, Mr. Chairman. Chairman Wicker, 
Ranking Member Schatz, and members of the Committee, I'm Chris 
Sambar, Senior Vice President of FirstNet. I am currently 
responsible for AT&T's fulfillment of the FirstNet contract, 
including designing and executing on the business model that 
will support the nationwide First Responder Network.
    AT&T is honored to have been chosen by FirstNet to build 
and manage the network. I view this mission as a special 
opportunity for AT&T and its dedicated employees to demonstrate 
their continued commitment to public safety and our 
communities. I am especially grateful for the opportunity to 
affirm to this Committee that AT&T is committed to delivering a 
dedicated interoperable network that will give first responders 
the technology they need to effectively communicate and 
collaborate across agencies and jurisdictions.
    The AT&T team that I lead is dedicated exclusively to 
FirstNet. I expect this group to grow to several hundred 
employees by this year's end as we hire people across the 
country with a broad range of skill sets to help us ramp up our 
network buildout. Overall, AT&T expects to spend $40 billion 
over the lifetime of this contract and to build and operate a 
unique nationwide interoperable, IP-based, high-speed mobile 
network encrypted at its core that will provide first 
responders priority, primary users with preemption, and all 
other users during times of emergency and network congestion.
    The First Responder Network will be connected to and 
leverage off AT&T's world class telecommunications platform, 
valued at nearly $180 billion, including a wireless network 
that reaches 99.6 percent of the U.S. population. In addition, 
AT&T will support first responders 24/7/365 with a dedicated 
security operations center and help desk. We will provide first 
responders with a highly secure application ecosystem, as well 
as a highly competitive, flexible pricing on equipment and 
services that they select for their unique needs.
    One of the most important resources that AT&T brings to 
bear on the new First Responder Network is our best-in-class 
national disaster recovery team. We have spent more than 
130,000 working hours on field exercises and disaster recovery 
deployments over the last two decades. This team combines 
network infrastructure, support trailers, recovery engineering 
software applications, and boots on the ground filled by full 
time and volunteer AT&T disaster response team members. In 
order to support the First Responder Network, AT&T will 
increase its disaster recovery fleet by adding 72 new, custom-
designed vehicles just for the FirstNet mission.
    FirstNet is not just about today's technology advances. It 
is about tomorrow's technological promises. FirstNet and AT&T 
will continue to innovate and evolve the First Responder 
Network to benefit public safety. Possibilities include near 
real-time information on traffic conditions, which can help 
determine the best route to an emergency for a first responder; 
wearable sensors and cameras for police and firefighters to 
help give them better situational awareness; and camera-
equipped drones and robots that will be able to deliver real-
time imagery.
    Our FirstNet efforts are expected to create 10,000 U.S. 
jobs over the next 2 years, as well as significant public-
private infrastructure investment. We believe the benefits of 
the new nationwide interoperable First Responder Network are 
such that if we build, the states will come. I am happy to 
report that as of today, five states have opted in--Virginia, 
Wyoming, Arkansas, Kentucky, and, most recently, Iowa.
    As I describe in more detail in my written statement, the 
significant benefits of these states and those others that will 
opt-in in the future will avoid the long-term risks associated 
with funding, building, and managing and maintaining a 
standalone network that interoperates with the FirstNet 
network. States and territories that opt-in provide their 
public safety agencies with access to the competitive rates 
enabled by AT&T, and those rates enabled us to be selected by 
the First Responder Authority as the awardee.
    Mr. Chairman, Ranking Member Schatz, honorable members of 
this Committee, thank you again for having me here, and I look 
forward to addressing any questions that you have.
    [The prepared statement of Mr. Sambar follows:]

    Prepared Statement of Chris Sambar, AT&T Senior Vice President, 
                          FirstNet, AT&T Inc.
    Thank you, Chairman Wicker, Ranking Member Schatz, and Members of 
the Committee.
    I am Chris Sambar, AT&T Senior Vice President--FirstNet. AT&T is a 
company with a 140-year heritage of innovation that includes 8 Nobel 
Prizes and more than 15,000 patents and pending patents worldwide. We 
employ more than 200,000 people in the United States, and over the past 
five years, we've invested more in the U.S. than any other public 
company--nearly $135 billion.
    I appreciate the opportunity to update the Committee on the status 
of the FirstNet and AT&T plan to provide a nationwide broadband network 
for public safety. I head a group at AT&T dedicated to building and 
operating that network for decades to come. And I can assure you that 
AT&T is fully committed to delivering a dedicated, interoperable 
network that will give first responders the technology they need to 
communicate and collaborate across agencies and jurisdictions during 
emergencies. This opportunity aligns with our centuries-old history of 
serving the U.S. Federal Government and the public safety community.
    Supporting public safety is part of our company's DNA. As a retired 
Naval officer and Navy SEAL, public service has been a calling 
throughout my adult life. I view FirstNet as a special opportunity to 
do it again for a company that shares a commitment to public service 
and public safety.
FirstNet Background and Purpose
    First responders frequently lack the ability to communicate with 
each other and coordinate incident response activities across agencies 
and jurisdictions. In fact, they rely on over 10,000 radio networks for 
voice communications to do their job. These networks often do not 
interoperate, which can severely limit their ability to communicate 
with each other when responding to a situation, especially those 
involving responders from multiple areas. In addition, first responders 
use the same commercial wireless networks that we all do. Those 
networks can quickly become congested during a significant emergency. 
We have unfortunately witnessed how these issues hamper first 
responders, such as in responding to the 9/11 attacks and in other 
emergencies since (e.g., Hurricane Katrina).
    In response, Congress recognized that we can and should do better 
to support our first responders and their critical mission--to save 
lives. And in 2012 Congress passed legislation that created the First 
Responder Network Authority (FirstNet) as an independent authority 
within NTIA to provide emergency responders with the first, nationwide, 
high-speed, broadband network dedicated to public safety. Congress 
established FirstNet to deliver a robust, highly secure, and efficient 
communications network that will help responses to emergencies as they 
unfold. And that is exactly what FirstNet and AT&T intend to deliver.
AT&T's Commitment to FirstNet
    As I said, AT&T is honored to have been chosen to build and manage 
the FirstNet network and we are committed to bringing to bear all the 
necessary resources to ensure its success, just as Congress envisioned. 
What will that mean?
    First, as part of its commitment, AT&T will spend about $40 billion 
over the life of the FirstNet contract to build, operate and maintain 
the network. AT&T will connect FirstNet to its world-class 
telecommunications network valued at nearly $180 billion, with a 
wireless network reaching 99.6 percent of the U.S. population.
    I am also proud that AT&T will support FirstNet with its world-
class National Disaster Recovery (NDR) Team. This team, which we 
established over 25 years ago, has a single mission: to recover AT&T 
voice and data service in areas affected by a disaster. The NDR 
solution combines network infrastructure and support trailers, recovery 
engineering software applications and a response team with both full-
time and volunteer members from AT&T. We will increase our fleet with 
72 new deployables to support FirstNet. Team members have spent more 
than 130,000 working hours on field exercises and deployments over the 
last two decades.
    Finally, as I noted above, we have put together an internal group, 
which I lead, dedicated solely to FirstNet. I expect this group to grow 
to several hundred employees by year's end. As we ramp up our buildout 
of the FirstNet network, we are hiring people across the country who 
have a passion for public safety and for first responders.
    With these resources, AT&T will create a nationwide IP-based high-
speed mobile network that provides First Responders priority. 
``Priority'' means just that--in times of emergencies and network 
congestion, our network will give first responder communications 
precedence and, for ``primary users,'' preempt all other 
communications. In sum, the FirstNet network will meet the needs of 
public safety like never before, providing:

  <bullet> A unique, differentiated, and highly secure network, 
        encrypted at its core.

  <bullet> Dedicated IP core with capabilities of priority and, for 
        primary users, pre-emption.

  <bullet> Interoperability across public safety agencies and 
        jurisdictions.

  <bullet> Customized customer service with dedicated 24/7 AT&T 
        security and helpdesk operations support centers.

  <bullet> A highly secure app ecosystem.

  <bullet> Network Disaster Recovery resources.

  <bullet> Highly competitive, flexible pricing.

    Together, these capabilities will better connect first responders 
to the critical information they need in an emergency, keeping them out 
of harm's way.
    In addition, FirstNet and AT&T will innovate and evolve the network 
to benefit public safety. In many cases, and often due to budgetary 
constraints, the public safety community has not kept up with advances 
in communications technology. But these advances can make a real 
difference in crisis situations. For example, providing emergency 
personnel near real-time information on traffic conditions to help 
determine the best route to an emergency can save critical minutes for 
first responders to get to an emergency. Other enhanced capabilities, 
such as wearable sensors and cameras for police and firefighters, can 
deliver near real-time images of events, such as fires, floods or 
crimes. Imagine camera equipped drones and robots delivering these 
images. AT&T is at the forefront of IoT advances and a leader in Smart 
Cities technology that can monitor a city's critical infrastructure, 
traffic and even listen for gun shots. Solutions like these could one 
day enhance the capabilities AT&T can bring to first responders.
    FirstNet will also bring with it increased wireless network 
coverage in various rural areas across the country, allowing people 
living in these communities to have greater access to 9-1-1 and public 
safety communications capabilities. In addition, AT&T will use surplus 
capacity on the FirstNet network to offload traffic from commercial 
users and improve service and coverage for all our wireless users in 
these areas.
    FirstNet will also create jobs and drive investments across states 
and territories. This significant public-private infrastructure 
investment, and the buildout supporting it, is expected to create 
10,000 U.S. jobs over the next two years. These new jobs will include 
positions in technology development, network deployment and operations.
    AT&T could not be more excited about delivering on the promises of 
the FirstNet network, to the benefit of first responders and the 
communities they serve.
Benefits to States Opting In
    Since FirstNet announced (on March 30) that it had selected AT&T, 
we have jointly committed to providing states and territories all the 
information they need to make an informed decision to opt in the 
FirstNet network. Our intent all along is to ensure that states and 
territories do not feel alone in the process. FirstNet and AT&T are 
therefore committed to continual engagement and consultation with the 
states to help explain what FirstNet means to their stakeholders and to 
help ensure that it delivers what the public safety community in each 
state needs.
    Consistent with this commitment, in early June, we conducted a two-
day meeting with state officials in Dallas to discuss the network AT&T 
is building, the services we will deliver, as well as the delivery of 
state FirstNet plans. Over 200 people, including representatives from 
56 states and territories attended the meeting. In addition, before and 
after this meeting, FirstNet and AT&T have had countless meetings with 
state decision makers and public safety stakeholders to answer any 
questions they might have. FirstNet is also conducting an education and 
outreach program to engage tribal leaders on the network and their 
public safety needs.
    On June 19, FirstNet and AT&T began providing states and 
territories individual state plans to enable the rapid deployment of 
the FirstNet network. The delivery of these state plans came 3 months 
ahead of schedule. States and territories can now spend up to 45 days 
to review the plans. We released the plans ahead of schedule not only 
to give states the ability to opt in early (and receive the benefits of 
FirstNet as soon as possible), but also to provide them extra time to 
exchange feedback with FirstNet before an official 90-day clock starts, 
likely in mid-September, for each state or territory to make an ``opt-
in/opt-out'' decision on its state plan. I am happy to report that on 
July 10 and July 11, Virginia and Wyoming, respectively, became the 
first states to publicly announce their intent to opt in, and Arkansas 
and Kentucky have since joined them.
    There are significant and immediate benefits for states to opt in 
the FirstNet network.

  <bullet> Opting in alleviates long-term risks associated with 
        funding, building and maintaining a network for 25 years that 
        interoperates with the FirstNet network.

  <bullet> Once a state or territory opts in, public safety entities in 
        that state or territory will be able to purchase services with 
        key network features, such as quality of service and priority 
        access to voice and data across AT&T's LTE network, at 
        competitive rates.

  <bullet> Preemption over the AT&T LTE network for primary users is 
        expected by year's end. This means fire, police and EMS with 
        FirstNet service will have dedicated access to the network when 
        they need it.

  <bullet> As states and territories join, investment in infrastructure 
        and job creation will follow.

  <bullet> Rest assured, once a state or territory joins in, FirstNet 
        and AT&T will continue ongoing consultations with the state or 
        territory to ensure that the solutions we offer best serve the 
        public safety community.
AT&T's Commitment to Diversity
    Finally, I would also like to take this opportunity to stress 
AT&T's commitment to meeting or exceeding all requirements to 
subcontract work to veterans, minority-owned, and woman-owned 
businesses. AT&T has a long history of supporting diverse businesses 
and communities. AT&T is among the leading companies in identifying and 
doing business with diverse suppliers. Last year, we spent $14.2 
billion with diverse suppliers, representing nearly 19 percent of our 
total supplier expenditures. It is not surprising that AT&T has been 
ranked No. 1 for three consecutive years in Diversity Inc.'s ``Supplier 
Diversity Survey.'' We employ more than 11,000 veterans. In 2013, AT&T 
announced it would hire 10,000 veterans within the next 5 years, which 
was met at the end of 2015, well ahead of schedule. AT&T is doubling 
that commitment and pledged to hire an additional 10,000 veterans by 
2020. In 2016, AT&T's U.S. workforce was 32 percent women and 43 
percent people of color. In 2016, nearly 31.5 percent of our new hires 
were women, and 56 percent people of color. We recognize that this 
diversity benefits our company, our customers, and our employees.
    I look forward to continuing this important dialogue as FirstNet 
moves forward. I welcome your questions.
    Thank you again Mr. Chairman for this opportunity.

    Senator Wicker. Thank you very much, Mr. Sambar.
    Now, in terms of the CEO of FirstNet, Mr. Poth, did I 
pronounce your name correctly?
    Mr. Poth. You nailed it, Senator.
    Senator Wicker. OK. Good.
    Mr. Poth. You had a 50/50 chance.
    Senator Wicker. Well, it's a one syllable thing, so not 
much of an accomplishment there.
    [Laughter.]
    Senator Wicker. At any rate, you are recognized, and we're 
delighted to have you.

      STATEMENT OF MICHAEL POTH, CHIEF EXECUTIVE OFFICER, 
          FIRST RESPONDER NETWORK AUTHORITY (FIRSTNET)

    Mr. Poth. Great. Thank you very much and good morning, 
Chairman Wicker, Ranking Member Schatz, and members of the 
Subcommittee. Thank you for inviting me to testify today.
    This is my second time appearing before this Subcommittee 
representing FirstNet and the men and women of public safety. I 
last testified before the Subcommittee a little more than a 
year ago and spoke to you about what and might should be the 
future of a nationwide public safety broadband network.
    Today, the message that I bring is one of tangible 
progress, including the award of the FirstNet nationwide 
contract, the delivery of the state plans, and the news that 
five states have already opted in to their plans. We have a 
clear path forward to the successful deployment of the entire 
FirstNet network.
    First, I'd like to just take a moment and thank public 
safety for everything that they do. This is who we work for 
every day. Their mission-critical serving the citizens of the 
United States is why FirstNet is so important. We have never 
lost focus of the goal of delivering the best possible network 
for the men and women who protect our communities, our 
neighborhoods, our families, and put themselves in harm's way 
without hesitation every single day.
    FirstNet has accomplished a great deal over the past few 
weeks, let alone the past 12 months since I last testified 
before this esteemed panel. In the last year, for example, we 
have continued our outreach and consultation efforts with our 
state partners, holding more than 1,200 outreach events and 
meetings across all 56 states and territories; completed the 
RFP process, including evaluating multiple competitive 
proposals, having the Court of Federal Claims verify and agree 
that our RFP process was open, transparent, and competitive; 
and we ultimately selected AT&T as our nationwide awardee.
    We've created and delivered state plans on June 19 to 50 
states, two territories, and the District of Columbia, three 
months ahead of schedule. And, as mentioned, the five Governors 
from five great states have already opted in. None of this 
could be possible, though, without the public-private framework 
that Congress established for the FirstNet network. By 
leveraging private sector resources, infrastructure, cost 
savings, public-private partner synergies to deploy, operate, 
and maintain the system, FirstNet can now be deployed quickly, 
efficiently, and cost-effectively.
    After a vigorous, competitive, yet fair and open 
transparent procurement process, AT&T was selected back in 
March to deploy the network on behalf of public safety. We are 
proud to have AT&T on board as our network partner in this 
mission critical project, and we hit the ground running with 
them on day one to deliver for public safety. With the FirstNet 
solution, our Nation's first responders will receive 
specialized services far and above what they have today over a 
first-class broadband network dedicated to local communication 
needs.
    Using existing infrastructure, FirstNet will be deployed 
rapidly, much faster than anyone thought possible, and this was 
driven by public safety's input. They've waited too long and 
fought too hard for this network. We must also realize that 
public safety communication needs are technical and more 
critical day by day as we move further into our highly 
connected Internet of Things world. That is why FirstNet and 
AT&T will continue to evolve the network hand in hand with 
public safety to ensure it meets their needs today and tomorrow 
for the next 25 years.
    While there has been much success, we still have work to 
do. As the GAO testimony references, there are areas where 
FirstNet has already improved and still areas where we still 
need to strive for more, and FirstNet is committed to 
continuing to strive for the highest level of excellence in 
every area. Status quo is not in our vocabulary.
    Tribal consultation is a key part of our planning. As part 
of FirstNet's commitment to engaging with the 567 federally 
recognized tribes, FirstNet adopted a tribal consultation 
policy to ensure that tribal emergency responders are able to 
access the benefits of this nationwide system once we have opt-
ins from the Governors. I actually also want to thank the 
Navajo nation, who is in attendance today, for their support.
    Ultimately, the most important action that FirstNet must 
take is to continue to work every day with first responders and 
always listen to public safety. You've heard me say that this 
is their network. We at FirstNet have been entrusted by public 
safety to deliver what they need in order to keep us safe. It 
is this belief that drives us at FirstNet, and we will ensure 
that we accomplish what public safety deserves, excellence in 
service, reliability, and performance.
    Thank you again for your support, and I look forward to 
answering your questions.
    [The prepared statement of Mr. Poth follows:]

     Prepared Statement of Michael Poth, Chief Executive Officer, 
              First Responder Network Authority (FirstNet)
Introduction
    Chairman Wicker, Ranking Member Schatz, and all Members of the 
Subcommittee, I would like to thank you for the opportunity to appear 
here today to provide an update on the progress we are making at 
FirstNet toward the deployment of an interoperable nationwide public 
safety broadband network (NPSBN or Network). I last testified before 
the subcommittee almost a year ago and spoke about possibilities. 
Today, the message that I bring to you is one of tangible progress and 
development, including the award of the nationwide contract, the 
delivery of initial State Plans, and a defined path forward to the 
successful deployment of the FirstNet network.
Progress towards a Network
    FirstNet intends to provide a cutting-edge wireless broadband 
communications system, with priority and pre-emption, to millions of 
first responders at the local, state, tribal, and Federal levels across 
all states, territories, and the District of Columbia, consistent with 
the vision laid out in the Middle Class Tax Relief and Job Creation Act 
of 2012 (P.L. 112-96) (Act). By enabling the Network's deployment, 
FirstNet will provide a dedicated, ubiquitous solution that helps solve 
public safety's decades-long interoperability and communications 
challenges, which includes advanced communications services, devices, 
and applications to help first responders and other public safety 
personnel make communities safer.
    FirstNet's goal of deploying the Network, and thereby meeting the 
needs of first responders, is a matter of critical importance for 
public safety, and today we are closer than ever before to 
accomplishing this goal. Since its inception, FirstNet has taken the 
necessary steps to build an organization, execute a vigorous 
consultation and outreach strategy, develop and release a comprehensive 
request for proposals (RFP), select an experienced and proven wireless 
industry leader for a first-of-its-kind public-private partnership, and 
lay the groundwork for a successful deployment of the NPSBN. Much has 
been accomplished.
    However, as it is with any unprecedented undertaking, every step 
forward presents new challenges and requires identification of 
innovative solutions. The past three years have involved hundreds of 
thousands of working hours to solve the various challenges FirstNet has 
faced. I am proud to say that today we have an organization of people 
who have approached these challenges head on and advanced the mission 
with a clear and unwavering dedication to public safety. The 
organization is dedicated to fulfilling FirstNet's responsibilities to 
the public safety community; creating a culture of hard work, openness, 
and transparency; developing a successful public-private partnership; 
and continuing a robust consultation and outreach program to educate, 
inform, and obtain input from FirstNet's partners in the states and 
public safety stakeholders.
The Selection of AT&T
    At a signing ceremony on March 30, 2017, Secretary of Commerce 
Wilbur Ross announced FirstNet's award of the nationwide contract to 
AT&T. The attendees included AT&T CEO Randall Stephenson, Federal 
Communications Commission (FCC) Chairman Ajit Pai, Members of Congress 
and staff, FirstNet Board members, FirstNet leadership, and, most 
importantly, public safety representatives.
    Prior to the ceremony, the FirstNet Board voted unanimously to 
authorize the award. With the Board's authorization, FirstNet and the 
Department of the Interior, FirstNet's procurement partner, made the 
25-year award to AT&T based on the determination that AT&T's proposal 
presented the overall best value solution for FirstNet and public 
safety.
    We were able to move forward with an award to AT&T after a March 
17, 2017, decision by the U.S. Court of Federal Claims to deny a 
protest filed by one of the unsuccessful bidders.
The Benefits of a Public-Private Partnership
    Before listing the details of the solution FirstNet and AT&T are 
delivering to public safety, it is important to understand the benefits 
of the public-private partnership. By leveraging private sector 
resources, infrastructure, and cost-saving synergies to deploy, 
operate, and maintain the Network, the NPSBN can be deployed quickly, 
efficiently, and far more cost-effectively than any other model.
    Congress foresaw the benefits such a partnership could offer and 
gave FirstNet the tools necessary to engage the private sector, thereby 
allowing the private sector to do what it does best--leverage the 
market to determine the best deal at the best price, while ensuring 
that a dedicated, interoperable Network is built to public safety's 
requirements. The fact remains that neither party--FirstNet nor AT&T--
on its own could build a network like the FirstNet Network. It would be 
too expensive and too burdensome. A public-private partnership 
ultimately will provide a Network that benefits public safety in a 
manner that would have been impossible to achieve if left solely to the 
private sector or Federal Government.
    FirstNet is confident that the Network will also provide many 
specialized features. In addition to robust rural coverage, public 
safety will have access to FirstNet-dedicated deployable equipment for 
use during disasters and pre-planned events, as well as in-building 
solutions--because FirstNet recognizes that first responders' 
communications do not stop at the curb.
    The solution also includes a customer service center dedicated 
specifically to public safety--available 24/7, 365 days a year; a 
dedicated FirstNet core with built-in redundancy to provide end-to-end 
cybersecurity; and an entire eco-system of devices, apps, and tools for 
public safety, including a FirstNet app store. Each of these features 
will be a first for public safety as they are not currently available 
on any network today.
Details of the Partnership with AT&T
    The FirstNet and AT&T public-private partnership is a significant 
investment in the communications infrastructure that public safety 
desperately needs for day-to-day operations, emergency and disaster 
response and recovery, and securing of large events. Some of the key 
broad terms of this 25-year agreement are:

  <bullet> FirstNet will provide 20 MHz of spectrum and success-based 
        payments of up to $6.5 billion over the next five years to 
        support the Network buildout; and in return AT&T will deploy 
        and operate a nationwide high-speed mobile broadband network 
        and support the digital communications ecosystem for public 
        safety over 25 years.

  <bullet> AT&T will spend a minimum of $40 billion over the life of 
        the contract to build, operate, deploy, and maintain the 
        Network, and together with FirstNet will help to ensure the 
        Network evolves with the needs of public safety and advances in 
        technology. Additionally, AT&T will connect FirstNet users to 
        the company's current telecommunications network assets, valued 
        at more than $180 billion.

  <bullet> AT&T will utilize FirstNet's spectrum when not in use by 
        public safety for other, commercial purposes. AT&T will 
        prioritize public safety users over any other commercial users 
        on the Network and over all of AT&T's commercial LTE bands, 
        including implementing a pre-emption feature for primary 
        FirstNet users.

  <bullet> FirstNet, as part of the Department of Commerce, and the 
        Department of the Interior, as our contracting authority, will 
        manage and oversee the contract to ensure AT&T delivers 
        innovation, technology, and customer care to public safety 
        through various mechanisms, including subscriber adoption 
        targets, rural coverage obligations, milestone buildouts, 
        disincentive fees, and other mechanisms.

    The benefits for public safety and cost-savings to taxpayers are 
clear. If the Federal Government alone were to build, maintain, and 
operate this mission critical Network, the Government Accountability 
Office (GAO) has estimated it could cost up to $47 billion over ten 
years.\1\
---------------------------------------------------------------------------
    \1\ U.S. Government Accountability Office, GAO-15-407, Public-
Safety Broadband Network: FirstNet Should Strengthen Internal Controls 
and Evaluate Lessons Learned 31 (2015), https://www.gao.gov/products/
GAO-15-407.
---------------------------------------------------------------------------
    With this partnership approach, FirstNet and AT&T do not need any 
additional Federal funding to build and operate the Network--it is a 
fully-funded, self-sustaining Network. In return, America's public 
safety responders will receive specialized services far above and 
beyond what they have today over a first-class broadband network 
dedicated to their communications needs. In addition, this innovative 
public-private partnership will create thousands of new jobs and ensure 
public safety has a voice in the growth and evolution of the Network.
How the Network Will Help Public Safety
    The ability to communicate seamlessly across jurisdictions is 
critical for law enforcement, fire, and emergency medical services 
(EMS) when securing large events or responding to emergencies and 
disasters. In those instances, networks can become overloaded and 
inaccessible, limiting responders' use of vital communication 
technologies, such as smartphones and applications dedicated to public 
safety services.
    By providing unfettered, uninterrupted access to wireless spectrum, 
the NPSBN will help improve response times and situational awareness 
for public safety from coast-to-coast, every state, territory, and 
across tribal and Federal land, in both rural and urban areas, leading 
to safer and more secure communities, and first responder safety.
    The market certainty the Network will provide through a long-term 
commitment, scale, and capacity will enable private sector investment 
and innovation for advanced life-saving technologies, tools, and 
services, such as:

  <bullet> Applications that allow first responders to reliably share 
        videos, text messages, photos, and other information during 
        incidents in near real-time;

  <bullet> Advanced capabilities, like camera-equipped connected drones 
        and robots, to deliver images of wildfires, floods, or other 
        events;

  <bullet> Improved location services to help with mapping capabilities 
        during rescue and recovery operations; and

  <bullet> Wearables that could relay biometric data of a patient to 
        the hospital or alert when a fire fighter is in distress.

    Network technology will also be tested and validated through the 
FirstNet Innovation and Test Lab, located in Boulder, CO, to ensure 
first responders have the public safety grade, proven tools they need 
and can trust during disasters and emergencies.
State Plans
    On June 19, FirstNet and AT&T delivered initial State Plans to the 
states and territories for comment three months ahead of schedule.\2\ 
This marked a major milestone in the deployment of FirstNet.
---------------------------------------------------------------------------
    \2\ As of July 20, 2017, three territories (Guam, Northern Mariana 
Islands, and American Samoa) have not yet received their initial plans. 
Delivery of State Plans for these territories will occur as soon as we 
have more comprehensively documented a solution that will bring 
superior value and capabilities to the public safety entities in these 
territories.
---------------------------------------------------------------------------
    Since 2013, FirstNet has worked hand-in-hand with the states, 
territories, localities, Federal authorities, tribes, and the public 
safety community to make sure the Network is specifically built for 
their needs. FirstNet's consultation efforts included more than 140,000 
engagements with public safety stakeholders nationwide, and the 
collection of data from states and territories that accounted for more 
than 12,000 public safety agencies representing more than 2 million 
public safety personnel.
    Developed with this input, the customized State Plans outline the 
coverage, features, and mission-critical capabilities FirstNet and AT&T 
will bring to first responders and other public safety personnel. 
States have the opportunity to identify priorities and concerns related 
to Network coverage (including in rural areas) and services. FirstNet 
has also encourage states to solicit feedback from the tribes in each 
state to ensure their priorities and concerns were incorporated in the 
State Plans. Based on this feedback, FirstNet and AT&T will determine 
how to evolve the solution, where possible, to address these 
requirements.
    In conjunction with the release of the initial State Plans, the 
partnership also launched a public website: FirstNet.com. This website 
provides information about the FirstNet solution, the unique value of 
the FirstNet Network to public safety, and how public safety entities 
may subscribe to FirstNet once a state or territory opts in. The site 
will host information on quality of service, priority and preemption; 
local control features; the applications store; devices and accessories 
for FirstNet; and coverage and rate plans.
Future Timelines
    The delivery of the initial State Plans kicked off the next phase 
of the FirstNet Strategic Roadmap toward network deployment. This key 
development gives states and territories the opportunity to review the 
State Plan for up to 45 days. During this time, they have the 
opportunity to ask questions of and provide comments back to FirstNet 
and AT&T. The state single point of contact (SPOC) is responsible for 
consolidating the feedback from their respective state and providing it 
to FirstNet. This process allows the SPOC to continue to be the primary 
point through which information about Network planning flows in 
discussions with the state or territory.
    FirstNet and AT&T plan to respond within 45 days to any questions 
or comments received by each state and territory during the review 
process. Following the conclusion of this period, likely in mid/late 
September 2017 for those states and territories that choose to make use 
of the full State Plan review period to ask questions and provide 
comments, FirstNet will provide notice to the governor, per the Act. 
The notice to the governor will include notification that the RFP 
process is complete, the final State Plan, and the funding level for 
the state as determined by the National Telecommunications and 
Information Administration (NTIA) for potential state Radio Access 
Network (RAN) construction grants in the event the state opts out. This 
will initiate the 90-day clock that the Act provides for each state or 
territory governor to make an ``opt in/opt out'' decision on its State 
Plan. We expect the deadline to complete this decision in mid/late 
December 2017.
    Since the release of initial State Plans, FirstNet and AT&T have 
been actively engaging with the states and territories to support their 
review of the State Plan and answer questions. As of today, we have 
conducted in-person engagements with 48 states and territories.
The Governors' Decision
    The decision that a governor faces is one that will have profound 
consequences on the ability of public safety in his or her state or 
territory to gain access to mission critical broadband.
Opt in:
    A governor's decision to opt in will enable FirstNet and AT&T to 
begin the process of delivering services to that state or territory's 
public safety community. It is a decision that will also drive 
infrastructure investments and job creation.
    If a state opts in or takes no action on the State Plan within 90 
days of receiving notice, FirstNet will issue a task order to begin 
deployment of the RAN portion of the FirstNet Network in the state at 
no cost to the state. States do not have to wait the full 90 days to 
make an opt in decision and several states have already provided notice 
of their intention to opt in. The opt in path is a low-risk option that 
will support faster delivery of services to the state's public safety 
community and help create an interoperable, highly secure, sustainable 
Network for public safety. The earlier a state opts in, the sooner 
public safety responders in that state will have access through AT&T's 
enhanced communication capabilities to help better serve and protect 
their communities.
    On July 11, 2017, the Commonwealth of Virginia became the first 
state to submit a letter of intent to opt in to the FirstNet Network. 
Shortly thereafter Wyoming became the first state in the West to send a 
letter of intent to opt in. We look forward to working with Virginia, 
Wyoming and all states in moving forward with deploying the Network.
Opt out:
    If the state elects not to participate in the FirstNet RAN 
deployment, it must provide notice to FirstNet within 90 days of 
receiving notice of its State Plan from FirstNet, and within 180 days 
of such notice to FirstNet, the state must develop and complete an RFP 
for the state RAN.\3\ Subsequently, it must submit an alternative plan 
to the FCC for the construction, maintenance, operation, and 
improvement of the RAN in the state within 60 days from RFP completion. 
The state RAN must be interoperable with the Network and comply with 
FirstNet's requirements and standards for the Network. Before the 
state's RAN deployment can begin, the Federal Communications Commission 
(FCC) must approve the alternative plan, and, if approved, the state 
must then apply to the NTIA for the right to enter into a spectrum 
capacity lease with FirstNet, and ultimately agree to the terms of such 
a lease with FirstNet, and may also apply to the NTIA for a state RAN 
construction grant.
---------------------------------------------------------------------------
    \3\ These plans release on June 19 provide the states and 
territories the opportunity to exchange feedback with FirstNet before 
an official 90-day clock starts for each state or territory governor to 
make an ``opt-in/opt-out'' decision on its State Plan. This clock will 
only begin in September.
---------------------------------------------------------------------------
    Opt out states will assume all technical, operational, and 
financial risks and responsibilities related to building their own RAN 
for the next 25 years. Given the statutorily mandated processes, it is 
possible a state pursuing opt out will be at least two years behind 
states that opt in.
    It is important to note that if a state or territory wishes to opt 
out, FirstNet will do everything we can to make that opt out process a 
success. Public safety cannot afford to have areas of no service 
throughout the country. We are encouraging states and territories to 
look at all the information in the State Plans to ensure that they 
fully understand the risks and requirements associated with opting out. 
We are confident that each State Plan will deliver the coverage, value, 
and experience states and territories expect for their first 
responders, bringing us closer to making the cutting-edge Network and 
technologies that public safety has been asking for a reality.
Conclusion
    For more than three years, FirstNet has worked hand-in-hand with 
our partners in the states and territories to develop a Network that 
meets the needs and objectives of our Nation's first responders. After 
thousands of meetings and countless discussions with public safety, we 
feel confident about the overall Network solution and individual plans 
that we have proposed for each state and territory because they have 
been driven by and reflect public safety's input throughout the Nation.
    FirstNet has made a lot of progress over the past year. We 
successfully completed a comprehensive nationwide RFP process, which 
included prevailing in a protest action; awarded a 25-year contract to 
AT&T--an innovative private sector technology partner who has 140 years 
of experience serving the public safety community; and worked 
effectively and efficiently with AT&T to deliver initial State Plans to 
governors three months ahead of schedule. We are now focused on 
preparing for the deployment of the Network in opt in states and 
territories and the next crucial phase of the project--public safety 
user adoption.
    While there has been much success, we still have work to do. As the 
GAO highlighted, there are areas for improvement, and FirstNet is 
dedicated to continuing to strive for excellence in every area.\4\
---------------------------------------------------------------------------
    \4\ U.S. Government Accountability Office, Public Safety Broadband 
Network: FirstNet Has Made Progress Establishing the Network, but 
Should Address Stakeholder Concerns and Workforce Planning (2017).
---------------------------------------------------------------------------
    Through cooperation with the Department of Commerce, NTIA, the FCC, 
and other Federal partners, FirstNet has been able to achieve a great 
deal over the past year. Moving forward, we plan to continue to 
leverage these partnerships.
    Ultimately, the most important action that FirstNet must take is to 
continue to listen to public safety. You have heard me say time and 
again that this is their Network. We at FirstNet have been entrusted by 
public safety to deliver what they need in order to keep us safe. It is 
this belief that drives us at FirstNet and will ensure that we 
accomplish what public safety deserves--excellence in service, 
reliability, and performance.

    Senator Wicker. Well, thank you very much.
    Let me just begin by asking Mr. Sambar and Mr. Poth--Mr. 
Goldstein says the GAO report was released today. Did either of 
you get a sneak preview?
    Mr. Poth. We certainly did at FirstNet. GAO has been a 
great partner. We worked with them hand in hand as they were 
developing the report and their recommendations.
    Senator Wicker. OK. Well, Mr. Poth, having seen a draft 
copy, then, you, I think, responded to some of the items that 
Mr. Goldstein mentioned, particularly the tribal concerns. Is 
there any other response you'd like to put on the record in the 
hearing in reply to the report of the GAO?
    Mr. Poth. No, absolutely, as Mr. Goldstein identified, two 
areas that they thought we needed to focus on are staffing, 
long-term staffing for our program office. We addressed that 
quickly, and in full recommendation, we've already been doing a 
great deal of work to that.
    As it relates to the tribal, we've done a great deal of 
work over the last year and continue to try to improve our 
position with our tribal consultation. We adopted tribal 
policies. We actually, with our public safety advisory 
committee, have established a tribal working group, which is 15 
members from 15 different tribes, and we continue, as we do 
state outreach, to do work both with the states and all the 
tribes within those states to continue to improve the 
communication so that they have an appreciation of what 
FirstNet can bring to bear for them.
    Senator Wicker. Mr. Sambar, I'll bet you got a sneak peak, 
too.
    Mr. Sambar. I did, sir.
    Senator Wicker. Is there anything you'd like to add to 
supplement Mr. Poth's----
    Mr. Sambar. Just to piggy-back on the tribal question and 
the issue that was noted in the GAO report. As we understand 
it, there are just over 550 federally-recognized tribal 
entities, and the majority of them are in California and 
Alaska, right around 60 percent. And since March, we have done 
over 1,000 visits between AT&T and FirstNet throughout the 
country. We have, on just over 400 occasions, been in 
situations or visits where we could invite tribal entities. So 
any time we have the opportunity to invite them, to give them 
information, to make them feel welcome, and to gather their 
input, most importantly, we have done that.
    So we have tracked every visit that we've done, every time 
we've extended an invitation, and every time they have 
attended. Our goal is to reach as many of them as possible, and 
these visits and meetings will continue throughout the rest of 
the year. So our goal is as much engagement as possible to 
satisfy their desires and concerns.
    Senator Wicker. Thank you.
    Dr. Darsey, let me mention that the Mississippi Wireless 
Communications Commission has expressed concerns about 
FirstNet's commitment to hardening the network. You mentioned 
this in your testimony, the need for FirstNet infrastructure to 
be hardened. Can you discuss why that's important? And is it 
more important in the rural areas? Also, in your experience, 
how do broadband needs differ between urban and rural 
communities with respect to providing emergency medical 
services?
    Dr. Darsey. Sure. Thanks for the question. I'll give you an 
example. A couple of years ago, we had a tornado, as you well 
remember, that took out a hospital in the northeast part of our 
state. The Medical Center has got a pretty robust program to 
respond to that, and we did. The challenge in that was it took 
out a couple of commercial towers, but it did not, after a 
fairly close hit, take out one of our hardened public safety 
communication towers.
    What that did for us is we lost all ability to communicate 
data out of that area, which was vital in moving and evacuating 
the hospital, nursing home, and recovering the people that were 
there. That's the piece that is the concern that I think we 
share, all of us here, of how do we make that as hardened as 
possible.
    In terms of rural and urban, from a medical perspective, we 
can do a lot more, as our team is showing in Mississippi and 
other states, if we know about the patient well before they get 
close to a hospital. If we can reach out and touch the stroke 
patient in the middle of the Mississippi Delta, we can 
dramatically increase their chances of survival and meaningful 
use after arrival to the hospital.
    Currently, we're doing that over radio, and it's working 
really well. But now imagine that in the rural areas. In urban 
areas, it's vital in the medical world, but here, we're 5 
minutes from multiple hospitals. Now take that as 45 or 50 
minutes away, and what we can do with broadband data in that 
time is truly lifesaving and a saving of healthcare dollars. 
There's a nexus here that FirstNet can combine both of those.
    Senator Wicker. Thank you.
    Mr. Sambar, I'll take another round later on and let you 
respond to that.
    At this point, Senator Schatz has graciously yielded his 
time to the Ranking Member of the Full Committee, Senator 
Nelson, who is recognized for whatever opening statement he 
might make as well as questions.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, I will be merciful, and I 
will insert the opening statement into the record and just note 
that I'm delighted to be working with Senator Klobuchar on 
updating the 9-1-1 systems, which so many of are still stuck in 
the analog era.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Welcome to our witnesses. Much has happened since the 
subcommittee's last oversight hearing on FirstNet. The announcement of 
FirstNet's private sector partner--AT&T--earlier this year marks a 
major milestone in the development of this network. Very soon, this 
network will move from the drawing board into the hands of our first 
responders.
    This hearing comes as all 50 states, the District of Columbia, and 
U.S. territories are reviewing the initial state plans FirstNet has 
developed for deploying the FirstNet radio access network in those 
locations. And I am pleased that five states have already made their 
intention to join the FirstNet network clear. Deputy Secretary Brown, I 
hope to hear from you today about why the Commonwealth of Virginia 
became the first state to opt in to the FirstNet network.
    Providing public safety with essential advanced communications 
technologies is a national imperative. The FirstNet network is an 
essential step in this process--and I am glad that it is so close to 
becoming a reality. But, at the same time, another part of the Nation's 
public safety communications architecture needs Federal attention. Our 
nation's 9-1-1 systems are falling behind the times with most stuck in 
the analog era while the world has moved to digital.
    That is why I have joined with Senator Klobuchar to develop the 
Next Generation 9-1-1 Act of 2017. That act will provide Federal 
support and assistance to help states and localities develop and deploy 
next generation 9-1-1 systems and create a public safety communications 
architecture that is digital from the citizen all the way to the first 
responder.
    First responders put their lives on the line for each one of us 
every day--something that we here in Congress were starkly reminded of 
just a few weeks ago. First responders deserve a state-of-the-art 
advanced nationwide interoperable wireless broadband network to help 
them do their jobs to protect us all. By all indications, the FirstNet 
network is prepared to deliver just that.
    And here on this committee, we'll continue to do the necessary 
oversight of this public-private partnership to make sure that it lives 
up to the critical public safety mission we gave it back in 2012.

    Senator Nelson. Thank you, Senator Schatz, for your 
graciousness and your courtesy.
    Mr. Poth, if you can, explain to the Committee in a little 
more detail why AT&T's bid offered the best value for public 
safety. I'm very pleased that FirstNet has finally entered into 
this long-term contract with the private sector partner. This 
idea of interoperability has bedeviled us forever. It has 
bedeviled us, as Senator Wicker knows, on the Armed Services 
Committee and our Nation's military as well, and they are 
finally getting the interoperability of our radios.
    But explain a little more about why your bid offered the 
best value?
    Mr. Poth. So the process that FirstNet undertook since our 
inception is to understand truly what the public safety needs 
are and how they can maximize the broadband network technology. 
Through that process and over the years, we were able to 
develop an RFP with 16 objectives that both the states and 
public safety thought were important, and we put that into a 
formal proposal process and a highly competitive one.
    We didn't go out looking for AT&T or another vendor. We 
went looking for someone that could maximize the value for 
public safety and also provide the financial sustainability 
that's required for this to be successful for years to come. 
Through that process in over an 18-month period, numerous bids 
were in, and they were analyzed with a great level of detail, 
and through that process that the Department of Interior 
assisted us with as the acquisition experts, AT&T came out as 
the prevailing solution and prevailing company to----
    Senator Nelson. The question is why?
    Mr. Poth. Well, the value that they're bringing with their 
existing infrastructure, their ability and size, their 
financial sustainability to be able to take on something of 
this nature, and their lowest risk approach to implementing 
this in the shortest time were some of the value propositions 
that made them more competitive than some of the other bids 
that were analyzed.
    Senator Nelson. Mr. Sambar, anything else that this public-
private partnership offers to state and local first responders, 
other than him saying that's why they picked you?
    Mr. Sambar. Yes, Senator. There is one specific benefit 
that I would point to that I think few wireless companies or 
companies in the world could offer, which we offered after the 
initial proposal during discussions with FirstNet. The initial 
RFP that FirstNet released contemplated building out a public 
safety broadband network using just Band Class 14, and we 
responded accordingly.
    But through discussions, we decided we would extend it 
beyond just the Band Class 14, which is the spectrum that was 
allocated for first responders in 2012. We said we would open 
up all of the spectrum bands within AT&T. So, essentially, what 
that means is the day that a state opts in, they have immediate 
access to AT&T's entire network, all spectrum bands, and they 
will see the benefits of FirstNet on all spectrum bands, all 
wireless towers from AT&T that are LTE enabled.
    So I think that's a tremendous benefit that FirstNet was 
not expecting when they contemplated the original RFP. But when 
we brought that, I think they were very pleased with that, and 
that helped us.
    Senator Nelson. So you're going to have a level playing 
field for all device manufacturers?
    Mr. Sambar. Absolutely, sir.
    Senator Nelson. All right. Deputy Secretary Brown, Virginia 
became the first state to announce that it would opt-in to this 
public safety wireless broadband network. There must have been 
some folks in Virginia that suggested that you opt-out of the 
network and chart your own path. Tell me the benefits to 
Virginia's first responders of the Governor's decision to opt-
in.
    Mr. Brown. Thank you, Senator. The decision to opt-in was 
really based on looking at the benefits that come with opt-in, 
the immediate priority and preemption services that would come 
for those who are subscribers to the network. And a major 
thing, Senator, is the fact that it comes at no cost to the 
Commonwealth. We have been disproportionately impacted by 
sequestration and other aspects. The Governor had to close a 
$300 million budget deficit, and so looking at the cost that it 
would take to build a network and sustain it, it just was not 
feasible.
    The benefits were clear in terms of preemption, deployable 
assets that were being offered, and the fact that our public 
safety stakeholders would guide the buildout of the network. We 
look forward to, again, ensuring that the rural buildout is 
there, the services and capabilities come with the network.
    But we did weigh it. We looked at it closely. But given 
some of the unique features of Virginia, including the fact 
that we will be inaugurating a new Governor within six months, 
we thought that it would be best to begin the start of building 
the network with FirstNet and AT&T versus beginning this 
massive multimillion, multibillion-dollar project of opting out 
and taking on all the risks and responsibilities related to 
that.
    Senator Nelson. Thank you, Mr. Brown.
    Thank you, Mr. Chairman.
    Senator Wicker. Thank you, Senator Nelson.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Well, thank you very much, Chairman Wicker 
and Ranking Member Schatz and Ranking Member Nelson as well. 
Thank you to all of the witnesses for being here today, and a 
special thanks, as you all recognized, to our public safety 
community, because that's who we want to support with this 
effort.
    As a former governor, I am keenly aware that states are 
often in the best position to make critical decisions about 
what best suits them, especially a state like mine, which has 
some pretty unique terrain and some rural areas that really 
don't have a lot of access. So I think that the legislation 
that authorized FirstNet got it right when they left the 
decision of opt-in or opt-out to our nation's Governors.
    Now that a national FirstNet vendor has been chosen, states 
are obviously carefully weighing their options, and I've heard 
from constituents in my state that one challenge they're facing 
in gathering as much information as possible before making this 
decision is that they're facing challenges when it comes to 
comparing the national plan with state plans that are being 
proposed as alternative.
    The challenge includes issues such as having to acknowledge 
the terms of agreement that do not permit them to actually 
share information in the plans with key people in their state. 
So, literally, our SPOC may not be able to share information 
with members of the Governor's staff in New Hampshire, which 
makes it incredibly difficult for them to make an informed 
decision.
    So my question to both Mr. Poth and Mr. Sambar is how are 
states supposed to stay informed and make this critically 
important decision without, in every case, being able to 
compare and contrast the national plans with state plans?
    Mr. Poth. Thank you for the question, Senator. With the 
terms of use and the data that we provided to all 56 states and 
territories, the detailed information, some of which is 
confidential, and, as you can imagine, since this is a mission 
critical public safety network, we have to be very protective. 
I certainly can tell you and assure you that all state 
officials that need access should be getting access to that. We 
do have to be careful, and we'll limit access to any vendors or 
consultants that want access to that data.
    So that's the restrictions that we're trying to be very 
careful with because of the nature of this project and the 
program. But it's absolutely our commitment and our intent with 
all the states that they have the most information possible so 
the Governor can make the most informed decision.
    Senator Hassan. Mr. Sambar, anything to add?
    Mr. Sambar. Yes, Senator. We initially envisioned when we 
launched the state plan portal on June 19 that we would have 
roughly 50 user IDs and passwords per state. That would be 50 
individuals who would access the portal. We immediately got 
feedback that states wanted more, and we are offering more. So 
we have a state right now--as a matter of fact, 227 login and 
user IDs have been issued.
    So it shouldn't be an issue for a state if they have 
additional people. The only requirements we have, Senator, is 
that, as Mr. Poth said, it's an official e-mail address, 
somebody in the state who works for the state or an authorized 
consultant. Either of those is fine. We just don't want like 
@gmail, @hotmail, someone that we don't know in there.
    Senator Hassan. Right. OK. Well, then, I will make sure 
that I take that information back to my state and make sure 
they reach out to you and get that cleared up.
    The other thing I wanted to explore with both of you--and 
we talked a little bit about it, Mr. Poth, when you came to 
meet with me in my office, which I appreciated very much. Our 
greatest challenge for commercial connectivity and public 
safety connectivity is our sparsely populated rural parts of 
our state, particularly up north. We've had situations of 
missing children, you know, critical murder investigations, 
very challenging natural disasters like ice storms, and they're 
particularly challenging, as they are for many of our states, 
in remote areas.
    We have heard from vendors who want to serve as an 
alternative to the national plan, and we've heard from FirstNet 
and AT&T that rural coverage will be a priority. But no matter 
who New Hampshire chooses as its vendor, we need more than an 
informal assurance that when it comes to ensuring that all of 
our first responders all across the granite state have 
interoperable access.
    So with a state like New Hampshire, which has major gaps in 
public safety communications as well as commercial voice and 
wireless service in some rural areas, how will FirstNet ensure 
that these first responders and these areas will not get left 
behind? And what kind of accountability measures are there? 
Let's say 3 years from now, we're still not getting the 
coverage and access we need in these difficult parts of the 
state. How do the states hold you all accountable for that?
    Mr. Poth. The state plans that everyone is currently 
reviewing is what AT&T's and FirstNet's commitment to that 
state will be if they opt-in. So when a state does opt-in, that 
becomes our commitment, and then we contractually will hold 
AT&T responsible and accountable to execute to that plan that 
the state has agreed to. So that's the first part. And a big 
component of those plans, as you mentioned, is the rural 
coverage, whether it's with terrestrial sites or through the 
use of deployables and how those would be accomplished, and 
that's why it's critical that the states are doing this review 
right now so that they have a full appreciation of how that 
could really work in a state.
    So once they have made that decision, then we will 
contractually, with the master contract that we have with 
AT&T--we will use that as a roadmap. And over the years, not 
just the first 5 years, but for the next 25 years, through 
service level agreements and metrics, we'll be holding AT&T 
responsible and accountable to execute to that plan.
    Senator Hassan. Thank you.
    Mr. Sambar, anything to add?
    Mr. Sambar. Senator, I've heard loud and clear with the 
initial RFP and as I've visited the states, especially New 
Hampshire--I've been there three times myself, met with the 
Governor twice. We visit there almost every week--that rural 
coverage is a concern. We're embarking on an aggressive 
buildout program over the coming years to build out rural areas 
across America where there is no coverage.
    As Mr. Poth said, there will always be areas that will be 
uncovered in any radio access network in the world. But we do 
have solutions for that, and the main solution is what we call 
deployables, and that's a mobile self-site. So the White 
Mountain National Forest in northern New Hampshire, for 
example--the ability to get a deployable up there and deploy a 
network where there is no network is very important.
    Today, in the west, in California, there are wildfires 
burning, and we actually have two deployables that are deployed 
right now. I brought a picture of one of them. It's a--pass 
this around if you'd like. But it's a large truck with a mobile 
network with the fire spreading in the background.
    Senator Hassan. Right. I've seen those before, yes.
    Mr. Sambar. Great. So we will keep building out----
    Senator Wicker. We'll put it in the record, without 
objection.
    [The graphic referred to follows:]

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

    Mr. Sambar. We'll be building out 72 of those around the 
country, so you will have very quick access to deployables by 
just calling AT&T or FirstNet--any state will--to be able to 
cover those areas that are uncovered.
    Senator Hassan. I've gone well past my time. Thank you for 
your indulgence, Mr. Chair.
    Thank you both for the answers.
    Senator Wicker. But, Senator Hassan, your question was how 
do the states hold FirstNet and AT&T to account.
    Is it your position, gentlemen, that adherence to the state 
plan amounts to a legally binding contract?
    Is that sort of your question, Senator Hassan?
    Senator Hassan. Yes, it's a legally binding contract, and 
then also----
    Senator Wicker. And what the recourse is.
    Senator Hassan. What the recourse is for states----
    Senator Wicker. If you don't mind, Senator Klobuchar, 
before I recognize you, could we drill down on that?
    Senator Hassan. Thank you, Mr. Chair.
    Mr. Poth. I think there's an important clarification. So it 
will be a legally binding contract between FirstNet and AT&T to 
execute to that plan. It will not be a contract, per se, with a 
state. It is a commitment to the state.
    Now, how do the states hold us accountable? As FirstNet 
shifts gears from developing a proposal and making an award, 
for the next 25 years, we are going to be in a position to work 
with the states continuously--and public safety in all of those 
states--to make sure that all of their expectations, both from 
the state plans and in the future, are being met and 
translated, if appropriately, back into contractual actionable 
items. Or if AT&T, for example, is not meeting the requirements 
or the expectations, FirstNet, on behalf of public safety and 
those states, will enforce the terms of the contract.
    Senator Wicker. Thank you very much.
    Senator Klobuchar?

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, and thank you 
to the panel.
    I've very much enjoyed working with Senator Burr on the 
Next Generation 911 Caucus--we chair that--and then recently 
working with Senator Nelson on our bill. I just want to follow 
up on some of the questions the Chairman and Senator Hassan 
had. Like them, I'm very concerned about rural areas. Minnesota 
has large expanses of rural areas, and ours can get really 
cold. In fact, 1 day, northern Minnesota registered colder than 
Mars. This is a true story. The Range Rover was on a warm part 
of Mars, and we were colder than Mars. So I would subscribe to 
the belief that we do have unique needs in our states.
    First of all, I'll start with one of our unique needs and 
ask you, Mr. Poth, if there are any updates on the coordination 
with Canada since we share a large border with Canada in 
Minnesota.
    Mr. Poth. There's a lot of good news. Canada is using the 
same exact spectrum that we'll be utilizing with AT&T, so there 
are a lot of synergies. We spend a great deal of time 
coordinating and comparing notes with Canada and the public 
safety entities in that country as to what we're doing so that 
there is--the interoperability between the countries will also 
be realized.
    Senator Klobuchar. Very good. And then this came directly 
from our state team, and that is that I know you've been 
working directly with public safety officials to tailor these 
unique state plans. As I mentioned, we face some unique public 
safety concerns, some of them shared by Senator Hassan, like 
snowmobilers out in the middle of winter and losing their--
running out of gas and not being able to call.
    So states have up to, as I understand it, 45 days to review 
the plans and then ask questions, and I know this process is an 
important part of ensuring that the network that eventually 
gets built addresses the public safety needs of each state.
    So, Mr. Poth, what steps is FirstNet taking to ensure 
states receive timely answers to their questions?
    Mr. Poth. We're making sure, through this 45-day period, 
that they understand what we're presenting, and then as the 
questions and comments--and we've had hundreds of comments from 
throughout the country and the states to get clarification or 
to get a greater appreciation. We're responding to those as 
quickly as possible in real-time during this period. Our intent 
is that on August 4, the states will have had the time to 
provide their initial comments and observations, and if we 
haven't responded to them by that point, we certainly will be 
doing that to finalize any of the plans that we are targeting 
to deliver in September.
    Senator Klobuchar. OK. Well, I'll be in touch if we're 
having trouble getting answers.
    Mr. Poth. Absolutely. Please do.
    Senator Klobuchar. Thank you. And then I mentioned earlier 
the 9-1-1 work that the caucus is doing here and that the 
Committee is doing, and I believe that this system is urgently 
in need of upgrades.
    Mr. Sambar, what opportunities do you see coming from an 
integration of FirstNet and Next Generation 911 networks?
    Mr. Sambar. Tremendous opportunity, Senator. As was noted 
earlier, most of those are TDM POTS-based systems. They're 
voice only. There's no data connectivity between the PSAPs, the 
public safety answering points, and first responders in the 
field nor the individual folks that are calling in to the 
PSAPs. So there are tremendous opportunities.
    We have states today that are adopting a Next Generation 9-
1-1 system. That gives the ability for a private citizen 
calling in to be able to pass pictures, videos, other data to 
the 9-1-1 center and immediately pass it out to first 
responders. The FirstNet network will be that final leg where 
the PSAP can pass data out to the first responders on a 
dedicated network just for those first responders so it'll 
ensure a seamless passing of information. So I think there's 
tremendous opportunity for those networks to work together, 
Senator.
    Senator Klobuchar. Very good. And, also, this is a new form 
of communication. It's all great, and it's going to help first 
responders save lives. But the new technologies--with any new 
technology, as we know, comes new risks. What is AT&T doing to 
detect and prevent cyberattacks on the FirstNet network?
    Mr. Sambar. On the FirstNet network, we have taken--based 
on the contractual obligation with FirstNet, we've taken a lot 
of steps and are taking steps in the future. So there will be--
specific devices for the FirstNet network need to be certified 
by AT&T for cyber. As you go through the network, we go into 
what's called the evolved packet core, which is the core 
network where all of the data traffic rides. We are building a 
separate evolved packet core for FirstNet for first responders 
data. So that data will never touch our commercial core 
network. It will only stay on that specific core network.
    Past that, we have a security operation center that we are 
building specifically for this network. AT&T has security 
operation centers, but in this case, we're building one just 
for first responders. And then identity, credentialing, and 
access management, which was mentioned earlier--we're taking 
extensive steps to ensure that we get the right people on the 
network through credentialing and the wrong people stay off of 
the network. So we're taking a number of steps that we've gone 
through with FirstNet to ensure that this network is secure.
    Senator Klobuchar. OK. And just one last question, Mr. 
Chairman.
    Mr. Brown, as I was talking about the state plans with you 
here for Virginia, that question I asked about the question and 
answer--can you talk about the importance for the state team of 
getting timely answers and getting information?
    Mr. Brown. Yes, Senator. I would say that FirstNet and AT&T 
have been very responsive. We have a collaborative group of 
stakeholders through our statewide Interoperability Executive 
Committee who is reviewing the state plan and have been engaged 
in this for a while, and we're actually, right now, in the 
final stages of planning several different regional conferences 
across the Commonwealth, including in our urban areas, in which 
FirstNet and AT&T will be there to answer questions directly 
from those stakeholders.
    So they've been very engaged. Our public safety 
stakeholders have been satisfied with the responsiveness, and 
we expect this to continue as the network is built out.
    Senator Klobuchar. Thank you very much.
    Senator Wicker. Well, Mr. Sambar, I said we would get back 
to the hardening issue, and Senator Klobuchar has touched on 
one aspect of it. I was talking to Dr. Darsey, and he mentioned 
the tornado in Louisville, Mississippi, and how fortunate and 
foresighted leaders were in making one of the towers hardened.
    Are AT&T's commercial networks hardened in every respect 
and considered, quote, ``public safety grade?''
    Mr. Sambar. Senator, I will tell you that I have not seen 
nor do I believe there is a specific definition for public 
safety grade. But AT&T constructs our towers to meet state and 
Federal requirements, to withstand things such as wind, 
earthquakes, et cetera. So we've gone to great lengths to 
construct our network in a manner that is as reliable as 
possible, and we believe that there will always be instances 
where towers will get knocked down. It's a function of mother 
nature.
    In the case that Dr. Darsey mentioned, the solution there 
in a FirstNet world is these deployables that will have a 
defined response time, relatively short, to be able to come out 
to that area and immediately provide network communications in 
an area where towers have been knocked down, network 
communications, not just voice as he mentioned, but also the 
data communications that first responders desperately need. So 
we think that we have a solution in our existing network, which 
is sufficiently hardened, as well as in deployables that we can 
get to an area as quickly as possible and put up a network 
where there is none.
    Senator Wicker. Mr. Poth, is public safety grade a term of 
art?
    Mr. Poth. Somewhat. The key is, as Mr. Sambar----
    Senator Wicker. Maybe we need to define it.
    Mr. Poth. Well, we are working with AT&T, and all of the 
sites that are--the dilemma that we have is which site is more 
important than another site. Is your site in Mississippi more 
critical than one in Nebraska? Absolutely not. They're all 
important. So AT&T, both with their existing infrastructure and 
new sites that will be built, as Mr. Sambar said, are meeting 
not only the state and Federal rules, but we're trying to make 
sure that they are hardened. But as he pointed out, I'm not 
aware that a public safety hardened definition is anything that 
we're applying.
    Senator Wicker. Mr. Poth, what will FirstNet do to ensure 
that its network and service arrangement with AT&T will 
leverage innovative products and applications in the 
marketplace that can improve public safety and the delivery of 
emergency services?
    Mr. Poth. As has been mentioned by others during their 
testimony, one of the things that we're most proud of at 
FirstNet also is that we have developed our own lab out in 
Boulder, and one of their focuses is innovation and technology. 
And working with our sister organization, PSCR, you may recall, 
Senator, in the statute, there is actually $300 million set 
aside for public safety research and innovation, and just a 
couple of months ago, they awarded the first $38 million in 
grants to universities and companies to continue to push public 
safety innovation and technology. Our expectation for years to 
come is that FirstNet will be advocating and pushing innovation 
for the benefit of public safety.
    Senator Wicker. Thank you very much.
    Senator Markey is next.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much.
    This is a very important hearing, and one of the key 
issues, of course, is the ability to locate a fellow first 
responder in an instrumental ingredient in any of the rescue 
efforts. This coordination is, without question, central to the 
ability to be able to ensure that in a dense, urban area, 
simply knowing a first responder's longitude and latitude 
coordinates may not be enough. We must also know their altitude 
or their Z-coordinate so that a more precise identification can 
be made.
    We need to know that there is a battalion of firefighters 
battling a blaze on the fourteenth floor of a building. We need 
to know the EMS is treating a patient on the lowest floor of an 
underground parking garage. We need to know there is a police 
squad engaging a suspect in an underground metro shop. These 
enhanced location services are potentially lifesaving, and we 
must ensure they are in the hands of our first responders as 
soon as possible.
    Mr. Sambar, how quickly can AT&T bring those lifesaving 
technologies to FirstNet?
    Mr. Sambar. Senator, we've actually had a lot of 
discussions about this just over the past couple of weeks with 
this technology group, as he mentioned, in Boulder, Colorado--
--
    Senator Markey. That's why we're having the hearing--for 
conversation that, you know--have peace and tranquility on the 
panel.
    Mr. Sambar. Perfect timing, I guess, Senator.
    Senator Markey. Yes, perfect.
    Mr. Sambar. There are solutions out there for, as we call 
it, Z-axis location, and we understand just how important that 
is to public safety. The example we always use is a firefighter 
in a burning building--smoke inhalation, and he's down and 
needs help. It's vitally important that we provide that.
    It is a contractual requirement with FirstNet. We will 
absolutely develop that. The concerns that we have at this time 
is the maturity of the technology and ensuring that that 
technology works at times when it should. So, for example, when 
a building--when the power goes out in a building, if there are 
pressure differences in the building that create a bio fire, 
how do we account for pressure differences.
    Some of the solutions on the market today require pressure 
as well as beacon systems. We want to make sure that all of 
that is vetted correctly. So working closely with the FirstNet 
Authority, we want to make sure that we bring that to market 
when it's ready, when it works correctly, and as quickly as 
possible.
    Senator Markey. So, Mr. Poth, are you happy with the 
progress that's being made? How can we telescope the timeframe 
that it is going to take for AT&T and you to reach an agreement 
that can, in fact, ensure that those services are available?
    Mr. Poth. Yes, and we do, with our contract, have an 
agreement. So by 2020, the solution set will--should be 
available. As Mr. Sambar said, some of the preliminary 
technology exists, but it is not in a position now to be 
deployed, and we----
    Senator Markey. Why so long? Why will it take until 2020, 
Mr. Poth?
    Mr. Poth. That's the target that we set in the contract. 
There is technology that exists today, but we don't believe it 
is yet robust enough to be put out into the field. But we 
believe it's going to come along. If it moves up quicker, we 
are certainly going to advocate and work with AT&T to 
accelerate that.
    Senator Markey. But you are saying by 2020, it will be in 
place, Mr. Poth?
    Mr. Poth. In the contract, the enhanced location services--
--
    Senator Markey. In the contract, yes, but in reality.
    Mr. Poth. Well, we--I'm very comfortable and confident that 
AT&T will be able to meet that requirement.
    Senator Markey. Are you confident, Mr. Sambar, that you 
will be able to meet that goal, 2020?
    Mr. Sambar. I am, sir.
    Senator Markey. OK. Good. Because life is 20 percent 
concept and 80 percent execution, so it's the execution part 
that we're----
    Mr. Sambar. Unfortunately, in this one, technology is the 
third leg in that----
    Senator Markey. Right, and I appreciate that.
    Mr. Sambar.--and the technology is not mature, but we are 
working hard to get it there as soon as possible.
    Senator Markey. Well, that's what we want you to do. Maybe 
you walk over to those people and just say, ``I made a promise 
that we get it done.''
    Mr. Sambar. Hurry up.
    Senator Markey. Yes, hurry up, you know. That's usually a 
good way of getting things that are in a pile--that the key 
thing is pulled out, and all of a sudden, the attention is paid 
to it. So I'd appreciate you doing that, Mr. Sambar.
    And, finally, FirstNet is supposed to establish this 
network, but, Mr. Sambar, given that states and municipalities 
already have existing public safety networks and devices, how 
will FirstNet work with and utilize existing communications 
resources to build out and deploy a national public safety 
broadband network? Can you commit to decreasing transition 
costs to the greatest extent possible?
    Mr. Sambar. Absolutely, Senator. We have had a number of 
states as well as Federal agencies that we've been in 
communication with, and some of the states have been very 
direct that they're interested in us putting our LTE equipment 
on state, city, municipal-owned assets. That would give them 
the benefit of remedy from AT&T through a lease agreement. It 
would also give us the benefit of being able to build out the 
network faster.
    So we are actively in discussions with a number of states 
as well as Federal entities to see what we can do to increase 
the speed of the buildout and share costs with the states. I 
think that's the benefit of this public-private partnership 
that we are in.
    Senator Markey. Mr. Poth, do you want to add anything?
    Mr. Poth. I think he hit it.
    Senator Markey. So you're just--synchronicity between--you 
think it will----
    Mr. Poth. Well, we're not in a honeymoon period, but no.
    Mr. Sambar. We talk a lot, so we----
    Mr. Poth. It is a, you know, significant partnership and an 
endeavor, but we're also going to make sure that AT&T meets all 
the requirements.
    Senator Markey. And I understand that. It's good that a 
couple of weeks ago, you started talking in anticipation of 
this hearing, but it would be good if you were talking in the 
next 2 weeks after the hearing, because you can be sure that 
there will be another hearing, and it's always better to start 
out where you're going to be forced to wind up anyway. So at 
that next hearing, you know, all of these things will be called 
much more closely into account so that we're sure we're on 
schedule.
    Thank you all so much.
    Thank you, Mr. Chairman.
    Senator Wicker. How do you spell synchronicity?
    [Laughter.]
    Senator Markey. It was a great song--who was that song--the 
Police? Yes, the Police. So I got the beat. I don't know if I 
have the spelling. Thank you, Mr. Chairman.
    Senator Booker. I'd like to just question for the record 
how much rhythm, indeed, the Senator from Massachusetts has?
    Senator Wicker. It is subject to question. Now, we're going 
to have order in this Committee.
    Senator Markey. With the exception of the Senator from New 
Jersey, I'm competitive with everyone else here, OK? So I----
    Senator Booker. Very low bar.
    [Laughter.]
    Senator Wicker. Senator Inhofe is recognized.

                 STATEMENT OF HON. JIM INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Mr. Chairman, I'm still waiting for the 
song.
    [Laughter.]
    Senator Inhofe. Well, first of all, so that you'll be aware 
of it, the reason that we have some late arrivals here--we 
always have committees--and I was even chairing one a few 
minutes ago so I wasn't able to get here for the first entire 
hour. And one of the problems with that is anything I'm 
thinking of to ask you, you've probably answered it at least 
twice already in this hearing.
    So bear with me in that, because I have some interest--I 
was listening to Senator Markey--and, by the way, before he 
leaves, I might observe that he and I don't always see eye to 
eye on issues, but we have one thing in common. We will be 
calling you in 2020 to make sure that it's on time, all right?
    I'm concerned about the--how it works. To me, it's very 
difficult. You've got AT&T, and then you've got the network, 
and you're dealing with states and communities and counties 
that are totally different. Now, we're a rural state. To me, 
that would pose a lot more problems, because when Senator 
Markey was talking about one thing is on the first floor and 
something else is on the second floor--well, these are all 
scattered--we don't have different floors with different 
capabilities to coordinate.
    So I'd kind of like to talk to both of you about the unique 
problems you have that I see, as someone who is not really well 
versed in this area. But I do understand my state of Oklahoma 
is a rural state, and it would be much more difficult, I would 
think, to coordinate these things. What are your thoughts about 
it, either one of you?
    Mr. Sambar. Senator, I would say that at the very core of 
what states are looking for, whether it's a state that has 
dense urban populations or spread-out rural populations--
they're looking for broadband coverage that's fast, reliable, 
and gives priority access to first responders. So at the very 
core of what we need to provide for first responders, that's 
it.
    So when we have discussions in Oklahoma versus Manhattan, 
we hear virtually the same thing, which is we need coverage 
where the first responders operate, which is everywhere. So 
that's----
    Senator Inhofe. But what if there is no coverage there?
    Mr. Sambar. So the backup to that coverage would be 
deployables. A deployable is a--I showed the picture earlier. I 
won't show it again. But it's essentially a large truck. It's a 
mobile cell tower that connects to a satellite. So any rural 
area where there is no coverage whatsoever or where a natural 
disaster has knocked down a tower, for example, we can drive 
one of these trucks into that rural area, pop up an antenna, 
and create a cell phone connection as well as a broadband 
connection for first responders where they would have priority 
access to it.
    The doctor was saying earlier a situation--he was giving an 
example of where broadband towers had been knocked down. It's a 
perfect example of where we can bring in this basically mobile 
tower.
    Senator Inhofe. How many of these do you have?
    Mr. Sambar. To date, we have a fleet of over 700 national 
disaster recovery vehicles. That is not what I just described. 
That's the number of different vehicles. We are building 72 of 
these just for the FirstNet program that will be deployed all 
across the United States to give us a defined response time, 
which FirstNet has defined in the contract, to make sure we can 
be on station very quickly.
    Senator Inhofe. Anything to add to that, Mr. Poth?
    Mr. Poth. Rural coverage has been a problem forever. Even 
in land mobile radio, the walkie-talkies, rural coverage, you 
know, is always very challenging, as you point out. Congress, 
in particular, with FirstNet, had the foresight to also make 
sure that rural coverage was a critical component of the 
FirstNet solution going forward, and that's one of the things 
that we are very focused on to try to improve.
    It is going to take, you know, years to get to a point, you 
know, to increase the rural coverage. One of the things we have 
in our agreement with AT&T is that rural coverage in every 
phase of their buildout is going to be addressed and start 
chipping away. But rural coverage, whether it's land mobile 
radios, broadband, any types of things, as you know better than 
anyone, Senator, is very, very challenging, and we hope that 
this is a first step in trying to solve some of that.
    Senator Inhofe. Well, you know, Mr. Poth, being the--
FirstNet is an independent authority within the Department of 
Commerce. When you first embarked on this, did you look for 
others as examples, things that have worked as independent 
authorities, or are you forging new areas?
    Mr. Poth. I think we're forging new areas of how we work 
effectively with the private sector. The model that we pursued 
in trying to solve, in this example, rural coverage--we went 
out to the private sector and said, ``What is the best approach 
to solve some of those problems?'' As an independent authority 
within the government, we've been very effective and looked at 
other models as to what's working.
    But the Department of Commerce, NTIA, the FCC, all those 
other components that are critical to this approach, have been 
very supportive and it has worked very effectively for us, and 
that's why I think we're glad today to be reporting that we 
are, in fact, 3 months ahead of schedule from what the original 
intent was. We do have a contract awarded. We actually have a 
contract awarded that is providing the needs to public safety 
and is financially sustainable. This independent authority is 
not going to come back to Congress and ask for additional 
funds, ever, and I think that's a significant plan that 
Congress had envisioned when they stood this authority up.
    Senator Inhofe. We don't very often around here have anyone 
ahead of schedule. I mean, generally, it's a--we ought to move 
you over into DOD. I think we can solve some problems over 
there.
    [Laughter.]
    Senator Inhofe. But I'm looking forward to--and I think 
each state represented around this table here probably believes 
that it has more natural disasters and other types of 
disasters. In our state of Oklahoma, as you well know, we have 
commonplace tornadoes, the horrible fire that took place just 2 
months ago, and so it's such a diverse array of problems that 
are out there that you guys have to figure out some way to deal 
with, and I'm glad you're doing it. I'm glad you're ahead of 
schedule. I'll be looking forward to monitoring your success.
    Senator Wicker. Dr. Darsey, Mr. Goldstein, and Mr. Brown, 
where there isn't buildout, to what extent are deployables 
going to do the trick?
    Dr. Darsey. I'll speak first from the medical perspective. 
They're great in disaster recovery. We have some deployables 
with our own land mobile radio network currently. To their 
point, rural coverage cannot be 100 percent, while I would love 
it to be. The challenge for us as operators is to know where 
the coverage is and is reliable.
    One of the biggest things we can do from a medical 
perspective is--a lot of technology has been talked about here, 
but there's a whole missing piece, and that's how to operate 
within this new technology. That's the piece that is as 
challenging as some of the technology we're discussing here--is 
how do we develop, in my world, medical protocols to balance 
what paramedics, flight nurses, flight paramedics, physicians, 
whoever is in the field, can communicate using the network.
    So, to me, I'd love to have 100 percent rural connectivity. 
But even more important is the ability to know where it is, and 
deployables are great for disaster recovery, but we need to 
know where it is and how to get it, and then, more importantly, 
how to use the technology that's there.
    Senator Wicker. So a work in progress.
    Mr. Goldstein, what about that question?
    Mr. Goldstein. Mr. Chairman, a couple of points. One, 
deployables certainly can be helpful in emergency situations, 
but the nature of an emergency situation is that you may not be 
able to get a deployable close enough. So that can be a problem 
at times. More broadly speaking, there are specific milestones 
in the contract that AT&T must meet with respect to buildout in 
rural areas, you know, over the next 25 years, and FirstNet is 
going to have to find a way to ensure the accountability of 
that buildout over time. Thirdly----
    Senator Wicker. Milestones with regard to----
    Mr. Goldstein. The amount of rural buildout that has to 
occur over the life of the contract in specifics points in 
time. My report discusses this a little bit. And, thirdly, 
there may be some difficulties with respect to this if you 
have, for instance, tribes that span multiple states, and some 
states have opted in and some states have opted out. That may 
add some confusing components to exactly how that might work.
    Senator Wicker. Mr. Brown, anything to add on that?
    Mr. Brown. Yes, Mr. Chairman. Our priority right now is 
focused on working with our rural communities and FirstNet and 
AT&T to build out the network as best as possible in the rural 
areas.
    Senator Wicker. Sure.
    Mr. Brown. But to the extent that we cannot get full 
coverage in those areas, deployable assets will definitely be 
useful in terms of emergency response as long as we can get 
some guarantees in terms of how quickly they can get there and 
make sure that they're there in time to initiate the response. 
Some of our most devastating natural disasters over time in 
Virginia have been in our rural areas, flash flooding, et 
cetera. So we definitely--this is a major priority of ours.
    Senator Wicker. Thank you.
    Senator Booker, I appreciate you indulging the Chair. So 
take an extra minute or two if you need to.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. No, sir. In fact, I'm going to try to take 
less than my 5 minutes just to bring balance to the universe.
    Gentlemen, first of all, thank you all for your hard work 
and your focus on this. As a former Mayor, I was stunned that 
when we faced--especially environmental challenges--how 
inadequate often our communications were, whether--obviously, 
Hurricane Sandy has been talked about. But we had an 
earthquake--yes, an earthquake--in New Jersey. As a guy who 
survived the 1989 earthquake in the Bay Area in California, I 
was just astonished about how my community was reacting. But as 
a mayor, I had--our communications fell, and they failed, and 
it was unacceptable should it have been a much more serious 
earthquake.
    I'm proud of my state that New Jersey is using the FirstNet 
spectrum for sort of exciting safety broadband projects, one 
overseen by Fred Scalera, as you all know, or, Mr. Poth, you 
know. He's an expert in emergency communications. The project 
is spread throughout the state and includes what is a critical 
artery of the Route 21 corridor between Camden and Atlantic 
City. It explores the use of mobile systems to be deployed in 
case of emergency, like some of the ones I discussed, when 
communications go down.
    I think that the project could be a model for the country 
and greatly contribute to how we keep our networks moving and 
running during times of crisis. It will help keep emergency 
personnel connected, which is critical, as we all know. But, 
additionally, those units, as was discussed, are mobile and 
they can be used to aid other states in the country when 
they're needed. We are really hopeful about the implications of 
this project, as has been discussed.
    So we know that these mobile units were actually deployed 
from New Jersey during the Pope's visit last September, and, 
obviously, if the Pope was visiting and these units were used, 
they are blessed units. So I just want to know what was the--
what FirstNet learned from the New Jersey project, and how does 
FirstNet envision the use of these assets as was discussed in 
the future? That's my only question.
    Mr. Poth. Thank you for the question, and you've 
highlighted one of the things that we're really excited about, 
because the state of New Jersey did forge a lot of new 
territory for us, and we got great key learning conditions from 
the use of deployables. And while we don't believe deployables 
are a band-aid or a permanent solution for rural coverage, it 
is absolutely a viable solution set, thanks to all the work 
that your state did, because you exercised those deployables 
extensively. You mentioned the Pope--all these other events.
    I distinctly remember Mr. Scalera talking about--because 
you had deployables in a Suburban. So anywhere a Suburban can 
get, whether it's rough terrain, they're able to stand up a 
network in that area, and it really gave us a lot more 
confidence, as we considered solutions and alternatives during 
the bid process, that the use of deployables was actually a 
very viable, vibrant solution set to provide coverage in those 
areas that might not exist.
    So there was great success from what they--New Jersey was 
able to do. You know, as you mentioned, they went and helped 
the Philadelphia Police Department with the Pope visit--lots of 
those. Harris County, Texas, was using that concept during the 
Superbowl. So there are a lot of key learnings that we're now 
using in our nationwide solution set.
    AT&T has already been doing this, as mentioned, for years 
with their fleet of 700 deployables, now with the 72 dedicated, 
which are much smaller units, which is going to give us the 
ability to maybe get those into areas that are a little tougher 
to get to. We're very excited about that. That is an absolute 
addition to the solution that we're going to be able to bring 
to public safety quickly.
    Senator Booker. Thank you very much.
    And I can just basically sum up everything he said, Mr. 
Chairman. I think he said that Mississippi could learn a lot 
from New Jersey. I think that was really the essence of his 
message.
    [Laughter.]
    Thank you very much, Mr. Chairman.
    Senator Wicker. And vice versa. I know that Senator Schatz 
is on his way back. But I do have a couple of extra questions.
    Mr. Sambar, on the Band Class 14 spectrum, the 20 megahertz 
spectrum provided to FirstNet to create nationwide public 
safety wireless broadband, I think the testimony is that the 
existing commercial network may be used instead. So would you 
clarify to what extent we'll have that and for how long?
    Mr. Sambar. To what extent you'll have the existing 
commercial network and for how long? Is that the question?
    Senator Wicker. Yes, sir.
    Mr. Sambar. So we will be building out Band Class 14 over 
the coming 5 years across a significant portion of our network. 
In the meantime, before Band Class 14 is built out, we will be 
using our commercial network. There are requirements in the 
contract with FirstNet over how quickly we need to build out 
Band Class 14. We have to hit those milestones in order to 
receive payments due to us from FirstNet. If we don't hit those 
milestones, we don't receive the payment. So we will be 
aggressively building out Band Class 14 for first responders.
    Again, in the meantime, they will have access to all of 
AT&T's bands. So, you know, to say it simply, if you are a 
first responder, Senator, you will not know whether you're on 
Band Class 14 or any other AT&T band, but you will have the 
exact same experience, regardless of what band you're on on 
AT&T's network.
    Senator Wicker. Your position is that the service is 
provided to the consumer and the public safety user--to them, 
it will be immaterial where it's coming from?
    Mr. Sambar. The way I like to say--exactly. The way I say 
it is this. Public safety has been told for many years that the 
magic of FirstNet happens on Band Class 14, and that's--we've 
changed that. That's not correct anymore. The magic happens on 
the AT&T network, period, and it doesn't matter where you are, 
you're going to have the exact same experience. So we've 
extended it far beyond the Band Class 14 to our entire network.
    Senator Wicker. Will you build out the class 14 spectrum 
only where it is economically viable, or will you build it out 
where there is a written requirement in the arrangement between 
you and FirstNet?
    Mr. Sambar. We are building Band Class 14 where we need the 
capacity in our network. So in order to provide priority and 
preemptive services to first responders and have enough 
capacity for everyone that's on the network, including the 
first responders, there are places where we will need 
additional capacity, and that's where we're building----
    Senator Wicker. Who will determine that need?
    Mr. Sambar. AT&T, based on capacity triggers. Obviously, 
we've been doing this for a long time--based on capacity 
triggers that we see in the network, we build out Band Class 14 
as additional capacity on individual--and this is done on a 
tower by tower basis.
    Senator Wicker. Are you able to say what approximate 
percentage of the lower 48 land mass will be covered by Band 
Class 14 buildout?
    Mr. Sambar. Unfortunately, I'm not, Senator. That's 
proprietary between FirstNet and AT&T. I would say again it's a 
significant portion, though.
    Senator Wicker. Can you be more specific than significant?
    Mr. Sambar. That would be proprietary, Senator. I 
apologize.
    Senator Wicker. And what makes it proprietary?
    Mr. Sambar. The specific details of the contract between 
FirstNet and AT&T. There's a number of specific details that 
are proprietary, Senator.
    Senator Wicker. That is proprietary and not available to 
the public.
    Mr. Sambar. That's correct, Senator.
    Senator Wicker. Or to the Congress.
    Mr. Sambar. That's correct, Senator.
    Senator Wicker. So there would be no availability of 
coverage percentage or maps for each state?
    Mr. Sambar. Oh, so--no, in that case, Senator, every state 
in the state plan portal can see exactly where their buildout 
is happening in the state, and there are multiple layers that 
they have to choose from. They can see 2G, 3G, 4G, LTE, Band 
Class 14, and they can see the buildout by year. So individual 
states can see what the buildout in their state is. Is that the 
question you're asking? I apologize. So they can see what's 
happening in their state, so they know exactly where the 
buildout is going to be over the next 5 years and where the 
Band Class 14 buildout is happening in their state.
    Senator Wicker. And I wonder, though, then in terms of this 
coverage--which you say it really shouldn't matter what band 
it's coming over--are you able to say what percentage of the 
lower 48 land mass will be covered in one way or the other?
    Mr. Sambar. One way or the other?
    Senator Wicker. Yes, apart, of course, from the 
deployables.
    Mr. Sambar. So 99.6 percent of the U.S. population will be 
covered by AT&T's network.
    Senator Wicker. But of the land mass.
    Mr. Sambar. I don't have a percentage of land mass, no, 
Senator.
    Senator Wicker. Will you be able to do that? Could you 
supply----
    Mr. Sambar. I can get that percentage for you, absolutely, 
sir.
    Senator Wicker. Thank you.
    Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman.
    Mr. Poth, the goal with this national state-of-the-art 
first responders network recognizes the need to have a national 
approach to addressing emergencies, but national is not just 
the continental United States. It means all 50 states and 
territories. I know you've done several consultations with 
General Logan and the team in Hawaii. So I just want to ask a 
simple question. What have you found that is different about 
Hawaii?
    Mr. Poth. I think there are a lot of great things that are 
different about Hawaii. I think one of the things is with the 
number of islands and how do we cover that quickly and 
appropriately. As you mentioned, you know, we've been working 
with General Logan for several years, and he's a big advocate. 
We think we have an appreciation of the challenges and 
opportunities that Hawaii has, and that's why it's critical 
with the plan that they're currently reviewing that they 
provide the feedback to us to make sure that we've captured 
that and that the state is very comfortable with our approach.
    Senator Schatz. I think that's a good answer. It's an 
adequate answer. But let me give you a couple of things I want 
you to just take back and make sure it's all covered in your 
discussions with our team in Hawaii. First of all, I think one 
of the big differences is that they want coverage over water in 
addition to land.
    Mr. Poth. Yes.
    Senator Schatz. That is a technical matter that you've got 
to address. The second issue--and this may seem small, but it's 
not. To the extent that you're doing something that is truly 
nationwide, you have to think about the sort of business 
operation of doing conference calls and the fact that there's a 
6-hour time difference, so that when you do a 9 a.m. East Coast 
conference call, there is not just an inconvenience, but a--let 
me say it this way. It demonstrates an East Coast culture, and 
that's not trivial to us. We do it. We get up at 2 o'clock and 
do the conference calls.
    But to understand this as a nationwide network and to 
understand that each state is different is also to understand 
that we all live in different parts of the planet, and I'd just 
ask you to try to accommodate that. I understand we're not the 
middle of the time zones, but there could be some accommodation 
that I'm quite sure a lot of the team in Hawaii and their 
families would appreciate, if you could make an accommodation 
in that way.
    Mr. Sambar and Mr. Poth, I know that there have been a lot 
of questions around covering rural areas, and I won't go over 
that again except to ask you to recommit or to reaffirm your 
commitment to making rural coverage a priority, and that 
includes some pretty interesting topography in Hawaii, and the 
recognition that, as we say, we're not separated by ocean, we 
are connected by ocean.
    Mr. Poth.
    Mr. Poth. Absolutely. You have our commitment that that's 
an important focus, and I appreciate your other note. I think 
that's a fair criticism, and we will certainly adjust that to 
make sure that our communications with all 56 states and 
territories are a little more accommodating.
    Senator Schatz. Thank you.
    Mr. Sambar.
    Mr. Sambar. I agree with what Mr. Poth said. You're our 
customer, not the other way around, so we should be 
accommodating you. So we apologize for that. Second, one unique 
example that I give for Hawaii is deployables and rural 
coverage. A state in the middle of the United States--if you 
put a deployable in the middle of the state, you may have a two 
to three-hour drive time and be able to reach anywhere in that 
state.
    But in Hawaii, it's different. You can't necessarily put a 
deployable on a boat and take it to the next island quickly. So 
we understand, and we'll be putting multiple deployables in 
Hawaii. We're dealing with a team there to determine how many 
that number is going to be, but we understand we need multiple 
deployables in order to meet the needs of Hawaii, specifically.
    Senator Schatz. Thank you. And this is a technical 
question, so I don't even know if, necessarily, this is a 
challenge. But how does AT&T intend to build the network so 
that Hawaii does not depend on continental United States 
infrastructure to keep the network operational? In other words, 
if there's a problem on the mainland in the middle of a natural 
disaster in the Pacific, are we still required to sort of 
bounce through some server in Tucson? How does that work?
    Mr. Sambar. Yes, Senator, I'm familiar with the issue. So 
what you're referring to is the core node, essentially, in our 
network. It resides in the continental U.S. for Hawaii's 
traffic. So Hawaii's traffic does traverse the ocean, come to 
the core node and back.
    Your team has brought this up as an issue. We recognize it 
as an issue, and we're working with them to try and figure out 
what the solution to that is going to be, whether that's 
deployables, as I mentioned earlier, or whether that's putting 
a full core node in Hawaii, or whether that's some type of a 
temporary node in Hawaii or a node that can be used in time of 
crisis. So we're working through those details with the team 
out there to make sure that we meet their needs and that 
they're satisfied with the solution we provide.
    Senator Schatz. Is that prohibitively expensive, or do you 
think you can get----
    Mr. Sambar. There's a spectrum there of expense, so 
deployables are on one side, and providing a full blown core 
node on the other side is very expensive. There is a middle 
ground in there that I think both parties are very close to 
coming to agreement on that I think will be not prohibitively 
expensive and will be satisfactory to both parties.
    Senator Schatz. Thank you. And then what about 
cybersecurity? It seems to me that if there were a cyber attack 
on critical infrastructure that they'd be looking for an 
aperture to shut down this network. How worried are you about 
that? Is your cybersecurity plan for AT&T sort of the--let me 
say it another way. Is the FirstNet cybersecurity plan just 
sort of a subset of what happens at AT&T, or is there a 
separate enterprise that deals with the possibility of an 
attack?
    Mr. Sambar. I appreciate the question. So FirstNet in the 
RFP and now the contractual obligation that we have is to treat 
this network very differently than we treat our regular core 
AT&T network. So we will be building a couple of things that 
differentiate, or a number of things, I should say.
    First of all, the devices themselves need to be screened 
and ensure that they are secure for first responders. Second, 
the applications on the devices--first responders won't go to 
the regular application stores that we all go to to get their 
applications. They'll go to a FirstNet specific application 
store, where the applications will be vetted for security and 
functionality.
    Next, the network itself that I referred to earlier as the 
core network--the traffic resides on the core network. All of 
the first responder traffic will be on a separate core network. 
That's at a cost of hundreds of millions of dollars to build 
one of those completely separate. Right now, we have one that 
operates all our wireless traffic. We're building a completely 
separate one with encryption on it, and that's not typically 
how wireless networks are built. So that will give enhanced 
security to public safety.
    And then the last piece that I would mention is the 
security operations center. So AT&T currently operates multiple 
security operations centers around the world. We are building a 
security operations center specific for this core and this 
traffic to ensure that it is monitored 24 hours a day, 7 days a 
week, 365 days a year. So there will be security professionals 
just looking at first responder traffic on the first responder 
core network.
    So we are going to great lengths to ensure that this 
network is as secure as possible, because, as you say, this 
could obviously be a target for attack and we want to make sure 
that that doesn't happen.
    Senator Schatz. Mr. Poth, do you have anything to add?
    Mr. Poth. No. Absolutely, as he mentioned, with the robust 
nature of what they're doing. Also, at FirstNet, with our 
cybersecurity experts--and we're also drawing from experts from 
DHS, NIST, and DOJ--we're making sure we're going to do 
periodic inspections and audits to make sure that it's meeting 
all the needs, because, as you point out, this is a very high-
profile network and is highly susceptible for people wanting to 
try to attack it.
    Senator Schatz. Thank you.
    Senator Wicker. Mr. Sambar, what about volunteer emergency 
service providers? I'm told that they will want to migrate 
their personal devices onto the public safety network. How is 
AT&T going to address this?
    Mr. Sambar. Yes, Senator. So the vast--as we understand and 
based on our research and FirstNet's research, the vast 
majority of firefighters, for example, are not issued devices 
for their daily use at work, especially volunteer firefighters. 
Greater than 70 percent of police officers are in the same 
situation. They are not provided a device. They're using their 
personal devices.
    We are going to make available the FirstNet network to all 
of those first responders. Regardless of whether you're a 
volunteer, whether your agency provides you a device, or 
whether you bring your own personal device, they will have 
access to the FirstNet network. Once we can verify their 
credentials and ensure that we have the right people on the 
network, they will have access to all of those features and 
benefits, and it will come at a significantly lower price than 
they're paying today for their personal or commercial service. 
So it's a tremendous benefit to all first responders.
    Senator Wicker. And then on user fees, will they cost the 
same for all network users, or will they vary by regions, 
public safety agencies, or states?
    Mr. Sambar. It's difficult to answer, because there are 
different use cases, so it depends. If you're a large 
department, and you want unlimited data, and you have a number 
of applications that you want pre-installed on the device, and 
you have mobile device management software, that would be one 
use case. There may be a rural department that wants to connect 
body cameras and dashboard video cameras from a police 
department. It will depend on the use case.
    Senator Wicker. So it's use case and not regions and 
states.
    Mr. Sambar. That's correct, sir.
    Senator Wicker. That would be the variable.
    Mr. Sambar. That's correct.
    Senator Wicker. All right.
    Senator Schatz.
    [No verbal response.]
    Senator Wicker. Gentlemen, thank you very much. Clearly, 
this is a massive undertaking, and there's much interest on the 
part of the Congress. But you've been very good to answer our 
questions.
    The hearing record will remain open for two weeks. During 
this time, senators are asked to submit any questions for the 
record. Upon receipt, can our witnesses agree that they will 
submit their written answers within three weeks of receiving 
those? Can we agree to that?
    [Nonverbal response.]
    Senator Wicker. OK. May the record reflect that all five 
witnesses agreed to do that. We do appreciate it very, very 
much.
    The hearing is now concluded with the thanks of the members 
of the Subcommittee.
    [Whereupon, at 11:40 a.m., the hearing was adjourned.]

                            A P P E N D I X

     Response to Written Questions Submitted by Hon. John Thune to 
                              Chris Sambar
    Question 1. Mr. Sambar, the American people have entrusted FirstNet 
and AT&T with a tremendous resource--20 MHz of 700 MHz spectrum. How 
does AT&T intend to make sure that first responders serving America's 
rural communities can have access to state-of-the-art communications 
technology at affordable prices?
    Answer. Rural coverage has always been a priority in the 
development of the state plans. FirstNet and AT&T worked hard to cover 
more than 99 percent of the population and, by combining our wireless 
LTE network with rural telecommunications networks, deployables and 
additional satellite technology, we will also cover more than 99 
percent of the U.S. geography. We have published FirstNet contract 
rates that are very attractive and intended to ensure that all first 
responders, regardless of size or location, can take advantage of these 
services, customized for their needs. The contract between AT&T and 
FirstNet also has device connection targets in every state, which will 
help ensure that no area is left behind.

    Question 2. Mr. Sambar, how does AT&T define rural areas? At the 
hearing you often mentioned using ``deployables'' to provide coverage 
in rural areas. What other means will AT&T use to provide coverage in 
rural areas?
    Answer. FirstNet defines ``rural'' for purposes of the Public 
Safety Spectrum Act to have the same meaning as ``rural area'' in 
section 601(b)(3) of the Rural Electrification Act of 1936, as amended. 
FirstNet and AT&T worked hard to cover more than 99 percent of the 
population and will have the ability to also cover more than 99 percent 
of the U.S. geography with AT&T's commercial LTE network, agreements 
with rural telecommunications providers, deployables and satellite 
technologies.

    Question 3. Mr. Sambar, in what ways will FirstNet bring dynamic 
new technology to the network over the duration of the contract? How 
can AT&T encourage startups and entrepreneurs to bring the latest 
technology and greatest technology to our first responders?
    Answer. FirstNet and AT&T will develop an ecosystem that will help 
modernize public safety communications. This includes: (i) an 
application development program that fosters interoperability and 
facilitates access to new public safety applications--all of which are 
reviewed via the FirstNet certification process; (ii) a dedicated 
public safety home page that provides wireless network status, local 
command and control for wireless accounts, devices, applications, and 
user groups; (iii) a robust and highly secure device ecosystem for 
FirstNet; and (v) a contractually mandated roadmap to deliver a wide 
range of next-generation public safety features, including mission 
critical push-to-talk, voice, data, messaging, and video, broadcast 
technology, and z-Axis location based services. Potential enhanced 
capabilities, such as wearable sensors and cameras for police and 
firefighters, can deliver near real-time images of events, such as 
fires, floods or crimes. Imagine camera equipped drones and robots 
delivering these images. AT&T--which stands at the forefront of IoT 
advances and Smart Cities technology--will work to identify and 
encourage cutting-edge technologies that benefit first responders.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Chris Sambar
    Question 1. Mr. Sambar, what percentage of rural areas across the 
continental United States will FirstNet and AT&T cover using deployable 
devices? What percentage of rural areas across the continental United 
States will FirstNet and AT&T cover rural network providers?
    Answer. AT&T's National Disaster Recovery (NDR) team combines 
network infrastructure and support trailers, recovery engineering 
software applications and a response team with more than 130,000 
working hours on field exercise and deployments over the last two 
decades. We will increase our fleet with 72 new deployables to support 
FirstNet. With these combined assets, we will stand ready to deploy to 
all rural areas of the country.
    Regarding AT&T's work with rural network providers, FirstNet set a 
benchmark whereby AT&T uses rural telecommunications providers to 
provide at least 15 percent of its rural coverage. AT&T is working to 
meet or exceed that benchmark. With AT&T's wireless LTE network, our 
agreements with rural telecommunications providers, deployables and 
additional satellite technology, we will cover over 99 percent of both 
the population and U.S. geography.

    Question 2. Mr. Sambar, during the July 20 hearing, it was 
suggested that ``deployables'' may be the primary answer to rural 
coverage for FirstNet. What is the specific commitment for FirstNet and 
AT&T to provide continuous coverage for public safety in rural areas? 
Please explain.
    Answer. To be clear, even without deployables, we will cover over 
99 percent of the population using our commercial LTE network combined 
with Band Class 14 and agreements with other rural telecommunications 
providers to augment network capacity. We would therefore consider this 
overall coverage as the ``primary'' means to provide rural coverage to 
first responders. That said, to reach remote rural areas, deployables, 
such as Cells on Wheels or Cells on Light Trucks, will provide an 
important enhancement to the coverage reach for FirstNet users. As 
noted in our response to Question 1, by combining our wireless LTE 
network, our agreements with the rural telecommunications providers, 
deployables and additional satellite technology, we will have the 
ability to cover over 99 percent of the U.S. geography.

    Question 3. Mr. Sambar, you testified that AT&T will provide 
``primary users'' with preemption on the FirstNet network. Who is 
considered a ``primary user'' and are medical providers considered 
primary users?
    Answer. FirstNet has defined ``primary users'' as police, fire and 
rescue personnel, as well as emergency management and 911 personnel. 
Medical providers that fall into those categories will be primary 
users. Medical providers who do not fall into those categories would be 
extended primary users. During an event, medical providers who are 
extended primary users can be ``uplifted'' to primary user status by 
the local incident commander for a designated period. Once uplifted, 
they will have priority and preemption until that time ends.

    Question 4. Mr. Sambar, please provide additional information on 
the subscription pricing plans for first responders' use of the 
FirstNet network. Have AT&T and FirstNet set pricing or user fees for 
the 25-year life of the contract? Does AT&T have discretion to change 
user fees for access to the core and for first responder usage over the 
25-year contract period?
    Answer. Our FirstNet offerings will be unlike anything currently in 
the market. Together with FirstNet, we are working to deliver to first 
responders effective and competitively priced services which first 
responders demand. While FirstNet and AT&T have not set user fees for 
the 25-year life of the contract, FirstNet structured this private/
public partnership such that AT&T must provide an effective and 
competitively priced service to first responders. We have an obligation 
to FirstNet to obtain a significant number of device connections in 
every state. If we do not provide this unique service at an affordable 
price point, first responders will not subscribe, and we will face 
significant financial penalties. We are committed to deliver this 
unique service at price points that (initially and over time) work for 
all first responders. We will work with each public safety entity to 
provide the combination of pricing, features and overall value 
necessary to earn their business.

    Question 5. Mr. Sambar, can you provide the Committee AT&T's plan 
for the buildout of Band Class 14, state-by-state, showing how much of 
each state's land mass will be covered by a dedicated first responder 
radio access network in Band Class 14 and when?
    Answer. Each state or territory has received this information along 
with its state plan and may access it, on a confidential basis, via the 
state portal. The detailed FirstNet buildout and coverage information 
provided to the states is confidential, for both security and 
competitive reasons. For network security purposes, it is important 
that AT&T's network and the FirstNet build plans are kept confidential 
and not publicly available to those seeking to harm the network, which 
will be relied upon by our first responders in times of emergency. We 
would be happy to further discuss this question with your office in a 
private setting.
    Of course, focusing on Band Class 14 would not capture AT&T's 
commitment to open all of its commercial spectrum bands to FirstNet. 
Because of this commitment, FirstNet users will have immediate access 
to AT&T's nationwide, commercial LTE network and will benefit 
tremendously from prioritization. Primary users also will benefit from 
preemption, which AT&T anticipates will be available later this year. 
AT&T will use Band Class 14 to supplement coverage where needed and 
will thus increase overall coverage.
    That said, we expect to deploy a significant percentage of Band 
Class 14 over the next five years and the vast majority over the 25-
year length of our contract with FirstNet. Moreover, if AT&T is tasked 
to build all 56 RANS in the states and territories, we estimate that by 
combining our commercial LTE network with rural telecommunications 
networks, deployables and additional satellite technology, we will 
cover over 99 percent of both the U.S. population and its geography.

    Question 6. Mr. Sambar, if local public safety agencies now have 
cellular service from a provider other than AT&T, can they keep that 
provider or must they drop their current provider and replace it with 
AT&T in order to access a radio access network built by AT&T?
    Answer. Agencies will need to subscribe to AT&T FirstNet service to 
have access to AT&T's FirstNet network services, which are supported by 
the nationwide core that we are building for FirstNet traffic, as well 
as the radio access networks that we will build in each of the 56 
states and territories that opt-in.

    Question 7. Mr. Sambar, AT&T and FirstNet have entered into a 25-
year agreement, and explained that states should rely on FirstNet to 
protect the states' interests. How many former FirstNet employees are 
now employed by, or consult for, AT&T? How many SPOC's (single point of 
contact) or other state employees involved in this process are now 
employed by, or consult for, AT&T? Do you believe that this is a 
conflict of interest?
    Answer. AT&T has not hired any former employees of the First 
Responder Network Authority. In July of this year, we hired Harlin 
McEwen as a consultant. Mr. McEwen previously served as chairman of 
FirstNet's Public Safety Advisory Committee (PSAC). He served in that 
role as a volunteer. Mr. McEwen's position on the PSAC did not involve 
FirstNet's vendor selection process and his work for AT&T does not 
violate any applicable conflicts of interest rules. AT&T continues to 
bolster its public safety expertise. We have hired one former state 
point of contact and another individual that previously worked in a 
state office of Homeland Security. These individuals were unemployed at 
the time of their hiring by AT&T. AT&T remains committed to identifying 
and managing any potential or actual conflicts of interest that may 
arise with any of the employees on AT&T's FirstNet team.

    Question 8. Mr. Sambar, do you believe that employment at AT&T be 
prohibited, or delayed, for former FirstNet employees? Should 
employment at FirstNet be prohibited, or delayed, for former state 
employees?
    Answer. AT&T will comply with all applicable Federal or state 
statutes or rules, as well as any obligations in the contract between 
FirstNet and AT&T, concerning employment of former FirstNet or state 
employees. There are safeguards in place to address organizational 
conflicts of interest and we intend to abide by them.

    Question 9. Mr. Sambar, does AT&T have the ability to terminate its 
contractual agreement with FirstNet? If yes, under what circumstances 
can AT&T terminate its contractual agreement with FirstNet?
    Answer. No.

    Question 10. Mr. Sambar, AT&T says it expects to spend $40 billion 
over the life of the contract. Please breakdown these expected costs 
between cash and in-kind expenses.
    Answer. AT&T expects to spend about $40 billion over the life of 
the contract on items such as buildout of the public safety network, 
operation of that network, equipment, marketing, sales, support, etc. 
There are many variables that affect how and where that spend will 
occur over the next 25 years, including completion of the opt-in 
process. AT&T is committed to bringing to bear all the necessary 
resources to successfully deliver the FirstNet services to first 
responders, just as Congress envisioned it.

    Question 11. Mr. Sambar, how much will AT&T spend in cash during 
the contract's first five years?
    Answer. Again, AT&T expects to spend about $40 billion over the 
life of the contract on items such as buildout of the public safety 
network, operation of that network, equipment, marketing, sales, 
support, etc. There are many variables that affect how and where that 
spend will occur over the next 5 years, including completion of the 
opt-in process. AT&T is committed to bringing to bear all the necessary 
resources to successfully deliver the FirstNet services to first 
responders, just as Congress envisioned it.

    Question 12. Mr. Sambar, how much of AT&T's $40 billion investment 
is projected to come from payments from states for using the core or 
from first responders for using the network?
    Answer. There are no payments from opt-in states to AT&T for using 
the FirstNet core. First responders pay service fees to AT&T for the 
service and we have established rates that are aggressively priced. 
AT&T's commitment to spend $40 billion over the life of the contract is 
not tied to any source of FirstNet-related revenue.

    Question 13. Mr. Sambar, what value does AT&T believe the Band 
Class 14 spectrum would be worth in a private market transaction?
    Answer. I have not done an analysis to answer your question. I am 
focused on delivering on our FirstNet commitments.

    Question 14. Mr. Sambar, AT&T has said, ``If we build it, the 
states will come.'' What happens if they do not come? How many states 
(and what percentage of the population) could opt-out before FirstNet 
is no longer viable for AT&T?
    Answer. Right now, we are focused on getting as many states and 
territories as possible to opt in. AT&T is committed to demonstrating 
to states the value of the its solution and the resources that AT&T 
will use to deliver a superior solution for first responders. We have a 
great value proposition for the states and are looking forward to their 
decisions. Our approach to FirstNet is designed for states and for 
first responders, alleviating long-term risks associated with funding, 
building and maintaining a network for 25 years that interoperates with 
the FirstNet network. FirstNet and AT&T will work with states to help 
them get the network they are looking for--and which Congress 
envisioned--all without the financial and operational burdens of going 
it alone. We have had great success so far, with 19 states already 
already announcing their opt in as of August 31, 2017. We will continue 
these efforts.

    Question 15. Mr. Sambar, do wireless signals propagate the same way 
on all AT&T's bands? How might Band Class 14 differ? Are there specific 
qualities regarding Band Class 14 that make it optimal for a First 
Responders' network? Please explain.
    Answer. AT&T will rely on its other spectrum bands, including its 
near-nationwide 700 MHz spectrum, cellular (850 MHz), PCS, AWS-1 and 
AWS-3 and WCS to optimize coverage, capacity and FirstNet users' 
experience. Different spectrum bands have different characteristics 
that can make them relatively more or less optimal for a particular 
provider in a particular location. For example, spectrum below 1 GHz, 
such as Band Class 14 spectrum, may have some advantages for network 
deployment over long distances given its propagation characteristics. 
At the same time, those same characteristics can cause greater inter-
cell interference as cell size decreases. For this reason, higher band 
spectrum can be superior to low band spectrum for network 
densification. First responders will benefit from AT&T's plan to use a 
variety of bands to best meet their needs, not just Band Class 14. All 
of AT&T's spectrum bands are suitable to provide mobile wireless 
services, and all of them have the propagation characteristics suitable 
for providing such service. Band Class 14 is no different in that 
respect.

    Question 16. Mr. Sambar, during the hearing, AT&T expressed its 
desire to buildout Band Class14 ``when capacity calls for it.'' Does 
that mean only more populated areas will have Band Class 14 built out? 
Please explain.
    Answer. No. We plan to deploy Band Class 14 nationwide, on over 
40,000 sites, including in many rural areas. In some of these rural 
areas, AT&T's existing spectrum is at or near capacity. For example, 
when North Dakota experienced its natural gas boom, our network was 
pushed to capacity in rural areas of the state. But AT&T also will 
deploy Band Class 14 on new sites to cover rural areas that are today 
unserved or underserved, in addition to deploying Band Class 14 on most 
of our existing sites. As we noted in response to Question 15, AT&T 
also will rely on its other spectrum bands, including 700 MHz, cellular 
(850 MHz), PCS, AWS-1 and AWS-3 and WCS to optimize coverage, capacity 
and FirstNet users' experience.

    Question 17. Mr. Sambar, it was stated by AT&T and FirstNet that 
location based technology to solve the Z-axis (vertical) challenge 
would be delivered by 2020. This is a top priority for firefighters. 
Please provide a specific timelines for IOC and FOC of this capability.
    Answer. AT&T has contractually committed to delivering z-Axis 
enhanced location services as part of the FirstNet network prior to 
FOC. Location accuracy enhancements, including z-axis, will follow 
commercial availability. We are evaluating solutions as they become 
available to determine if they meet the rigorous needs of first 
responders. To date, they do not.

    Question 18. Mr. Sambar, FirstNet and AT&T have indicated that 
their ``pricing'' will be competitive. With the potential to monetize 
Band 14 though shared usage, do you expect revenue to be sufficient to 
offer free services to first responders?
    Answer. We have published contract rates in the state plans that 
are attractive for public safety entities. And we intend to 
aggressively price our services for first responders. If we do not 
provide this unique service at an affordable price point, first 
responders will not subscribe and we will face significant financial 
penalties under our contract with FirstNet--which includes device 
connection commitments in every state.
    While there are benefits to AT&T in the form of spectrum, those 
benefits come with significant and important obligations that we must 
and will fulfill over the next 25 years--to the benefit of public 
safety. The spectrum is provided for the primary purpose of building 
and supporting the FirstNet network--again, to the benefit of the 
public safety community.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                              Chris Sambar
    Question 1. What percentage of Missouri will be covered by Band 14 
when AT&T's FirstNet build-out is complete?
    Answer. Each state or territory has received this information along 
with its state plan and may access it, on a confidential basis, via the 
state portal. The detailed FirstNet buildout and coverage information 
provided to the states is confidential, for both security and 
competitive reasons. For network security purposes, it is important 
that AT&T's network and the FirstNet build plans are kept confidential 
and not publicly available to those seeking to harm the network, which 
will be used by first responders in times of emergency. We would be 
happy to further discuss this question with your office in a private 
setting.
    Of course, focusing on Band Class 14 would not capture AT&T's 
commitment to open all of its commercial LTE spectrum bands to 
FirstNet. Because of this commitment, FirstNet users will have 
immediate access to AT&T's nationwide, commercial LTE network and will 
benefit tremendously from prioritization. Primary users also will 
benefit from preemption, which AT&T anticipates will be available later 
this year. AT&T will use Band Class 14 to supplement coverage where 
needed and will thus increase overall coverage.
    That said, we expect to deploy a significant percent of Band 14 
over the next five years and the vast majority over the 25-year length 
of our contract with FirstNet. Moreover, if AT&T is tasked to build all 
56 RANS in the states and territories, we estimate that by combining 
our wireless LTE network with rural telecommunications networks, 
deployables and additional satellite technology, we will cover over 99 
percent of both the U.S. population and its geography.

    Question 2. To the extent that AT&T's final state plan will not 
include Band 14 coverage for parts of rural Missouri, does AT&T think 
that its non-Band 14 networks are sufficient to meet the needs of first 
responders in rural Missouri?
    Answer. Absolutely. First responders will benefit from AT&T's plan 
to use a variety of bands to best meet their needs, not just Band Class 
14. In addition to Band 14, AT&T will rely on its other spectrum bands, 
including its near-nationwide 700 MHz spectrum, cellular (850 MHz), 
PCS, AWS-1 and AWS-3 and WCS to optimize coverage, capacity and 
FirstNet users' experience. FirstNet and AT&T worked very closely with 
states on the state plans to address each states' coverage concerns and 
priorities--and we will continue to do so as these plans are finalized.

    Question 3. In light of the value of the bandwidth given to AT&T 
through FirstNet, what is AT&T doing to ensure that its FirstNet 
offerings are affordable, particularly to smaller law enforcement 
departments and volunteer emergency services personnel, who are often 
the first to respond to natural disasters?
    Answer. We have published contract rates in the state plans that 
are attractive for public safety entities. And we intend to 
aggressively price our services for first responders, no matter their 
size or location. If we do not provide this unique service at an 
affordable price point, first responders will not subscribe and we will 
face significant financial penalties under our contract with FirstNet--
which includes device connection commitments in every state. We have 
every incentive to ensure that no area is left behind.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Chris Sambar
    Question 1. States have returned State and Local Implementation 
Grant Program (SLIGP) funding based upon a commitment from the National 
Telecommunications and Information Administration that SLIGP funding 
would be distributed in 2018 following an extension of that grant 
program. What actions is FirstNet taking to ensure that SLIGP funding 
is provided to states in 2018?
    Answer. AT&T refers to FirstNet's response.

    Question 2. Rural coverage is a high priority. Will AT&T and 
FirstNet consult with states on the placement of towers and antennas 
impacting rural coverage?
    Answer. Yes, we have and will continue to consult with states on 
facility placement to increase rural coverage. We agree that rural 
coverage is a priority for FirstNet and first responders- whether 
urban, suburban, or rural. AT&T is committed to continued consultation 
with the states to meet this goal. The statute itself required FirstNet 
to consult with states regarding distribution and expenditure of 
amounts used on the placement of towers. The state plans, which have 
been delivered via the state plan portal to the states, included this 
information. States can enter comments or can submit questions on any 
topic, including impact to rural coverage. FirstNet and AT&T will 
continue to consult with the states in this regard going forward.

    Question 3. It is hoped and desired that AT&T and FirstNet will 
thoroughly explore state tower assets for co-location of multi-band 
transmitters to expand beyond the initial plan's current coverage 
proposal. What actions will AT&T and FirstNet take to consider 
opportunities to leverage state tower assets?
    Answer. AT&T is committed to working with states to provide 
superior coverage for first responders. In engaging with states, we 
will consider state infrastructure for use should it meet network 
deployment needs and requirements.

    Question 4. As volunteer first responders are a large percentage of 
the public safety community, when will AT&T and FirstNet have the 
individual sign-up process for public safety volunteers developed and 
when will it be shared with the states?
    Answer. AT&T is working on developing the subscriber-paid (or 
volunteer) offer and anticipates that details will be available at the 
end of this year.

    Question 5. ``Local Control'' has been described as a breakthrough 
capability for public safety communications and a FirstNet feature. How 
will extended primary users such as volunteer firefighters be 
``uplifted'' as primary users when required? How will multiple 
jurisdictions converging upon a single event be prioritized for access 
to broadband capacity?
    Answer. During an emergency event, extended primary users can be 
``uplifted'' by the local incident commander to primary user status for 
a designated period. Once uplifted, they will have priority and 
preemption until this time ends. When multiple jurisdictions converge 
on a single event, public safety will use the incident management tool 
to uplift select extended primary users from multiple jurisdictions to 
primary user status to provide critical first responders with priority 
and preemption for a specified time.

    Question 6. The Committee intends to remain engaged with state 
governments on FirstNet matters, maintaining awareness of states' 
experiences with FirstNet and AT&T as the construction of the 
Nationwide Public Safety Dedicated Broadband Network occurs. What 
actions will AT&T and FirstNet be taking to remain engaged with state 
governments?
    Answer. The law that established FirstNet requires it to consult 
with Federal, State, tribal, and local public safety entities to ensure 
that the FirstNet network is designed to meet the needs of public 
safety across the country. AT&T and FirstNet are dedicated to continued 
consultation with the states as we begin to deploy the FirstNet network 
and offer first responder services over that network. In other words, 
we intend to do what we have been doing, i.e., sharing information, 
responding to questions, and holding group and one-on-one meetings with 
stakeholders. We expect this consultation will continue to be a 
collaborative process, involving key stakeholders and leadership from 
each state and territory, and will incorporate enhancements and 
improvements as we move forward.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Chris Sambar
    Question 1. Rural areas throughout our country and in my home state 
of Michigan, particularly Northern Michigan and the Upper Peninsula, 
face major challenges when it comes to broadband infrastructure and 
access. In these places, it is also critical that first responders can 
communicate immediately and without interruption, especially since 
public safety officers have to cover large areas and travel long 
distances. I know that as Michigan reviews the draft state deployment 
plan AT&T and FirstNet provided in June 2017, once of its biggest 
concerns is maintaining adequate and cost-effective public safety 
communications in rural areas. In developing your draft state 
deployment plans, what measures did you take to specifically examine 
the needs of rural public safety agencies and ensure that sufficient 
network capacity would be available to them? How are you planning to 
further engage with rural public safety agencies as you draft final 
plans? Will you be able to provide them with information about how 
much, and what type, of coverage they would have?
    Answer. First, I am honored to report that since the July 20th 
hearing, Michigan has announced its decision to ``opt in'' to FirstNet. 
I and others from AT&T and FirstNet have had multiple meetings with 
Michigan officials to answer their questions, many of which focused on 
coverage for rural first responders. I am pleased that these efforts 
met Michigan's rural coverage needs. FirstNet and AT&T remain committed 
to working with Michigan and all opt-in states regarding their ongoing 
needs.
    I can assure you that rural coverage has always been a priority in 
the development of the state plans. FirstNet and AT&T worked hard to 
cover more than 99 percent of the population and will also have the 
ability to cover more than 99 percent of the U.S. geography with AT&T's 
commercial LTE network, our agreements with rural telecommunications 
providers, deployables and satellite connectivity. The state plans 
provide states specific details as to the amount and types of coverage, 
by both population and geography, as well as coverage maps with layers 
demonstrating the five-phase roll out of rural coverage, as mandated by 
Congress. The coverage maps also show when and which areas of the state 
will be covered and by what technology. We are also updating these maps 
and layers based on discussions with states. AT&T is committed to 
working with states to provide the information they need to make 
informed opt-in/opt-out decisions. FirstNet and AT&T worked very 
closely with states on the state plans and to address each state's 
concerns and priorities. We will continue to do so.
    I am also proud that AT&T will support FirstNet with its world-
class National Disaster Recovery (NDR) team, which combines network 
infrastructure, trailers, recovery engineering software applications 
and a response team with both full and volunteer members from AT&T. We 
will increase this fleet with 72 new deployables to support FirstNet. 
These assets can be deployed to rural and remote areas (such as in the 
recent case of the California wildfires and Hurricane Harvey) to 
support first responders wherever they may be called into service.

    Question 2. Cybersecurity is one of the foremost concerns of public 
safety networks, and I know that AT&T and FirstNet are working to 
ensure the highest possible cybersecurity standards while also keeping 
the network cost-effective for public safety agencies. Can you describe 
further how you are balancing the demands of adequate cybersecurity 
with cost effectiveness, and how you have involved stakeholders in this 
process? How have you and NTIA coordinated with Federal agencies on 
cybersecurity best practices, given that this nationwide network will 
be a key homeland security asset?
    Answer. We take the threat of cyber-attacks seriously and we plan 
to provide first responders a reliable, highly-secure network, 
encrypted at its core. Security is embedded in everything we do and 
managing a highly-secure network is not new to us. FirstNet will 
benefit from AT&T's expertise in detecting and addressing cyber 
threats, at no additional charge. We secure more connections than any 
carrier in North America. AT&T has 8 world-class Global Security 
Operations Centers, where our security experts analyze the traffic on 
our network 24/7/365 to understand and identify emerging threats. With 
more than 168 petabytes of data crossing our network every day, our 
experts have unique insight into the threat landscape that helps them 
detect new threats, often before they become a problem. We will have 
one such center dedicated to FirstNet. In terms of ``best practices,'' 
AT&T's cybersecurity program has been benchmarked against the NIST 
Cybersecurity Framework. We have developed a multi-layered approach to 
help secure devices and the network. Finally, our use of software-
defined networks (SDN) also allows us to virtualize our security 
functions, letting us automatically update security instead of relying 
on manual updates.
    AT&T refers to FirstNet's response on coordination with NTIA and 
other Federal agencies on cybersecurity best practices.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Chris Sambar
    Question 1. Mr. Sambar, as you know, on March 8, 2017 AT&T's 911 
service went down for about five hours, resulting in about 12,000 
unique callers from several states not being able to reach 911, 
including in Las Vegas. During the outage, many emergency calls were 
dropped. Can you confirm what caused that issue? What you've done to 
remedy it? And can you provide us reliable assurance that kind of 
situation won't happen again, or with a future national network?
    Answer. We take our support of public safety communications 
seriously and take this opportunity to again apologize to every 
community affected by that outage. We've done an extensive evaluation 
and concluded the problem was caused by a system configuration change 
affecting connectivity between a 911 vendor and our network. The FCC 
conducted an independent investigation and described the root causes in 
their report.\1\ We've taken steps to prevent this from happening 
again. The FCC described our major preventative steps in its report and 
concluded that the voluntary changes made by AT&T will help prevent a 
recurrence of a similar outage and may help with future outage 
detection and remediation.\2\
---------------------------------------------------------------------------
    \1\ https://www.fcc.gov/document/final-report-march-8-2017-att-
mobility-volte-911-outage at  10-14.
    \2\ Id. at  25-29.
---------------------------------------------------------------------------
    When an outage happens, what is most important is the speed of 
recovery in response to an incident and, as you note, making changes to 
prevent similar outages in the future. Our response to this outage and 
the remedial action we took are illustrative of our approach to 
continuously improve our capabilities based on key learnings.

    Question 2. While I appreciate the principle that FirstNet will be 
financially sustainable, what assurances do we have that the assessment 
of fees on public safety will be reasonable and continue to be 
reasonable, considering some of the budgets state and local communities 
are currently wrestling with? The same goes for the potential of usage 
of the spectrum to expand or improve rural wireless services. Can we be 
assured that there won't be continued high costs for our rural 
constituents who may appreciate the access, but not the cost of this 
service?
    Answer. Yes. We have published FirstNet contract rates that are 
very attractive for entities of all sizes and that are intended to 
ensure that all first responders, regardless of size or location, can 
take advantage of these services customized for their needs. The 
contract between AT&T and FirstNet also has device connection targets 
in every state, which will help ensure that no one is left behind.
    Your second question recognizes that the FirstNet buildout will 
benefit customers in rural America, as our coverage expands. When not 
needed by public safety, AT&T will use surplus capacity to serve 
commercial traffic, which will improve service and coverage for all our 
wireless users.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                              Michael Poth
    Question. Mr. Poth, how do you intend to work with small, rural 
providers to ensure efficient and effective network coverage in rural 
and remote areas?
    Answer. FirstNet recognizes the importance of having reliable 
network coverage in rural and remote areas, and takes very seriously 
the rural coverage requirements under its enabling legislation, 
including substantial rural milestones as part of each phase of network 
deployment. FirstNet's commitment to rural implementation was reflected 
in FirstNet's request for proposals (RFP). To ensure proposals included 
small and rural partnerships, the FirstNet RFP stated ``the Offeror's 
solution must demonstrate intent to exercise rural telecommunications 
provider partnerships for at least 15 percent of the total persistent 
rural coverage nationwide.'' AT&T's winning proposal met the rural 
partnership threshold, and they are partnering with small and rural 
providers across the country. Additionally, AT&T maintains the ability 
to expand and continue to partner with small and rural providers to 
extend coverage to rural parts of the country through the life of the 
25-year contract.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Michael Poth
    Question 1. Mr. Poth, what percentage of rural areas across the 
continental United States will FirstNet and AT&T cover using deployable 
devices? What percentage of rural areas across the continental United 
States will FirstNet and AT&T cover rural network providers?
    Answer. FirstNet's wireless coverage will reach more than 99 
percent of the rural population and, by combining their wireless 
network with rural telecommunications networks, deployables and 
additional satellite technology, AT&T will cover nearly 100 percent of 
the U.S. geography. AT&T is taking advantage of existing contractual 
relationships with more than 60 rural telecommunication providers with 
wireless infrastructure and fiber backhaul to deliver the coverage 
specified by FirstNet. Over the 25 year contract, FirstNet and AT&T 
will look to continually expand that coverage footprint. Additionally, 
AT&T will be using deployable units, such as cells on wheels (COWs) and 
Cells on Light Trucks (COLTs), to add coverage in remote areas across 
the country in times of emergency.

    Question 2. Mr. Poth, during the July 20 hearing, it was suggested 
that ``deployables'' may be the primary answer to rural coverage for 
FirstNet, but may only be available in the case of a major incident, 
not for the day-to-day needs of public safety in rural areas. What is 
the specific commitment for FirstNet and AT&T to provide continuous 
coverage for public safety in rural areas? Please explain.
    Answer. FirstNet's deployable strategy is an important part of 
providing service where terrestrial service may be unavailable, whether 
it be a lack of coverage or network restoration. Deployables will not 
be the only solution in delivering rural coverage. FirstNet and AT&T 
will work with public safety to identify rural areas that are in need 
of permanent (``continuous'') coverage to determine how those needs may 
best be met as part of our ongoing network expansion process.

    Question 3. Mr. Poth, if the contractual relationship is between 
AT&T and FirstNet and not between AT&T and the states, how can 
governors (and their successors for the next 25 years) ensure that the 
commitments made in the FirstNet and AT&T state plan are enforced?
    Answer. While the contractual relationship is between AT&T and 
FirstNet, FirstNet has and will continue to ensure that there are 
robust oversight mechanisms to ensure AT&T executes on the state plans 
as they have been presented.
    Strict internal and external oversight of the AT&T and FirstNet 
partnership are and will continue to be critical to FirstNet's success. 
AT&T and FirstNet stand by our commitment to the states as we have 
presented in the state plans across the country. As states opt-in to 
the AT&T and FirstNet solution, the partnership is committed to 
executing on that plan, and our reputation stands on it.
    The public safety communications market itself also drives the need 
for AT&T and FirstNet to execute. The State and local public safety 
users have the ultimate market-driven tool to ensure their needs are 
being met: the ability to walk away and switch to another service. 
FirstNet intends to work directly with state and local public safety 
entities to meet their needs of expanded coverage and capacity, feature 
and device upgrades, etc. as they arise. In order to sustain the 
network, FirstNet and its partner must listen to and adapt to public 
safety's changing situational awareness and operational needs over the 
next 25+ years.
    Additionally, when the National Public Safety Broadband Network 
(NPSBN) contract task order that will initiate the buildout of the 
state radio access networks (RANs) is executed, the task order will 
contain quality assurance surveillance items that will allow FirstNet 
to track key performance indicators (KPIs). These KPI's will measure 
and monitor the performance of the NPSBN contractor throughout the life 
of the contract. Along with the acceptance criteria of key state RAN 
deliverables and built in contract disincentives (if the contractor 
does not perform), these measures will give the government and the 
states the assurance that the NPSBN contractor is performing the due 
diligence required to maximize cost efficiency and safe network access; 
and ensure overall program success. Moreover, both programmatic and 
contractual processes have been put in place to assist in the 
monitoring and oversight required, including but not limited to a 
FirstNet network governance model, contract administration plan, change 
and configuration management processes, and a FirstNet network Concept 
of Operations plan.

    Question 4. Mr. Poth, please provide additional information on the 
subscription pricing plans for first responders' use of the FirstNet 
network. Have AT&T and FirstNet set pricing or user fees for the 25-
year life of the contract? Does AT&T have discretion to change user 
fees for access to the core and for first responder usage over the 25-
year contract period?
    Answer. AT&T and FirstNet have not set user fees for the 25-year 
life of the contract. FirstNet/AT&T service rates will be competitively 
priced with the current public safety communications marketplace. The 
rates that AT&T charges for the FirstNet service will be governed by 
contracts between the company and its public safety customers and 
agencies. These contracts will stipulate how much AT&T can charge 
throughout the contract term. In addition, such contracts do not 
include termination liability, so a customer or agency could terminate 
its relationship with AT&T and FirstNet at any time.
    Finally, the agreement between AT&T and the FirstNet Authority 
requires AT&T to meet ongoing targets to incentivize public safety 
adoption of the service. There are severe financial penalties for 
failing to meet such targets. Therefore, this will act as another 
mechanism to keep AT&T's prices competitive.
    Any fees for access to and use of the FirstNet core network by an 
opt-out state will be included in the Spectrum Manager Lease Agreement 
(SMLA) between FirstNet and such opt-out state.

    Question 5. Mr. Poth, is the state-by-state build-out plan for Band 
Class 14 included in the AT&T and FirstNet contract? What are the 
penalties if AT&T does not buildout the Band Class 14 network targets 
on time?
    Answer. The NPSBN contract scope does include the state-by-state 
radio access network (RAN) build-out of Band 14. Most of that work will 
be accomplished through a future NPSBN contract task order (State RAN).
    The NPSBN contract contains very specific consequences if AT&T 
fails to meet its obligations (including delayed payments and 
penalties). The specific details of the various contractual penalties 
are considered source selection sensitive and cannot be disclosed.

    Question 6. Mr. Poth, the term ``Public Safety Grade'' was 
discussed at the hearing.

  a.  Are you familiar with that term? If so, please explain what it 
        means. If not, should Congress help define this?

  b.  Will FirstNet and AT&T use the National Public Safety 
        Telecommunications Council's standards for the public safety 
        network?

  c.  Did the FirstNet RFP bind the winning vendor to building a 
        network to National Public Safety Telecommunications Council 
        standards?

  d.  Are public safety grade standards defined in the contract between 
        FirstNet and AT&T and, if not, will they be added to the 
        contract and how? Please explain.

    Answer. FirstNet is familiar with the term ``Public Safety Grade'' 
and reviewed, among other resources, the National Public Safety 
Telecommunications Council (NPSTC) report titled ``Defining Public 
Safety Grade Systems and Facilities'' published in May 2014. In fact, 
many topics addressed in the NPSTC report were reflected in FirstNet's 
request for proposals (RFP), including hardening, resilient 
connections, backup power, weatherization, and other issues specific to 
public safety's needs.
    Delivering a public safety grade system results in a highly 
available network for public safety, ensuring the services and tools 
they need are available when they need it. Given this critical 
importance, user service availability (99.99 percent) was one of the 
core 16 objectives that were the foundation of the FirstNet RFP. 
FirstNet ensured that all the objectives of the RFP were met, including 
user service availability, which are reflected in the contract between 
FirstNet and AT&T.

    Question 7. Mr. Poth, how many SPOC's (single points of contact) or 
other state employees involved in this process are now employed by, or 
consult for, FirstNet? If there are any, do you believe that this is a 
conflict of interest?
    Answer. FirstNet currently employs 10 former Single Points of 
Contact (SPOCs) or state employees involved in FirstNet efforts and 
utilizes two such consultants.
    Pursuant to applicable Federal law, the employment by FirstNet of 
former state SPOCs or other state employees involved in FirstNet 
matters does not, by itself, create a conflict of interest. Under the 
Standards of Ethical Conduct for Employees of the Executive Branch, a 
Federal employee may not work on a matter in which a former employer in 
the past year is a party or represents a party if a reasonable person 
with knowledge of all facts would question the employee's impartiality 
in the matter. 5 C.F.R. Sec. 2635.502(a), (b)(iv). Despite this 
prohibition, the regulations permit an employee's participation if the 
agency, after weighing several factors enumerated in the regulations, 
makes a determination that the Government's interest in the employee's 
participation outweighs the concern that a reasonable person may 
question the integrity of agency programs. 5 C.F.R. Sec. 2635.502(d).
    Pursuant to this rule, during the one-year period after leaving his 
or her position as a SPOC or other state government position, a 
FirstNet employee would be prohibited from working on any matter in 
which the state is or represents a party. If, however, after 
considering the factors set forth in the regulations and consulting 
with the Office of the General Counsel for the Department of Commerce, 
the employee's supervisor makes a determination that the Government's 
interest in the former SPOC's/state employee's participation in a 
matter involving the state outweighs the concern that a reasonable 
person may question the integrity of agency programs, the employee may 
be authorized to work on such matters.
    Insofar as FirstNet uses former SPOCs or other state employees in a 
non-employee consulting capacity, such a relationship does not create a 
conflict of interest for FirstNet under applicable Federal laws. 
FirstNet is not authorized to comment as to whether such a relationship 
would create a conflict for the former SPOC or other state government 
employee in his/her individual capacity as a former state employee.

  a.  Mr. Poth, do you believe that employment at AT&T be prohibited, 
        or delayed, for former FirstNet employees?

  b.  Should employment at FirstNet be prohibited, or delayed, for 
        former state employees?

    Answer a. While there is no authority that imposes a blanket 
prohibition or delay on the employment with AT&T by former FirstNet 
employees, applicable Federal law does impose some restrictions on such 
employment. Specifically, under the Procurement Integrity Act, a former 
FirstNet employee may not accept compensation from AT&T as an employee, 
officer, director, or consultant of AT&T within one year after the 
employee (with regard to the AT&T contract):

  <bullet> served as the procuring contracting officer,

  <bullet> served as the source selection authority,

  <bullet> served as a member of a source selection evaluation board,

  <bullet> served as the chief of a financial or technical evaluation 
        team

  <bullet> served as the program manager, deputy program manager, or 
        administrative contracting officer, OR

  <bullet> personally made any decisions on behalf of FirstNet to

    <ctr-circle> award a contract, subcontract, modification, or a task 
            order or delivery order in excess of $10 million to AT&T;

    <ctr-circle> establish overhead or other rates applicable to the 
            AT&T contract;

    <ctr-circle> approve a contract payment or claim over $10 million; 
            or

    <ctr-circle> pay or settle a claim over $10 million.

    41 U.S.C. Sec. 2104. Additionally, pursuant to 18 U.S.C. 
Sec. 207(a)(1), a former FirstNet employee is prohibited from 
contacting a Federal agency or Federal court on behalf of any other 
person regarding the AT&T contract if the employee worked on that 
contract while employed by FirstNet. Further, a former FirstNet 
employee is barred for two years after leaving Federal service from 
contacting any Federal agency or Federal court regarding any AT&T 
contract-related matter that was under his or her supervision during 
the employee's last year of employment. 18 U.S.C. Sec. 207(a)(1). 
Finally, any former ``senior'' FirstNet employee (meaning an employee 
that earned more than $161,755 in base pay) is subject to an additional 
restriction that prohibits the employee from contacting NTIA (including 
FirstNet) on behalf of anyone else for one year after the termination 
of his or her Federal employment.

    Answer b. While there is no authority that imposes a blanket 
prohibition or delay on the employment with FirstNet by former state 
employees, applicable Federal law does impose some restrictions on such 
employment. Under the Standards of Ethical Conduct for Employees of the 
Executive Branch, a Federal employee may not work on a matter in which 
a former employer in the past year is a party or represents a party if 
a reasonable person with knowledge of all facts would question the 
employee's impartiality in the matter. 5 C.F.R. Sec. 2635.502(a), 
(b)(iv). Despite this prohibition, the regulations permit an employee's 
participation if the agency, after weighing several factors enumerated 
in the regulations, makes a determination that the Government's 
interest in the employee's participation outweighs the concern that a 
reasonable person may question the integrity of agency programs. 5 
C.F.R. Sec. 2635.502(d).
    Pursuant to this rule, during the one-year period after leaving his 
or her position with the state, a FirstNet employee would be prohibited 
from working on any matter in which the state is or represents a party. 
If, however, after considering the factors set forth in the regulations 
and consulting with the Office of the General Counsel for the 
Department of Commerce, the employee's supervisor makes a determination 
that the Government's interest in the former state employee's 
participation in a matter involving the state outweighs the concern 
that a reasonable person may question the integrity of agency programs, 
the employee may be authorized to work on such matters.

    Question 8. Mr. Poth, did the FirstNet RFP require bidders to 
provide maps of the entire country for signal propagation--the 
placement of its towers--at a resolution of 30 meters? If so, did AT&T 
comply? Did any other applicant comply?
    Answer. Yes, the FirstNet RFP (Section L, Instructions, Conditions, 
and Notices to Offerors or Respondents) provided offerors specific 
instructions associated with NPSBN proposal submission, which included 
map submission requirements. All offerors complied with the map-related 
requirements of the RFP.

    Question 9. Mr. Poth, does FirstNet have the right to terminate its 
agreement with AT&T? If so, under what circumstances can FirstNet 
terminate its contractual agreement with AT&T?
    Answer. Yes, FirstNet, through its acquisition service provider, 
can terminate the NPSBN contract with AT&T under certain circumstances, 
pursuant to specific contract clauses that are standard for Federal 
Government contracts.

    Question 10. Mr. Poth, aside from its opt-out policies, what other 
steps will FirstNet take to ensure that public safety users continue to 
have competitive alternatives for its communications products and 
services? Does FirstNet anticipate establishing roaming agreements with 
other wireless carriers, which would enable it to leverage the 
infrastructure of a broader base of wireless competitors? Does FirstNet 
intend to provide public safety users with devices that will allow 
interoperability across multiple broadband networks?
    Answer. FirstNet awarded the NPSBN contract that Congress 
envisioned following a robust, open, and competitive acquisition 
process. When developing the objectives and other content in the NPSBN 
RFP, FirstNet ensured that any offeror submitting a proposal would be 
held to adoption targets that would measure public safety uptake of 
services and give FirstNet the assurance that the services are being 
delivered as committed. AT&T must provide a service in accordance with 
the contract terms and conditions that is compelling, competitively 
priced and relevant to public safety in order to gain and maintain 
public safety customers who are under no obligation to purchase 
services. AT&T will be subject to significant penalties if it fails to 
meet the adoption targets referenced above and specified in the 
contract, which, along with the expected continued robust marketplace 
competition, highly incentivizes AT&T to meet the needs of public 
safety.
    AT&T has established and enabled roaming agreements with all of its 
roaming partners to service NPSBN users. This will ensure that public 
safety not only is able to use AT&T's network, but also those of its 
partners. FirstNet will work with AT&T to ensure that the public safety 
device portfolio is able to use all of the spectrum available.

    Question 11. Mr. Poth, some have expressed concern about securing 
the FirstNet network from cyberattacks or threats perpetrated by 
malicious attackers. In your view, should the Department of Homeland 
Security have a shared role with the Department of Commerce in 
overseeing the security of the FirstNet network?
    Answer. The Middle Class Tax Relief and Job Creation Act or 2012 
(Act) required FirstNet to ``ensure the safety, security, and 
resiliency of the network, including requirements for protecting and 
monitoring the network to protect against cyberattack.'' FirstNet has 
partnered with a number of Federal agencies and departments in order to 
utilize cybersecurity best practices, including the National Institute 
of Standards and Technology (NIST) and The Department of Homeland 
Security (DHS). DHS provided input in the drafting of the NPSBN RFP in 
the area of cybersecurity and remains a key resource for FirstNet on 
cybersecurity issues.
    The FirstNet Network is unique in the fact it is a public wireless 
and wireline telecommunications network that is the product of a 
congressionally mandated public-private partnership between the Federal 
Government and the private sector. This requires a special and specific 
skillset in order to navigate the complexities in fulfilling the 
mission under the Act, which Congress recognized in making FirstNet 
solely responsibile for ensuring the deployment, operation, and 
maintenance of the NPSBN, including the security of the network. DHS 
should not have a shared role in overseeing the security of the 
FirstNet Network--this is clearly FirstNet's responsibility, and 
FirstNet is committed to continuing the partnership with DHS, seeking 
advice and counsel when needed. Cybersecurity is a key objective of the 
NPSBN contract (Attachment J-10, Cybersecurity), and AT&T is 
responsible for ensuring all security measures are implemented in 
accordance with the NPSBN contract. FirstNet has established key 
performance indicators (KPIs), security deliverables and performance 
metrics that will give FirstNet the assurance that cybersecurity is 
being implemented appropriately over the life of the NPSBN contract.

    Question 12. Mr. Poth, it was stated by AT&T and FirstNet that 
Location based technology to solve the Z-axis (vertical) challenge 
would be delivered by 2020. This is a top priority for firefighters. 
Please provide a specific timelines for the deployment of this 
capability.
    Answer. The NPSBN contract with AT&T establishes a schedule that 
obligates AT&T to deliver specific services in accordance with the 
contractually imposed timelines (in this case, as noted, by 2020).
    FirstNet and AT&T are in constant working discussions regarding the 
implementation of the Z-axis technology, primarily focused on our 
nations' firefighters. Z-axis (vertical), also known as 3D Geolocation, 
is an emerging technology with public and private resources being 
invested to speed innovation and research in the field. FirstNet is 
working closely with our Federal partner, the Public Safety 
Communications Research program (PSCR), in accelerating this capability 
by collaborating with location-based services experts across academia, 
industry and government.
    FirstNet has made this a priority, and will continue to work with 
AT&T to find an optimum technological solution within reasonable 
timelines aligned with the technology roadmap.

    a. Mr. Poth, how will FirstNet measure and publicly report on 
meaningful progress towards delivery of this technology?

    b. Mr. Poth, if the 2020 deliverable date is at risk, how will 
FirstNet mitigate that risk and will penalties by imposed?
    Answer a. FirstNet in conjunction with our partner, AT&T, plans to 
continue to report on Z-axis solution progress through forums such as 
briefings to Congress, public statements from FirstNet's Board 
meetings, press releases, social media and blog post updates.
    The NPSBN contract requires AT&T to provide deliverables and 
reports on status of services as they are implemented. FirstNet has the 
responsibility to monitor and oversee AT&T in the delivery of the 
services.
    b. The NPSBN contract holds AT&T to the milestones identified in 
the timelines established. AT&T must provide a service in accordance 
with the contract terms and conditions, and if AT&T does not perform, 
there are penalties identified within the contract (e.g., payments to 
AT&T withheld).

    Question 13. Mr. Poth, First Net and AT&T have indicated that their 
``pricing'' will be competitive. With the potential to monetize Band 14 
though shared usage, do you expect revenue to be sufficient to offer 
free services to first responders?
    Answer. We do not expect FirstNet services to be free at this time. 
FirstNet service will be competitively priced with the market.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Deb Fischer to 
                              Michael Poth
    Question. Mr. Poth, as you know, FirstNet is required by the 
Spectrum Act to look at existing technologies as a way to contain costs 
and leverage existing assets. I am interested in pilot projects the 
Department of Homeland Security is conducting with local public 
television stations. These pilots allow broadcasters to provide 
critical public safety information to local, state, and national first 
responders through the use of secure datacasting technology. The over-
the-air broadcast signals, which is how the data would flow, already 
reach 97 percent of U.S. households. It seems like this technology has 
the potential to save taxpayer dollars and ensure that most Americans 
can access public safety information. What steps are you taking to 
incorporate public television's public safety datacasting capabilities 
as you deploy the FirstNet network?
    Answer. FirstNet and AT&T continue to look at new and emerging 
technologies that could be leveraged to deliver needed services for 
public safety, including datacasting. FirstNet recognizes that 
technology evolves rapidly and new opportunities can always arise. 
Innovation is core to our mission and will remain a focus for the 
duration of the network.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Ron Johnson to 
                              Michael Poth
    Question 1. The Middle Class Tax Relief and Job Creation Act of 
2012 requires that FirstNet leverage commercial infrastructure 
including by establishing roaming agreements with wireless service 
providers. I am happy to see that FirstNet's contract with AT&T 
leverages that carrier's commercial infrastructure. Does FirstNet 
anticipate establishing roaming agreements with other wireless carriers 
which would enable it to leverage the infrastructure of a broader base 
of wireless competitors?
    Answer. Yes. As part of its winning bid to buildout the FirstNet 
network, AT&T teamed with other small and rural wireless carriers to 
extend infrastructure beyond its existing footprint. Additionally, AT&T 
maintains the ability to expand and continue to partner with small and 
rural providers to extend coverage through roaming agreements and other 
infrastructure partnerships through the life of the 25-year contract.

    Question 2. I have been pleased with FirstNet's progress, 
particularly the fact that it has remained on or below budget. Will you 
commit to continue to be a responsible steward of American taxpayers' 
dollars and not request additional funding from Congress?
    Answer. Yes. Congress has FirstNet's commitment to be a responsible 
steward of American taxpayers' dollars, and we do not intend to request 
additional Federal funding from Congress. With FirstNet's partnership 
with AT&T, it is a fully-funded, self-sustaining Network. In return, 
America's public safety responders will receive specialized services 
far above and beyond what they have today over a first-class broadband 
network dedicated to their communications needs. In addition, this 
innovative public-private partnership will create many new jobs and 
ensure public safety has a voice in the growth and evolution of the 
Network.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                              Michael Poth
    Quesiton 1. States have returned State and Local Implementation 
Grant Program (SLIGP) funding based upon a commitment from the National 
Telecommunications and Information Administration that SLIGP funding 
would be distributed in 2018 following an extension of that grant 
program. What actions is FirstNet taking to ensure that SLIGP funding 
is provided to states in 2018?
    Answer. Section 6302 of the Middle Class Tax Relief and Job 
Creation Act of 2012 (the ``Act'') directs the National 
Telecommunications and Information Administration (NTIA) to establish 
and administer the State and Local Implementation Grant Program 
(SLIGP), including the distribution of and scope of eligible activities 
for grant funding. FirstNet recommends the Committee contact NTIA on 
specifics related to SLIGP and any potential extension of the grant 
program.

    Question 2. Rural coverage is a high priority. Will AT&T and 
FirstNet consult with states on the placement of towers and antennas 
impacting rural coverage?
    Answer. Yes, FirstNet remains dedicated to consulting with states 
to expand rural coverage, particularly in areas that have been 
prioritized by states to meet a public safety need. Indeed, states have 
had the opportunity over the last several months to work with FirstNet 
and AT&T on the placement of additional tower resources in their 
respective states to fill in coverage gaps and increase capacity. 
FirstNet learned early-on in the consultation process that rural 
coverage is a top priority throughout the country, and FirstNet and 
AT&T are dedicated to continuing to work with states on the placement 
of towers and antennas that will reach rural America. Deployable 
solutions, using COLTS (Cells on Light Trucks) and COWs (Cells on 
Wheels), will also be utilized in rural areas to enhance coverage.

    Question 3. It is hoped and desired that AT&T and FirstNet will 
thoroughly explore state tower assets for co-location of multi-band 
transmitters to expand beyond the initial plan's current coverage 
proposal. What actions will AT&T and FirstNet take to consider 
opportunities to leverage state tower assets?
    Answer. Throughout the consultation process, FirstNet has explored 
state assets to further expand network coverage. Since AT&T was awarded 
the nationwide public safety broadband network contract in March 2017, 
AT&T and FirstNet have continued this work and maintain an open-door 
policy with the states when it comes to exploring state-owned 
infrastructure. Per section 6206(c) of the Act, FirstNet is to leverage 
existing infrastructure ``to the maximum extent economically 
desirable'' to drive down costs and expedite network deployment. As 
such, FirstNet and AT&T will continue to look at all federal, state, 
local, county, and city assets, as well as private assets, to determine 
which are economically desirable for use by the partnership to deploy 
the FirstNet network.

    Question 4. As volunteer first responders are a large percentage of 
the public safety community, when will AT&T and FirstNet have the 
individual sign-up process for public safety volunteers developed and 
when will it be shared with the states?
    Answer. FirstNet recognizes the important role that volunteer first 
responders play in every state. Througout our consultation with our 
partners in the state, we heard from numerous volunteer first 
responders about their challenges. In states that ``opt-in'' to the 
AT&T/FirstNet solution, FirstNet is targeting a sign-up process for 
individual public safety volunteers by the end of 2017. Volunteer 
departments who will be purchasing service for their volunteer force 
may purchase immediately upon the governor's decision to opt in.

    Question 5. The Committee intends to remain engaged with state 
governments on FirstNet matters, maintaining awareness of states' 
experiences with FirstNet and AT&T as the construction of the 
Nationwide Public Safety Dedicated Broadband Network occurs. What 
actions will AT&T and FirstNet be taking to remain engaged with state 
governments?
    Answer. From the outset, FirstNet initiated robust engagement and 
outreach with state governments as part of our consultation process. 
Since the award of the contract, AT&T has joined that outreach effort. 
FirstNet and AT&T have a robust outreach and consultation team 
dedicated to working with our state and local partners across the 
country. FirstNet and AT&T personnel are out in the states routinely 
meeting face-to-face with state governments through individual meetings 
and state, regional, and national conferences and events across the 
country. We have met with all 56 states and territories since the 
contract was awarded in March. This engagement has been amplified since 
the release of state plans in June. FirstNet and AT&T look forward to 
continuing such engagement with the states throughout the remainder of 
the contract.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                              Micahel Poth
    Quesiton 1. As the Ranking Member of the Federal Spending Oversight 
Subcommittee, it is important to me that Federal initiatives like 
FirstNet are run efficiently and provide maximum value to communities. 
I appreciate that FirstNet has taken a number of steps to establish 
contract oversight mechanisms to this end. Two important factors that 
must be monitored are: (1) the requirement to partner with local 
telecom providers for buildout and (2) leasing of FirstNet 
infrastructure and spectrum to commercial users, which will make the 
program solvent--and also will provide opportunities for local users to 
build out commercial broadband, particularly in rural areas. What 
oversight measures have you put in place to ensure that local 
infrastructure buildout and leasing will maximize cost efficiency and 
safe network access? What continuing oversight will you do, and how do 
you plan to partner with states, to ensure that local communities and 
providers have competitive opportunities to build off this network? 
What oversight mechanisms will you put in place to ensure that public 
safety agencies can have ongoing input and recourse for any issues?
    What oversight measures have you put in place to ensure that local 
infrastructure buildout and leasing will maximize cost efficiency and 
safe network access?
    Answer. As of this time, the nationwide public safety broadband 
network (NPSBN) contract task order that will initiate the buildout of 
the state radio access networks (RANs) has not been executed. The basis 
of the task order is dependent upon the states that opt-in to the 
FirstNet solution, a process that is ongoing. However, once issued, the 
task order will contain quality assurance surveillance items that will 
allow FirstNet to track key performance indicators (KPIs) to measure 
and monitor the performance of the NPSBN contractor throughout the life 
of the contract. These measures, along with the acceptance criteria of 
key state RAN deliverables and built in contract disincentives (if the 
contractor does not perform), will give the government the assurance 
that the NPSBN contractor is performing the due diligence required to 
maximize cost efficiency and safe network access; and ensure overall 
program success. Additionally, both programmatic and contractual 
processes have been put in place to assist in the monitoring and 
oversight required, including but not limited to a FirstNet network 
governance model, contract administration plan, change and 
configuration management processes, and a FirstNet network Concept of 
Operations plan.

    Question 2. What continuing oversight will you do, and how do you 
plan to partner with states, to ensure that local communities and 
providers have competitive opportunities to build off this network?
    Answer. FirstNet will continue to engage in the ongoing assessment 
of how we utilize commercial, state, Federal and tribal infrastructure, 
which is a key objective of the contract, and intends to implement 
processes to provide such oversight. FirstNet will continue to engage 
with states and the public safety community throughout the Nation to 
ensure that services are being met as promised by the contractor and in 
accordance with the NPSBN contract. Additionally, both programmatic and 
contractual processes have been put in place to assist in the 
monitoring and oversight required such as the use of integrated task/
project teams, monthly program reviews, and a robust deliverable 
acceptance process.

    Question 3. What oversight mechanisms will you put in place to 
ensure that public safety agencies can have ongoing input and recourse 
for any issues?
    Answer. FirstNet's primary mission is to ensure the establishment 
and continued operation of a network that provides the necessary 
services to enable public safety agencies to perform their duties. 
FirstNet will continue to engage with public safety agencies to ensure 
that they receive the services committed to under the NPSBN contract 
and serve as the primary point of contact in the event the terms and 
conditions of the contract are not being met. Additionally, both 
programmatic and contractual processes have been put in place to assist 
in the monitoring and oversight required.

    Question 4. I understand that FirstNet, in partnership with the 
NTIA-NIST Public Safety Communications Research Program, is engaged in 
research and development to help provide this network with the most up-
to-date, safe communications technology. According to your documents, 
AT&T and FirstNet will use your new Innovation and Test Lab to test 
public safety devices and applications for the network. You also 
launched a Public Safety Innovation Accelerator Program and are 
planning other research activities. As you test technologies for 
deployment across the nation, and also develop innovative new 
technologies for first responders, one of the most important factors 
will be future-proofing the network. As technology evolves in the 
future, public safety agencies should be able to adopt the most 
cutting-edge technologies and use them seamlessly with FirstNet. How 
will you ``future-proof'' the network and devices to ensure that it is 
adaptable for decades to come? How does this factor in to your research 
and development strategy? Can you tell us more about the innovations in 
public safety technology we may see through FirstNet in the future? 
What devices and applications do you hope will be available to first 
responders nationwide in a fully modern network?
    Answer. FirstNet's enabling legislation requires the NPSBN to 
evolve as technology advances. FirstNet's public-private partnership 
with AT&T will allow the network to do just that. In addition to the 
Federal Government's research and development (R&D) initiatives, such 
as those at National Institute of Standards and Technology's (NIST) 
Public Safety Communications Research (PSCR) program, National 
Telecommunications and Information Administration's (NTIA) Institute 
for Telecommunication Sciences labs, Department of Homeland Security's 
Office of Science & Technology, FirstNet will also leverage AT&T's own 
private R&D investments. All of these diverse R&D programs now have a 
unified platform for which to develop and commercialize their solutions 
with FirstNet's network and platform. Innovations such as geolocation 
application services, Z-axis location for in-building search and 
rescue, mission critical push-to-talk, proximity services for off-
network mobile-to-mobile communication, and applications that span from 
volunteer firefighter management and coordination to iPhone body camera 
technology are just a few of the many advances on the horizon expected 
for the FirstNet network. It is an exciting time for public safety, now 
and many years into the future.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                            to Michael Poth
    Question 1. Does the Public Safety Spectrum Act effectively outline 
the proper guidance for FirstNet coordination needed between Federal 
law enforcement and state and local first responders?
    Answer. FirstNet's enabling legislation required FirstNet to 
consult with local, state, federal, and tribal public safety entities. 
FirstNet is incredibly proud of the consultation program we have 
established and implemented over the past three years. We have 
dedicated consultation and outreach teams focused on local, state/
territorial, regional, tribal, and Federal engagement, and have 
continually coordinated with and brought together the different groups 
in both small and large settings. Through 2017, FirstNet has hosted 
over 1,600 public safety-focused events reaching over 200,000 local, 
state, federal, and tribal representatives through which we have 
continued to coordinate and plan how the network will function for all 
of our Nation's public safety disciplines. While the enabling 
legislation did not specifically outline coordination between Federal 
and state and local first responders, we believe it established an 
effective framework for engagement and consultation with public safety 
at the federal, state, and local levels that will benefit the public 
safety community nationwide.

    Question 2. Given a joint response situation where First Responders 
of different disciplines and origin support a current event or crisis, 
what thoughts, preparations, planning or consideration is given to 
communications platforms or applications that are easily managed by 
those in command and easily used and understood by those in the field?
    Answer. One key differentiator of the FirstNet network is that, for 
the first time, public safety has a unified platform where developers 
are incentivized to develop new and unique public safety applications 
due to economies of scale. We are already seeing new venture capital 
firms focused on public safety applications and a significant number of 
applications for NIST's Public Safety Communications Research (PSCR) 
Challenge Grants because of the inevitable network effects that the 
FirstNet platform will be supporting over the coming years.
    Much thought and preparation has gone into ensuring that those in 
command and in the field will have the tools necessary to be able to do 
their jobs more effectively and efficiently. FirstNet's Public Safety 
Advisory Committee, for instance, is made up of local, state, and 
nationwide public safety representatives whose purpose is to advise 
FirstNet on exactly these kinds of issues. Additionally, as mentioned 
before, PSCR is looking long-term at how communications platforms will 
change into the future and has been provided with Research and 
Development funds through the FirstNet legislation specifically to 
research and prototype the future state of on-the-ground public safety 
communications. Finally, FirstNet takes seriously its mission to be 
public safety's voice in standards bodies that shape the next 
generation of networks and manufacturing designs. FirstNet will 
continue to participate on these standards bodies to ensure that first 
responders are always taken into account when new standards are 
promulgated.

    Question 3. While I appreciate the principle that FirstNet will be 
financially sustainable, what assurances do we have that the assessment 
of fees on public safety will be reasonable and continue to be 
reasonable, considering some of the budgets state and local communities 
are currently wrestling with? The same goes for the potential of usage 
of the spectrum to expand or improve rural wireless services. Can we be 
assured that there won't be continued high costs for our rural 
constituents who may appreciate the access, but not the cost of this 
service?
    Answer. Congress thought ahead on exactly this question when they 
passed FirstNet's enabling legislation in 2012. By not requiring a 
single public safety entity or individual to purchase FirstNet 
services, even once the network was up and fully operating, Congress 
ensured a competitive pricing landscape for the foreseeable future.
    FirstNet must compete for public safety's business in all states 
and territories, and this competition is already resulting in pricing 
benefits for public safety, while simultaneously giving public safety 
access to applications and security that they have not been previously 
offered. Congress' model for FirstNet's public-private partnership is 
working by increasing competition and lowering prices and barriers to 
access for public safety.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
